<html>
<title> - OVERSEEING THE ONGOING REBUILDING AND RESTORATION EFFORTS OF HURRICANE AND FLOOD PROTECTION BY THE ARMY CORPS OF ENGINEERS</title>
<body><pre>[Senate Hearing 109-1032]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 109-1032
 
OVERSEEING THE ONGOING REBUILDING AND RESTORATION EFFORTS OF HURRICANE 
          AND FLOOD PROTECTION BY THE ARMY CORPS OF ENGINEERS

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                    APRIL 18, 2006--NEW ORLEANS, LA

                               __________

  Printed for the use of the Committee on Environment and Public Works


Available via the World Wide Web: http://access.gpo.gov/congress.senate

                               __________



                     U.S. GOVERNMENT PRINTING OFFICE
42-276 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED NINTH CONGRESS
                             SECOND SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
JOHN W. WARNER, Virginia             JAMES M. JEFFORDS, Vermont
CHRISTOPHER S. BOND, Missouri        MAX BAUCUS, Montana
GEORGE V. VOINOVICH, Ohio            JOSEPH I. LIEBERMAN, Connecticut
LINCOLN CHAFEE, Rhode Island         BARBARA BOXER, California
LISA MURKOWSKI, Alaska               THOMAS R. CARPER, Delaware
JOHN THUNE, South Dakota             HILLARY RODHAM CLINTON, New York
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
JOHNNY ISAKSON, Georgia              BARACK OBAMA, Illinois
DAVID VITTER, Louisiana
                Andrew Wheeler, Majority Staff Director
                 Ken Connolly, Minority Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

                    APRIL 18, 2006--NEW ORLEANS, LA
                           OPENING STATEMENTS

David, Vitter Hon., U.S. Senator from the State of Louisiana.....     1

                               WITNESSES

Drennen, Mark C., president and ceo, Greater New Orleans, Inc....    25
    Prepared statement...........................................    62
Dufrechou, Carlton, executive director, Lake Pontchartrain Basin 
  Foundation.....................................................    35
    Prepared statement...........................................    73
    Response to an additional question from Senator Jeffords.....    74
Hitchings, Daniel H., P.E., Regional Business Director, 
  Mississippi Valley Division, U.S. Army Corps of Engineers......     5
    Prepared statement...........................................    49
    Responses to additional questions from Senator Jeffords......    51
Jackson, Thomas L., P.E., F.ASCE, D. WRE, past president, 
  American Society of Civil Engineers and senior vice president, 
  DMJM Harris (Ret.).............................................    33
    Prepared statement...........................................    70
Kerner, Timothy P., Mayor, Town of Jean Lafitte and vice 
  president, West Jefferson Levee District, Jefferson Parish, LA.    23
    Prepared statement...........................................    57
Link, Lewis E., Ph.D., director, Interagency Performance 
  Evaluation Task Force..........................................    32
    Prepared statement...........................................    63
    Responses to additional questions from Senator Jeffords......    67
Rousselle, Benny, president, Plaquemines Parish Government.......    21
    Prepared statement...........................................    56
    Response to an additional question from Senator Jeffords.....    57
Smith, Hon. William Clifford, member, Mississippi River 
  Commission, Civil Works, U.S. Army Corps of Engineers..........    19
    Prepared statement...........................................    53
Woodley, Hon. John Paul, Jr., Assistant Secretary of the Army for 
  Civil Works, U.S. Army Corps of Engineers......................     4
    Prepared statement...........................................    43
    Responses to additional questions from Senator Jeffords......    47

                          ADDITIONAL MATERIAL

Statements:
Heerden, Ivor van, Ph.D. Head, State of Louisiana Forensic Data 
  Gathering Team Director........................................    89
Mlakar, Paul F., Ph.D., P.E. Senior Research Scientist, U.S. Army 
  Research and Development Center................................    84
Nicholson, Peter, Ph.D., P.E. Associate Professor of Civil and 
  Environmental Engineering and Graduate Program Chair...........    96
Resonthal, Sandy, Founder Levees.org.............................    79
Seed, Raymond B., Ph.D. Professor of Civil and Environmental 
  Engineering....................................................    80


OVERSEEING THE ONGOING REBUILDING AND RESTORATION EFFORTS OF HURRICANE 
          AND FLOOD PROTECTION BY THE ARMY CORPS OF ENGINEERS

                              ----------                              


                        TUESDAY, APRIL 18, 2006

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    New Orleans, LA
    The committee met, pursuant to notice, at 10 o'clock a.m., 
Louisiana Supreme Court, Supreme Court Chambers, 400 Royal 
Street, New Orleans, LA, 70130, Hon. David Vitter presiding.
    Present: Senator Vitter, Senator Landrieu, and 
Representative Jefferson.

 OPENING STATEMENT OF HON. DAVID VITTER, U.S. SENATOR FROM THE 
                       STATE OF LOUISIANA

    Senator Vitter. Good morning. I want to thank all of you 
for being here.
    I thought this field hearing of the Senate Committee, which 
has oversight and responsibility over the U.S. Army Corps of 
Engineers, was very important, particularly as we are 
approaching the next hurricane season, which starts in early 
June. Clearly, since Katrina and Rita, all of us at the Federal 
level have had our hands full in terms of emergency levee and 
other hurricane protection work. Constant oversight and 
communication with the corps has been a very important part of 
this. So this hearing is a continuation of that ongoing 
communication and oversight.
    Katrina was an enormously devastating and significant 
event, as everyone knows. It was the largest natural disaster 
in the Nation's history, unparalleled in so many ways. In 
addition, it truly was a man-made disaster, because major 
catastrophic flooding in New Orleans also occurred because of 
levee breaches that were related to serious design flaws.
    I think that last point is particularly important as we 
move forward. We have to move forward to correct those mistakes 
through proper design, engineering and oversight. But we also 
need to do it in a very quick, expedited way, knowing that the 
next hurricane season is right around the corner. So again, 
that's what this hearing is all about.
    We have several panels, and I am going to run through the 
outline of the hearing briefly, then we will get to our first 
panel. Panel one of three panels is composed of representatives 
of the U.S. Army Corps of Engineers, in particular, the 
Assistant Secretary, civilian leader of the corps, and Dan 
Hitchings, the Director of Task Force HOPE, which is all of the 
emergency levee and related work following Hurricane Katrina. 
We will hear from them and have dialog and questions about the 
progress and the status of that ongoing work.
    Panel two is comprised of four representatives from 
impacted areas, folks in the immediate area of southeast 
Louisiana, who serve in various capacities, who live in all of 
these impacted areas. I will introduce them individually when 
we get to that panel. And panel three is composed of outside, 
independent engineering and environmental experts. Personally, 
I think one of the most important lessons of Katrina, 
particularly as it relates to levee work and the Corps of 
Engineers, is that we all need to come together and bring 
whatever outside, independent expertise is possible to bear on 
this ongoing work in an efficient way. Too often, in my 
opinion, the corps has been insulated and isolated in terms of 
some of their processes and work. And this independent 
expertise is crucial in order to build consensus and get things 
done right.
    I believe it is being built into the process in at least an 
informal way with regard to various studies that have been 
going on since Katrina. And there are many, many different 
studies. Secretary Rumsfeld authorized the American Society of 
Civil Engineers to convene an external review panel to provide 
independent oversight.
    In addition, there is the IPET, which is the direct study 
authorized by the Army and by the DOD. Then there are many 
other outside, independent groups, environmental and 
engineering groups, that have done oversight, unofficial 
oversight, if you will, and brought their expertise to bear.
    As we move on, I believe it is essential to systematize 
that outside, independent expertise, to make sure it is built 
into the process and organized in an ongoing way. And panel 
three will represent three significant outside and independent 
experts to talk about how we move forward in that way.
    With that overview, let's start with our first panel. This 
first panel is the Corps of Engineers, specifically the 
Honorable John Paul Woodley, Jr., Assistant Secretary of the 
Army for Civil Works, the civilian leader of the U.S. Army 
Corps of Engineers; and Mr. Daniel Hitchings, Director of Task 
Force HOPE, and the Regional Business Director for the 
Mississippi Valley Division, the leader of the immediate 
emergency work going on, particularly in southeast Louisiana.
    I thank you both for being here. I know you have already 
submitted full written statements for the record that will be 
included in the record, the entire written statement. I would 
ask for purposes of this hearing that you summarize those 5 
minute speeches, then we will proceed to questions and 
discussions.
    Secretary Woodley.
    [The prepared statement of Senator Vitter follows:]

    Statement of Hon. David Vitter, U.S. Senator from the State of 
                               Louisiana
    Good Morning. Thank you all for coming this morning for this very 
important Senate Environment and Public Works Committee field hearing 
to oversee the ongoing rebuilding and restoration efforts of hurricane 
and flood protection by the Army Corps of Engineers' in preparation for 
next hurricane season and also examine developing a comprehensive 
approach to hurricane protection in Louisiana.
    I am holding this hearing today as a member of the Senate 
Environment and Public Works Committee because the next hurricane 
season that begins on June 1st is only 44 days away and Louisianans are 
relying on adequate, if not stronger, hurricane protection to be in 
place.
    Just 7\1/2\ months ago, Louisiana and the other Gulf States 
experienced the most destructive natural disaster in our Nation's 
history when Hurricane Katrina struck the Gulf Coast. Only a few weeks 
later, Hurricane Rita further devastated Louisiana. Tragically, 
Hurricane Katrina left over 1,100 people dead with thousands more still 
missing. Thousands of Louisianans lost their homes, their jobs, their 
communities, and sadly too many lost their lives or the lives of loved 
ones.
    In addition to the millions displaced and hundreds of thousands 
unemployed as a result of Hurricane Katrina, virtually every American 
has been impacted and still feels the repercussions of this 
extraordinary disaster through paying higher prices for energy bills 
and gas at the pump. Hurricane Katrina represents one of the first 
times in history where a major metropolitan area was evacuated and its 
economic activity virtually ceased. We must make sure this devastation 
absolutely never happens again and that is why I am holding this 
hearing today to ensure progress has been made with the restoration and 
rebuilding of hurricane protection so we are ready for this hurricane 
season.
    The issue that makes this event even more extraordinary--more 
unique--is that it was not entirely a natural disaster. The major 
destruction during Hurricane Katrina was man-made. Our Federal levees 
failed and others were simply too low and not built up to standard. 
Both of these man-made failures could have been prevented. We can not 
afford for these fatal failures to happen again. This is why I have 
already introduced several pieces of legislation to help get us where 
we need to be by June 1st for the next hurricane season.
    I recently introduced the ``Louisiana Emergency Needs Corps of 
Engineers Authorization Act,'' which would give the Corps of Engineers 
the full Congressional authorization it needs now to begin construction 
on projects such as installing permanent pumping stations that will 
ensure stronger hurricane protection for south Louisiana.
    Congress has been very helpful in quickly approving emergency 
legislation needed to address the urgent needs of Louisiana. Now, 
additional urgent action is needed. In many cases, the problems are not 
a result of money or technological hurdles. The Corps of Engineers has 
informed us where the weak areas and design flaws are located and what 
needs to be improved. We know the solution. The problem is authority. 
We are unable to implement the fix because of technical changes to the 
law. That is it. That is the single issue preventing improvements to 
problems affecting less than 5 percent of our hurricane protection 
system. You are only as strong as your weakest link and Congress can 
fix this weak link.
    We were unprepared for Hurricane Katrina at the local, State and 
Federal level. There is no question. Now, we better understand the 
weaknesses. We know the solutions. Our Nation can not afford to be 
unprepared again.
    Congress needs to move forward now and pass legislation before this 
next hurricane season begins so the Corps of Engineers has the full 
Congressional authority it needs to rebuild our levees. I believe the 
corps needs that are included in the Supplemental Appropriations bill 
are crucial to moving forward with stronger hurricane protection that 
is needed now.
    The Corps of Engineers has been working hard to restore and rebuild 
hurricane protection in Louisiana. Today, we will hear an update on the 
Corps of Engineers' progress from both Assistant Secretary of the Army 
for Civil Works--the Honorable John Paul Woodley, Jr. and Mr. Daniel 
Hitchings who served as Director of the Task Force Hope after Hurricane 
Katrina struck.
    The Corps of Engineers' also commissioned the Interagency 
Performance Evaluation Task Force (IPET) to obtain the facts by 
collecting, analyzing, testing and modeling data and information on the 
performance of the New Orleans hurricane protection system during 
Hurricane Katrina. I look forward to hearing from Dr. Lewis Link, the 
Director of IPET, who is here today to provide an update on IPET's 
findings.
    In addition to IPET, there are several ongoing independent 
investigations examining and analyzing the ongoing restoration of 
hurricane protection. Defense Secretary Donald Rumsfeld authorized the 
American Society of Civil Engineers (ASCE) to convene an external 
review panel to provide independent oversight and conduct continuing 
expert review of the work performed by IPET. I look forward to hearing 
from Mr. Thomas Jackson who is a member of the External Review Panel.
    IPET and ASCE's external review panel are made up of independent 
panels of national experts drawn from the public, private sectors and 
academia. I believe having independent experts are valuable to have 
involved throughout the corps process and play an important role during 
the restoration and rebuilding of hurricane protection in South 
Louisiana. I recently introduced the `Louisiana Hurricane and Flood 
Protection Council Act' that calls for a Council of independent experts 
who would work with the corps throughout the process from design to 
construction. The Council would also take a comprehensive approach to 
corps projects and determine ways to integrate projects that would 
allow for more efficiency, be more cost effective and save taxpayers 
money and also ensure projects are implemented in a timely manner.
    Today, we will also hear from locals who will share their 
perspective on impacts from Hurricane Katrina and Hurricane Rita and 
why it is very important for hurricane protection to be restored by 
this next hurricane season for their communities, businesses and 
neighbors to return home to New Orleans and the surrounding parishes. 
Restoration of hurricane and flood protection that incorporates better, 
smarter designs is a key factor for Louisianans and businesses when 
deciding whether or not to return to the Greater New Orleans area. 
Louisianans who want to return home are looking for certainty that a 
stronger, more advanced levee system is in place before they rebuild 
their lives in the same area again. Thank you and I look forward to 
hearing from the witnesses.

    STATEMENT OF THE HON. JOHN PAUL WOODLEY, JR., ASSISTANT 
SECRETARY OF THE ARMY FOR CIVIL WORKS, UNITED STATES ARMY CORPS 
                          OF ENGINEERS

    Mr. Woodley. Thank you, Senator. I want to express my 
appreciation and that of the Administration for your leadership 
in holding this very important hearing, and in the oversight 
and wisdom that you have been providing, both before this 
incident and since, as we work to foster the reconstruction of 
the civil works in and around Southeast Louisiana, and the 
recovery of this area and its economy.
    I am very honored to be here to testify before the 
committee in preparation for the next hurricane season. I am 
joined today, as you stated, by Mr. Dan Hitchings, Director of 
the Corps of Engineers Task Force HOPE. We also have Dr. Lewis 
E. Link, the Project Director for the Interagency Performance 
Evaluation Task Force, who will appear on a later panel.
    The corps is on schedule to repair the damaged levees and 
flood walls to their pre-storm condition by June 1st, the 
beginning of the hurricane season in 2006. Last year, I 
enlisted the National Academies of Science and Engineering to 
assemble a multi-disciplinary panel to assist in the forensic 
investigation of the performance of corps' projects during 
Hurricane Katrina. The Chief of Engineers, at the same time, 
established an Interagency Performance Evaluation Task Force, 
known as the IPET, to provide credible and objective scientific 
and engineering facts to answer questions about the performance 
of the New Orleans hurricane and flood protection system. As 
you mentioned, Senator, the American Society of Civil Engineers 
provided external peer review of IPET activities through an 
external review panel.
    The corps is immediately acting to incorporate findings of 
all these studies into both its interim repair and the long-
term planning for future work. A draft performance evaluation 
report for the IPET is scheduled for June 1, 2006. The National 
Academies Committee on New Orleans Regional Hurricane Projects 
will perform independent review of the final draft IPET and 
ASCE final reports. I expect to receive the National Academies 
report in September 2006. The final IPET report will be 
released shortly thereafter, and I have asked the National 
Academies to review and provide comments on the final IPET 
report.
    At the same time, on a parallel path with IPET and National 
Academies studies, Congress authorized and appropriated funds 
for a 2-year, $20 million Louisiana Coastal Protection and 
Restoration Project Analysis and Design, to identify options 
for increasing the level of hurricane storm protection for New 
Orleans and coastal Louisiana. The interim report is due in 
June 2006, and the final report recommendations and 
alternatives due at the end of 2007.
    Immediately after the hurricane, President Bush committed 
to helping New Orleans rebuild, reconstruction of its hurricane 
protection system. In supplemental appropriations to date, 
Congress and the President have provided $2.08 billion to 
repair and restore the levee system to its designed height.
    In February of this year, I submitted a proposal for a 
supplemental appropriation to strengthen and improve the 
hurricane protection for greater New Orleans. The repairs and 
rebuilding activities that are now underway will make the flood 
control and personal protection system better than it was 
immediately prior to Hurricane Katrina. The additional measures 
that I proposed in February will result in a system 
significantly better and stronger than before. These measures 
are estimated to cost $1.46 billion, and have yet to be 
authorized and funded. If appropriated in 2006, these measures 
can be completed in 2010.
    In the weeks since my February recommendation, new 
information has been developed that has caused us to recommend 
additional modifications to the system, first, because of the 
findings of the IPET, and second because new post-Katrina 
weather data informs us that the statistically determined 100-
year storm is a more powerful storm than the storm for which 
the existing hurricane protection system was designed. We are 
working now to provide additional information to allow Congress 
to consider the options for providing that 100-year level of 
protection.
    Thank you, Senator, for this opportunity. I would certainly 
be delighted to respond now and later to all your questions and 
concerns.
    Senator Vitter. Thank you, Mr. Secretary.
    We also have, as I mentioned, Dan Hitchings, Director of 
Task Force HOPE.

   STATEMENT OF DANIEL H. HITCHINGS, P.E., REGIONAL BUSINESS 
   DIRECTOR, MISSISSIPPI VALLEY DIVISION, U.S. ARMY CORPS OF 
                           ENGINEERS

    Mr. Hitchings. Thank you, Senator Vitter, for the 
opportunity to testify before the committee today. My written 
testimony today provides a summary of the hurricane protection 
system and authorized and funded work that is ongoing to 
reestablish a hurricane protection system before the start of 
the next summer's hurricane season.
    We are engaged in a number of activities, starting first 
with the repair. The Corps of Engineers is well on its way to 
accomplishing the initial goal of repairing the damaged 
portions of the protection system and is committed to 
completing the reconstruction by 1 June. All work is currently 
on schedule. There is no indication that we are going to have 
any difficulty in restoring the protection by that period of 
time. Extensive onsite investigation and sampling and 
laboratory testing is performed to ensure only quality 
materials are being used.
    The second element that we have going on relates to 
restoration of undamaged and subsided areas. The corps 
continues to conduct both surface and subsurface investigations 
of the remaining undamaged portion of the system in the New 
Orleans area to determine exactly what needs to be done to 
strengthen those. As Secretary Woodley referred to the IPET 
findings, we recently became aware of a situation where we now 
question the integrity of the floodwall system. So we have to 
do further investigation to ensure that that is capable of 
performing as designed and in any place that it is not, to take 
action to ensure that it does have the ability to meet its 
design intent.
    So essentially what we are doing will result in a full 
restoration of the hurricane protection system to its 
authorized levels. We also are funded to complete the 
unconstructed portions of authorized projects. That primarily 
is in the West Bank and Vicinity project, also in the Lake 
Pontchartrain and Vicinity project, mostly in the St. Charles 
Parish area. At the end of all of that work, the entire system 
will be constructed as authorized, to its authorized level.
    This concludes my statement. I have some additional 
graphics to support any questions you may ask. And I am ready 
to take those questions. Thank you.
    Senator Vitter. Thank you very much, Dan. We will get on to 
discussion and questions.
    Secretary Woodley, as you know, recently General Carl 
Strock, Chief of Engineers with the corps, testified before a 
Senate Committee to the effect that the breaches in the levees 
of the outflow canals were due largely to design flaws under 
the responsibility of the Corps of Engineers. Do you disagree 
with his testimony on that point in any way?
    Mr. Woodley. No, sir, I do not. I think that I would 
reserve any further comment on my part until receipt and review 
of the independently reviewed investigation that is intended to 
fully answer that question. But based on what I know today, I 
know of no reason to differ with the testimony provided by 
General Strock.
    Senator Vitter. Based on that, would you agree that that 
places on the Federal Government, and specifically the corps, a 
rather extraordinary responsibility in terms of response, given 
that that means that perhaps 70 percent of the catastrophic 
flooding in New Orleans was essentially man-made, not an act of 
nature?
    Mr. Woodley. Actually, Senator, I think that our 
responsibility for response is the same under either condition. 
Our responsibility for response is great and enormous, 
regardless of whether the works performed as designed or 
whether they did not perform as design.
    Senator Vitter. I guess I am particularly thinking of 
something that may be outside the Corps of Engineers' purview, 
which is compensating for uninsured losses of homes that 
suffered from catastrophic flooding because of the design 
failure. It seems to me there might be a different 
responsibility there, if it were an act of God versus a 
mistake, essentially, of the Federal Government. That is the 
distinction I am drawing.
    So again, the question is, would you agree that General 
Strock's testimony on the design failures at issue places on 
the Federal Government broadly perhaps an extraordinary 
responsibility?
    Mr. Woodley. I would say the responsibility is essentially 
the same, regardless. The responsibility is great and grave. 
The precise nature of it and the course it should take is a 
matter for the gravest deliberation by the Administration and 
by Congress. I know that our response in the Corps of Engineers 
has been very substantial, and been, I believe, reflects that 
sense of responsibility.
    Senator Vitter. As you know, the next hurricane season is 
quickly approaching. It starts in early June. How would you 
describe to residents in the area the levee and hurricane 
protection system that we will have by that time, as compared 
to what it was the day before Hurricane Katrina?
    Mr. Woodley. I believe that I would describe it as better 
and more capable of withstanding and protecting against 
catastrophic flooding than the system that we had prior to 
Hurricane Katrina. I would also say that an event the size of 
Hurricane Katrina would result in a certain amount of flooding 
within the city and that a storm of that size should be a 
matter of grave concern and should be detected on a path that 
would take it in or near the city.
    Senator Vitter. With regard to the protection we will have 
by early June, what would the corps' expectation be if Katrina 
were replayed exactly as it happened, specifically with regard 
to levee breaches? Clearly there was overtopping. I assume 
there would still be overtopping if Katrina were replayed this 
hurricane season. But specifically with regard to breaches, 
which of course was the biggest problem and caused the most 
damage, what would the corps' expectation be of how the system 
would withstand an exact repeat of Hurricane Katrina?
    Mr. Woodley. Senator, without modeling the event, and I 
believe it's fair to say that we have not modeled it, I can 
only respond in a very general way. We believe that many of the 
works in place would be overtopped. So there would be flooding 
resulting from that overtopping.
    We believe, however, that the system that we are placing in 
place along the shore of Lake Pontchartrain, in which we are 
closing the outfall valves with gated closure structures where 
the canals enter Lake Pontchartrain, removes much of the 
vulnerability to breach in that area. We believe that we would 
like to, we are recommending improvements in armoring that are 
not going to be in place as of 1 June that would give 
additional protection to some of the more vulnerable places in 
the levees where, for instance, utilities cross the levees or 
railroads cross the levees, or navigation structures cross the 
levees. So we will have a better system in place, but I believe 
it is fair to say that we will not have a system in place to 
prevent flooding in all cases if a storm the size of Katrina 
were to strike New Orleans or its vicinity.
    Senator Vitter. Dan, let me ask the same question of you 
with regard to a repeat of Katrina, specifically on the issue 
of breaches. It might be useful, I don't want to suggest an 
answer, but if it's useful to distinguish between different 
areas east of the Industrial Canal, west of the Industrial 
Canal, anything like that, please do so. What would be your 
response?
    Mr. Hitchings. My response is in full agreement with what 
Mr. Woodley described here. If I could put a map up of, map No. 
3, to help illustrate some of these areas more specifically, 
and highlight what we have done to prevent the type of 
breaching that occurred in those areas.
    This is a map that shows the overall area of Orleans 
Parish, including these areas here in the lower 9th Ward, St. 
Bernard Parish, then Plaquemines Parish, continuing in these 
two areas. We experienced breaching on the canals as a result, 
not of overtopping, but of a failure of a mechanism that 
supported those structures in that particular area. We also 
experienced flooding and breaches along the west side of the 
Industrial Canal.
    The corrective actions we have taken, as Mr. Woodley 
described, closing off those canals, will prevent surge from 
entering the canals. We do not anticipate that we will have any 
breaches in those areas as a result of that.
    On the Industrial Canal west bank, we have also taken 
corrective action, one, by repairing all the breaches, and what 
we put back in there is a stronger structure than it was. But 
on those unbreached portions, where it scoured behind them 
significantly, we are putting in scour protection to prevent 
the undermining of those structures should they be overtopped 
again.
    Along the St. Bernard levee portion, along the MRGO, those 
damaged portions are being reconstructed, significantly better 
than they were before. The materials that we are using are 
entirely glazed, and they are much stronger and more resistant 
to erosion. Overtopping of those would in fact result in some 
scouring. In the absence of their erosion protection, any 
armoring, we do not anticipate that it would result in 
breaching, just in some scouring of those areas. That's also 
true for the New Orleans East area that was damaged in here.
    We did have overtopping all along the levees in New Orleans 
East. And again, that would occur, but we do not anticipate any 
breaches.
    Plaquemines Parish, very similar. All the breaches that 
were in that area, we did reconstruct all those using better, 
more high quality materials than before. Significant 
overtopping in Plaquemines Parish occurred during the storm, 
but again, we do not anticipate that we would have any 
breaches.
    The resultant flooding is an important point to recognize. 
Preliminary calculations that are being refined at this point 
indicate that surge that came out of the Industrial Canal area, 
perhaps even without the breaches, still would have resulted in 
significant flooding in this portion of Orleans Parish. The 
East Bank, New Orleans East area and St. Bernard Parish and 
Plaquemines Parish will also experience the significant 
flooding levels.
    Senator Vitter. If I could interrupt for a second, and you 
are welcome to finish your response in a minute. But something 
you just said confused me, talking about surge around the 
outflow canals. It is my understanding that those levee walls 
were never overtopped.
    Mr. Hitchings. That is correct.
    Senator Vitter. So if they hadn't breached, there may have 
been rain water backed up. Is that what you are talking about?
    Mr. Hitchings. No, I am talking about the fact that along 
the west side of the Industrial Canal----
    Senator Vitter. Oh, that was overtopped.
    Mr. Hitchings [continuing]. Those flood walls were 
significantly overtopped, by as much as 2 feet, for a period of 
up to 6 hours. The volume of water that came into there was 
significant. We are in the process now of actually doing 
refined calculations to show what would have happened had there 
been no breaches. Certainly as we get that information 
available, we will share it with you and the public as well.
    But it is important to recognize that a repeat of Katrina 
doesn't mean that those areas, even if we had no breaches, 
would have the flooding; it's very important for everyone to 
understand.
    Senator Vitter. But as I understand it, correct me if I am 
wrong, you are basically saying, yes, overtopping, no to 
breaches.
    Mr. Hitchings. That is correct.
    Senator Vitter. In terms of the type of flooding you would 
have, I assume you would agree, that is a huge difference 
between flooding, perhaps as we had in East Jefferson, which 
was significant, particularly if it is your home, but it was 
not 12 feet of water or 9 feet of water.
    Mr. Hitchings. Yes. Even if the volume of water ended up 
being the same, the character of the flooding, probably most 
dramatically shown in the Lower 9th Ward area, where houses 
were swept off their foundations, and literally blocks of 
houses destroyed, overtopping may not have caused that kind of 
devastation. The phrase has been used, characterizing that as a 
catastrophic damage. You would still have significant damage 
from the flooding, just from the water rising, but you would 
not expect to see the same type of damage as you described.
    Senator Vitter. On the levees, on the west side of the 
Industrial Canal, what will the height be on June 1st, compared 
to the height the day before Katrina?
    Mr. Hitchings. Well, those areas that were damaged will be 
restored to approximately 15 feet. Some of the areas were as 
low as 12\1/2\ feet. Those undamaged portions will be the same 
height that they were the day before Katrina.
    Senator Vitter. I thought your present work included 
heightening of undamaged sections of the levee system.
    Mr. Hitchings. Yes, it does, but not by the 1st of June.
    Senator Vitter. When will that work be accomplished by?
    Mr. Hitchings. Well, there are two parts to that question. 
We are restoring all of the levees and floodwalls in these 
areas. That will be done September 2007. Particularly in the 
Industrial Canal area, we have two choices for how to address 
that problem. The first choice is to raise those existing 
floodwalls. In most cases, that would require complete 
replacement of those, and we would, since they have to be at a 
higher height, we would most likely replace them with T walls. 
Now, that is an option that is perfectly technically viable to 
accomplish, at a cost estimated at around $400 million.
    What we have proposed, and have presented before Congress, 
would be to put a floodgate at Seabrook to isolate that area 
from Lake Pontchartrain, and then also a floodgate here just 
above the confluence of GIWW and the MRGO that would again 
isolate this area. That is a slightly less costly solution, but 
it is a much better technical solution, because it eliminates 
the flood threat in those areas, by preventing surge from 
entering.
    The disadvantage is that work will take longer to complete 
and could take as long as 2010.
    Senator Vitter. Secretary Woodley, one of the things we 
have been talking about, including here today, is oversight, 
suggestions, input by outside independent experts. Report three 
of the IPET, commissioned by the Secretary of Defense, will be 
released only by June, and the final report is due in the fall 
after the hurricane season.
    Clearly, there is an issue of how you balance doing things 
thoroughly and doing things timely. What are your views on that 
balance, No. 1? No. 2, what are your views on incorporating, on 
an ongoing and institutionalized basis, the thoughts and input 
and suggestions of outside independent experts?
    Mr. Woodley. Senator, that is something that the corps is 
very open to and is very interested in having that outside, 
external, independent review of our formulation procedures and 
of our design procedures. I think that our experience with that 
has been very good.
    In the IPET process, we are doing this in a very continual 
way. It is not a question of one report being done and then 
that report being reviewed. We are having interim reviews by 
the independent groups having them work very closely and 
provide their ideas and input to the IPET as that work 
proceeds. Dr. Link will discuss that in greater detail when he 
testifies in a subsequent panel. I think we are having a very 
good experience with that, and I believe that it would be 
something that ought to be incorporated in our procedures going 
forward.
    Senator Vitter. So you have no objection to the basic 
concept of institutionalizing outside, independent expert 
suggestions and review?
    Mr. Woodley. No objection whatsoever. I think that it 
should be, it has to be carefully designed so that it does not 
unreasonably take up time and become overly expensive. I 
believe that that type of concern is fully capable of being 
met.
    Senator Vitter. Do you have any specific reactions, pro or 
con, to my particular bill in that regard, in how my particular 
bill goes about designing such a system of institutionalizing 
outside, independent expertise?
    Mr. Woodley. I don't have the details where I can go into 
it with you right now, Senator. But I believe that your 
proposal is a very constructive one and certainly one that we 
within the Administration are looking at very carefully.
    Senator Vitter. OK. I have asked for some time now various 
folks in the Administration for some specific input or reaction 
to the legislation. When could I expect that?
    Mr. Woodley. I didn't realize that we had that due to you, 
Senator. So I will get on it and get it back to you as soon as 
possible. By the end of the month, would that be acceptable?
    Senator Vitter. OK.
    We are joined by Congressman Jefferson, and I welcome him 
and turn to him for any questions he might have, and then I 
will have some wrap-up questions.
    Mr. Jefferson. Thank you, Senator Vitter. I thank you for 
holding this hearing.
    I want to ask one question to follow up on what you were 
asking, with respect to the outside investigations or look-sees 
or whatever. Is there any substantial disagreement, or let me 
ask it a different way. Is there now full agreement? If there 
isn't, then you might tell me where there are areas of 
disagreement between the work that the corps has done to review 
its own work along the levees before Katrina and after, and the 
work of the outside, various outside agencies. Are there 
disagreements now between you and them, or is there now a 
coming-together about what happened?
    Mr. Woodley. I would have to ask Dr. Link to discuss 
exactly what his interactions have been with the other groups. 
I don't know that we have in hand the reports from the other 
groups that would allow us to make precise comparisons between 
them. I do know that the IPET work, I believe, that Dr. Link 
will say, has made some very important discoveries and will 
give us a very sound understanding of what the performance of 
the works were in the event.
    You have to remember that the event was extremely complex. 
What is true of one section of the works is not necessarily 
true of another section. So you have to be very careful when 
you describe what took place and how the different types of 
structures responded to the forces that they were exposed to. 
So given that, there might be one area or another where there 
is not full agreement.
    My impression though is that at the end of the day, the 
scientists and engineers will come together with a strong 
consensus on what took place and a new understanding of the 
kind of engineering and design that needs to be accomplished in 
order to provide flood damage reduction structures in which the 
public will have full confidence.
    Mr. Jefferson. I remember starting out there seemed to be 
wide disagreements between the corps and the outside groups. 
Are you saying that that has narrowed over time and you expect 
it to narrow even more, to the point where there will be 
agreement?
    Mr. Woodley. Yes, sir. Let me say that I think the wide 
disagreements appear to have been more of a matter of 
perception than reality. I think the apparent discrepancies 
were based on describing, one group describing what took place 
at one portion of the event and another one focusing on what 
happened at another portion of the event. They were not 
necessarily at odds, but they appeared to be, because the full 
explanation was not understood by both sides.
    Mr. Jefferson. When do you think you might have a veto 
point where you can make these comparisons and let us know 
exactly what happened there, based on what your work involved 
and what the work of the outside entities involved?
    Mr. Woodley. We will have a final draft report from the 
IPET. The leader of that group is here and will testify later 
today, Dr. Link. That report will be on the 1st of June and it 
will still be subject to a review process, but it won't be 
private. It will be fully available. It will still be subject 
to a review, external, independent review process by the 
National Academy of Science and Engineering. So we will hold 
it, it will be open for that. I believe that based upon the 
process that we have, that on the 1st of June we will have a 
product in which we will have considerable confidence.
    Mr. Jefferson. OK, let me ask you one other thing. Although 
the answer to the question that Senator Vitter asked about when 
the raising of the levees will be completed and other sections, 
other than the ones that were damaged in Katrina, destroyed in 
Katrina, and the outside is--what did you say, 2010?
    Mr. Hitchings. It will be 2010 before all improvements----
    Mr. Jefferson. Yes, before then. With that being the case, 
obviously all this won't happen in 2010 at one time. Along the 
way, you will be getting things done. How have you prioritized 
how you will get the work done along the stretch of things that 
will be done between now and 2010?
    Mr. Hitchings. That is a very good question. In fact, there 
really is no prioritization to it. All the work will be done 
nearly concurrently, subject to authority and funding. Right 
now we have funding available to begin work on the raising and 
completing of those projects, and for getting those scheduled. 
Some of them will start sooner than others, because in some 
cases, we have all of the engineering completed, plans and 
specs ready, we can go out with a contract very quickly. Other 
ones will take a little bit more time to do some subsurface 
investigation and get the science ready.
    So that is the only difference you will see in scheduling, 
because we are planning to do all the work concurrently, very 
much like the repair work is going at the present time. We have 
59 contractors engaged in the repair work. We expect similar 
type of work on the restoration.
    Mr. Jefferson. The repair work is being driven by the June 
1st date and the need to fix the breaches. But the rest of it 
you are going to have to be able to plan out. The procedures 
are based on authorization and appropriation and all that. I 
mean, somehow or the other, in the Congress, we are going to be 
driven by your recommendation as to what should be authorized 
first or appropriated for first, and that sort of thing. So you 
operate on this cost benefit ratio all the time.
    I am just trying to figure, well, that will drive how you 
prioritize what part of the levee you start on, and based on 
what the costs and benefits are to the outcomes. I know you 
can't carry all that at the same time along the same way. It 
has to be started somewhere and end somewhere. I am just trying 
to figure out what your considerations are, if you have any.
    Mr. Hitchings. Again, I will just state, as I had before, 
we plan to start every area that we have funding for----
    Mr. Jefferson. At the same time?
    Mr. Hitchings. At the same time, as quickly as we can. As I 
said, some of them will lag others, because some require more 
engineering. Those portions, those six elements of additional 
improvements that are subject to authorization and funding, the 
request that the Administration made was for authorization and 
funding of those completed. If that occurs, then we will start 
work on those just as quickly as that money is available. 
Again, we will work on all of those concurrently.
    Mr. Jefferson. So you aren't going to be concerned about 
how much the loss might be here or there, you're simply just 
going to work on the, if one levee just covers open area and 
another deals with a large population and huge property at 
risk, you won't make a determination prioritized based on that?
    Mr. Hitchings. Well, we haven't had to, because we haven't 
been resource constrained, either by money or contractors and 
resources. If we were faced with that, either because of money 
or that there are not enough contractors to start all the work 
at the same time, we would engage in a dialog with State and 
local authorities to identify which of the areas we should 
start first and which ones to apply the money to.
    But up until this point, and this is unique in my career in 
working with the Corps of Engineers, we have not been resource 
constrained.
    Mr. Jefferson. Well, not only are you not resource 
constrained in terms of money, but with respect to the 
capabilities of the people to do the work, there's enough folks 
out there to get that done, too, within your organization and 
outside?
    Mr. Hitchings. Absolutely. We are reaching out not only to 
the 35,000 people we have as the resources of the corps 
available, as well as the private sector, and they are very 
heavily engaged in this. So other than the time it takes to do 
some things, there really isn't any constraint on getting it 
done.
    Mr. Jefferson. Thank you.
    Senator Vitter. Thank you, Congressman.
    Let me go back for some wrap-up questions. One issue that 
has gotten a lot of attention since the storm, and on which I 
think there is a lot of consensus, is the importance of 
armoring the levees to make them stronger, so that even if they 
are overtopped, they don't breach. The corps has proposed doing 
selective armoring, and I am concerned about how selective it 
is going to be. That is why I got another $130 million added in 
the Senate bill to beef up the amount of armoring we can do.
    What armoring is being currently planned? What will be done 
by early June.
    Mr. Hitchings. The armoring basically consists of a couple 
of components. I am going to ask to put up another chart, chart 
11. It wasn't intended for this purpose, but it will allow us 
to see those areas that we are looking at.
    The first area is transitions. Transitions are any place 
where we are going from earthen levee to some other type of 
structure. That is everywhere. It is Plaquemines Parish, it is 
Orleans Parish. As you know, there are flood walls that go to 
levees and there are road crossings and railroad crossings and 
flood gates and all of these things. Every time there is a 
connection of those, we have found weaknesses, just based on 
the experience.
    So we are in fact going ahead and armoring and 
strengthening those at this time. We are looking then to the 
undamaged areas and doing the same thing, so we don't 
experience that.
    The other portion of the armoring, just so it shows on this 
map, is the longest MRGO levee where we sustained the worst 
damage. Then also here in New Orleans East, all along the GIWW. 
So we are proposing to armor these places, because these are 
the areas that not only sustained the most damage as a result 
of Katrina, but would be expected to sustain more damage in the 
future, because of the Gulf surge and wave effect that hit 
this, and the overtopping. We have an investigation underway 
with leading scientists to help us to find exactly what type of 
armoring would be best suited for this situation. But those are 
the areas.
    So basically, it is all the transitions, no matter where 
they are in the project. Then this section of levee going here 
that has Gulf exposure and this section of levee here that has 
Gulf exposure.
    Senator Vitter. Isn't it fair to say that with few 
exceptions, armoring the entire system, if done in a 
technically proper way, would significantly strengthen the 
protection offered, because it would guard against breaches?
    Mr. Hitchings. It certainly would improve the performance 
of those, if they were exposed to the type of attack that would 
cause that. But we experienced significant overtopping, for 
example, along the GIWW to Barataria and virtually no breaches 
in that. The water came over nearly at the same height there as 
it did other places. But because of the character of the 
overtopping, it did not tear those levees up.
    So while you certainly could strengthen the levees 
everywhere by armoring, in many cases you wouldn't really get 
much of a return on that investment, because the levees 
wouldn't be threatened by the overtopping itself.
    Senator Vitter. Another specific issue I am very concerned 
about is the pumping capacity in the outflow canals, once these 
temporary gates are installed. The idea is to put temporary 
gates where the three outflow canals in Orleans Parish meet 
Lake Pontchartrain, and to close those gates if a large storm 
is approaching.
    But of course, that means that you cannot remove rain water 
from the city without having pumps to go over the gates. And so 
having enough pumping capacity to go over the gates is 
important, unless you want to get flooded from rainwater during 
the storm.
    As I understand it, the pumping, the temporary pumping 
capacity planned in this scenario for the 17th Street Canal in 
particular is well under the capacity, at least on paper, in 
the city on that same canal. What is being done to increase 
that pumping capacity in time for the next hurricane season?
    Mr. Hitchings. Thanks for asking that question. If I could 
have charts 17 and 18 on the board. Basically, chart 17 will 
show what the structures are that we are proposing, and then 
also on chart 18, will give you an overview of the progress on 
what the plan is.
    Chart 17, basically these numbers here represent the 
current percentage complete on those closure structures and 
pumping capacity. So we're 25 percent on the canal for 17th 
Street, 32 percent in Orleans and 24 percent complete here. 
This graphic gives you some idea of what the concept is for 
these closure structures. We would have a temporary gated 
structure across the canal that would normally be open. And 
only in the event of an anticipated storm surge would that be 
closed. And then these temporary pumps would be engaged once 
the gates are closed, to allow the pumping to continue up in 
there and then discharge the water downstream of that.
    As you noted, the current schedule for that results in a 
significantly deficient pumping capacity. Over here on this 
chart, it says on June 1 we expect to have 1,000 cubic feet per 
second of capacity installed. By the end of June, basically in 
July, I believe that says 2,800 CFS that we expect to have at 
that location. And we are evaluating concepts so that we can 
make a decision on how best to match the capacity of these pump 
stations. Right now the concepts that we are looking at would 
allow us to have, by the end of September, 6,200 CFS, which 
essentially matches the flow capacity of that upstream pump 
station during high surge times.
    So we are looking at this proposal right now. We have been 
coordinating with the Orleans Parish Sewer and Water Board and 
also Jefferson Parish to come up with a concept to met the 
pumping demand of the outflow canal to protect the integrity of 
the structure in the most cost-effective way. So we're 
targeting to have 6,200 CFS available here by 30 September, 
2,200 on Orleans and then 4,300 on London Avenue Canal. I noted 
that September 30 is well into the hurricane season, but that 
is as quickly as those pumps can be produced in those 
locations.
    Senator Vitter. You read my mind. Clearly 30 September is 
well into the season. Why can't some other capacity like truly 
temporary pumps, that you have designed, at least in the 
picture, is what most people would call a permanent looking 
construction, why can't some other truly temporary pumps be 
used to get that capacity up for the entirety of the season?
    Mr. Hitchings. Well, we are looking at every option 
available to provide that pumping capacity. There are no other 
systems, no other temporary pumping capacity that we can 
identify that is going to allow us to do that. We have been 
working with the local businesses, looking at different 
concepts of barge thrusters, for example, as a way of moving 
the water out of those canals. We just haven't come up with 
anything that is technically feasible.
    Senator Vitter. Well, for instance, right after Katrina, in 
the weeks after Katrina, when the city had to be dewatered, 
there were truly temporary pumps brought in, and within days 
they were pumping major amounts of water out of the city. So 
why couldn't something like that be used or be on standby to 
increase this capacity for the beginning of the hurricane 
season?
    Mr. Hitchings. And that is possible to do that. However, I 
will note that at the peak of our unwatering effort, we had 160 
temporary pumps operating. The total capacity of those 160 
pumps was 1,000 cubic feet per second. So while it looked like 
a lot of water, compared to the capacity of what these existing 
pump stations and what these temporary pumps are going to be, 
it is much, much larger. I am not sure that those temporary 
pumps would have much of a significant impact.
    Senator Vitter. So with regard to this problem, what is the 
status of the plan in conjunction with Jefferson Parish and 
other local sponsors to capture some significant amount of 
water before it even gets to the 17th Street Canal, in 
particular, in the Metarie Playground, the Metarie Country Club 
area?
    Mr. Hitchings. Jefferson Parish was working on this, moving 
forward with it. And we have looked at opportunities to use 
that as part of an integrated solution that provides the most 
cost-effective portion. And we are making recommendations to 
our headquarters this week to look at that.
    At the present time, it looks like we can more cost-
effectively accomplish this pumping that we need to by putting 
all of the pumps at the outfall canals. This increment, while 
it is effective and does accomplish it, is more expensive per 
cubic foot per second than putting pumps up in this location.
    Senator Vitter. But it could be done before September 30th?
    Mr. Hitchings. It is my understanding that they are working 
on that right now.
    Senator Vitter. Is the corps supporting that work, 
including through funding?
    Mr. Hitchings. We certainly don't object to them doing the 
work.
    Senator Vitter. That wasn't my question.
    Mr. Hitchings. I know that.
    Senator Vitter. Is the corps paying for that work to any 
extent?
    Mr. Hitchings. We have not made a decision on that at this 
point, whether or not we would recommend paying for that work.
    Senator Vitter. Is the corps considering paying for that 
work?
    Mr. Hitchings. That is being proposed as an alternative in 
the recommendation that we sent forward, although not part of 
the most cost-effective solution.
    Senator Vitter. Well, again, let me just repeat the concern 
of timing, which is obviously significant with the next 
hurricane season starting.
    Final question. There has been ongoing discussion and 
disagreement about what the corps has authorization to do right 
now and what it doesn't have authorization to do. What are the 
main categories of work that you have planned that we are 
talking about between now and 2010, the main, big categories 
that you do not believe you have current authorization to do?
    Mr. Woodley. Senator, we believe that we have authorization 
to accomplish all the work that was included in the last 
supplemental appropriation. I believe that we do not consider 
ourselves to have authorization at the present time to do any 
other work.
    Senator Vitter. And what are the main categories of that 
other work that you are asking for authorization for?
    Mr. Woodley. That includes the permanent pump stations, the 
armoring of the levees, the things that----
    Senator Vitter. Is that pretty much the list thus far?
    Mr. Hitchings. That is the list that is the $1.46 billion 
that is in the proposal that has been submitted to Congress by 
the Administration. Those are the six elements in that at the 
current recommended funding levels.
    Senator Vitter. Now, on that list is selective armoring. I 
am confused. Surely you think you have authorization for that 
now. No?
    Mr. Hitchings. No, we do not.
    Senator Vitter. You don't have authorization for selective 
armor?
    Mr. Hitchings. That is correct.
    Senator Vitter. Well, this is a continuation of our debate. 
But let me just point out that as you know, in December, 
Congress passed significant legislation including what is in my 
opinion extremely broad authorization language. It allows for 
``the repair or restoration of any flood control work 
threatened or destroyed by flood, including the strengthening, 
raising, extending or other modification thereof as may be 
necessary in the direction of the Chief of Engineers.''
    Why doesn't that cover selective armoring?
    Mr. Hitchings. I am not sure that I am in a position that I 
could answer that. We certainly could research it, and Mr. 
Woodley may have some comments.
    Mr. Woodley. Senator, I agree that is very broad language. 
But I think that we have, we are seeking the explicit 
authorization for the particular work that we are proposing. 
The very general language like that certainly can be used in 
some cases, but as you know, we generally have a strong 
preference for very specific authorizations from Congress 
before we undertake work.
    Senator Vitter. Well, let me just point out that these are 
extraordinary circumstances, and it is an emergency situation 
with the next hurricane season right around the corner. So I 
would suggest that preferences aren't as important as getting 
the work done quickly and correctly. Again, this is extremely 
broad language.
    And I really think the corps is just kicking the can down 
the road on some of these issues to say that it doesn't have 
present authorization. I don't know why armoring isn't 
strengthening. I don't know why even the permanent pump 
stations isn't a modification of the present system that is 
necessary in the discretion of the Chief of Engineers. I don't 
know why any of these things aren't covered by this 
authorization language.
    All right. Congressman Jefferson, any final questions?
    Mr. Jefferson. Well, just back to, you asked an 
authorization question with respect to the money that was in 
the supplemental in December. With respect to the most recent 
discussions about the $4.1 billion, that is a matter that you 
need authorization for, is it not?
    Mr. Woodley. Yes, sir.
    Mr. Jefferson. We have been told that if a request simply 
is made from the White House, as opposed to the Congress having 
to act on a request, that that would be sufficient to, for FEMA 
to have authority to do what it needs to do with respect to 
issuing the ultimate maps. Is that your understanding of what 
needs to be done, or does there need to be a specific 
authorization from the Congress to do that?
    Mr. Woodley. Under FEMA's regulations, the commitment on 
the part of the Administration is sufficient to allow their 
regulatory action to proceed with respect to the base flood 
elevations. I would say that certainly if the Congress 
explicitly rejected that at some point then the FEMA may have 
to reconsider that. But I think that is an unlikely 
eventuality.
    Mr. Jefferson. But absent a specific rejection, are you 
saying there is no authorization by the Congress needed, all 
that needs to be done is a request from the White House and 
things can move continually from there?
    Mr. Woodley. With respect to the regulatory requirements 
for establishment of base flood elevations, yes, sir, that is 
correct.
    Mr. Jefferson. Is it your Agency's provence to urge the 
White House to make this recommendation to the Congress?
    Mr. Woodley. Yes, sir. We work with the Administration----
    Mr. Jefferson. Have you done so?
    Mr. Woodley [continuing]. To make these recommendations to 
bring them forward. We certainly are working----
    Mr. Jefferson. But you haven't done so yet?
    Mr. Woodley. We will be doing so very soon.
    Mr. Jefferson. How soon do you think?
    Mr. Woodley. Very soon. I don't know exactly what the 
timing is on it.
    Mr. Jefferson. Weeks?
    Mr. Woodley. I would expect to see it very soon.
    Mr. Jefferson. That would mean weeks, I guess, then?
    Mr. Woodley. It may be a matter of weeks, yes, sir.
    Mr. Jefferson. We have heard Mr. Powell say that he has 
gotten assurances that if his grandchildren were to live behind 
these levees, they would be secure, they needn't worry about 
the levees ever breaching, they could worry about a little 
overtopping here and there that could be handled by the pumps, 
if we get them in place. But do you feel the same way that he 
feels about this? Because what we are trying to do here is give 
our people assurances that they can come back and feel it is 
safe to live in relative security, recognizing that there is 
always some danger of overtopping. But with respect to 
breaching, we can tell our people, can we not, that they can 
come back and rebuild without fear of these areas breaching 
again?
    Mr. Woodley. If the work requested is authorized and 
appropriated and completed, then we will have a system in place 
that is designed to, although it may experience overtopping in 
a major event, catastrophic event, that it would be designed 
not to experience catastrophic flooding as a result of 
breaches. So the answer to your question is yes.
    Mr. Jefferson. Now, when you say catastrophic event, are 
you talking about a category what storm?
    Mr. Woodley. I am talking about any storm that produced a 
storm surge that was higher than the elevation of the storm 
damage reduction works themselves, so that it put water from, 
either from the Gulf or from Lake Pontchartrain, over the top 
of the works.
    Mr. Jefferson. We have talked so much about these 
categories, though, just to have the public have an 
understanding, would it be a Category 3 or Category 4 storm? 
Are we talking about that we could expect no breaching from 
that?
    Mr. Woodley. A Category 3 storm, depending on its 
characteristics, how quickly it moved and what direction it 
came from, could very well produce very high storm surges. A 
Category 5 storm, depending on its direction and its speed, 
could possibly not produce such high storm surges. So we will, 
our plan is to, once we have a design in place and we 
understand the nature of the works that are in place, what we 
would undertake to do would be to model it using our modeling 
capabilities, model a variety of storms against these works. 
Then at that point we would be in a position to answer that 
question in terms of what type of storms, what characteristics 
would speed, wind speed, barometric pressure and all those 
things would we expect to see overtopping. As of today, I 
cannot answer your question.
    Mr. Jefferson. OK. I was going to ask one last thing, with 
respect to the coastal erosion issues. When we talk about 
hurricane protection, we are talking about a hurricane 
protection system. Are you recommending, apart from what we 
were talking about with the levees and the drainage pumps, a 
total system-wide approach to this that will include wetlands 
restoration, coastal restoration, that sort of thing?
    Mr. Woodley. Absolutely. We have asked to jump start that, 
in the last request, with a $100 million appropriation that 
would allow us to immediately begin work on those elements of 
the LCA, or Louisiana Coastal Area plan, which has been 
recommended by the Chief of Engineers, and I believe 
transmitted to Congress, that would have the greatest 
likelihood in producing wetlands benefits that would intercept 
storm surges from the direction of the Gulf of Mexico.
    Mr. Jefferson. Thank you.
    Senator Vitter. Thank you both very much. We are going to 
move on to our second and third panels. But I really encourage 
you all to stay for that discussion and that testimony. Thank 
you for being here.
    Mr. Woodley. Senator, we will. I apologize, but I do have a 
conference call with OMB at noon, local time, if I may be 
excused at that time. But I am delighted to, and certainly 
intend to stay until I absolutely have to go.
    Senator Vitter. Sure. Thank you.
    Now we will invite our second panel up. I will be 
introducing them as they come forward to the witness panel.
    This panel again is focused on folks in local affected 
areas, their perspective and their input. We have William 
Clifford Smith, who is a Louisiana member of the Mississippi 
River Commission, and is a civil engineer from Houma, LA. We 
have the Honorable Benny Rousselle, President of Plaquemines 
Parish, and the Honorable Timothy Kerner, Mayor of the Town of 
Jean Lafitte, in Jefferson Parish, LA. We also have Mark 
Drennen, President and CEO of Greater New Orleans, Inc., a 
leading business economic development organization.
    Welcome to you all. We will go in that order with 5 minutes 
each, and then we will have questions and discussion.
    Mr. Smith.

     STATEMENT OF THE HON. WILLIAM CLIFFORD SMITH, MEMBER, 
 MISSISSIPPI RIVER COMMISSION, CIVIL WORKS, U.S. ARMY CORPS OF 
                           ENGINEERS

    Mr. Smith. Thank you, Senator.
    Good morning, Senator and staff and Congressman Jefferson. 
Thank you for holding this hearing. I am very pleased that you 
want to investigate a comprehensive approach to hurricane 
protection. But I am frustrated and confused. I am here to tell 
you that a comprehensive approach is not only desirable, but is 
necessary for the survival of our coast and its economy, 
community and culture. A proactive approach to avoiding the 
type of destruction and devastation experienced through 
Hurricanes Katrina and Rita is long overdue.
    We in Terrebonne Parish have been working on such an 
approach for our region for over 15 years. The obsolete and 
frustrating authorization, appropriation and permitting process 
that has evolved in this country represents almost 
insurmountable barriers. Fifteen years ago, in conjunction with 
the State of Louisiana and the Corps of Engineers, we began to 
develop a hurricane protection system for Terrebonne Parish. We 
completed a feasibility study in 2002, which cost over $10 
million, of which 50 percent was paid by local interest. It was 
approved by the Chief of Engineers. This project, known as 
Morganza to the Gulf Hurricane Protection Plan, has a positive 
cost benefit ratio and has been waiting on congressional 
authorization since 2002.
    The local citizens have been taxing themselves for the last 
4 years to raise the local share with the State in the event 
that a Federal project is ever authorized and funded. As a 
matter of fact, with local and State funds and no Federal help, 
we have just begun building a $17 million segment of this 
project in accordance with the feasibility report and with the 
hopes of ultimately receiving credit on a Federal project. The 
project, when totally completed, would provide Category 3 
protection for approximately 200,000 citizens in Terrebonne and 
Lafourche Parishes, and approximately $8 billion worth of 
public and private infrastructure.
    I know that I am blessed, because the worst natural 
disaster to hit America, Hurricane Katrina, was to the east of 
where I live. Even though the wind blew out of the north at 100 
miles an hour, we received minimum damage and inconvenience. 
Within 30 days, Hurricane Rita hit southwest Louisiana and the 
wind blew 40 miles an hour out of the south. We had more water 
in my parish than I have ever seen. Thankfully, my home, my 
business, my investment had minimum damages, so again, I was 
blessed.
    Because we live so close to the disaster area, especially 
New Orleans gas operations in the Gulf of Mexico that were 
devastated by Katrina and Rita, my community's economy is the 
most prosperous that I have observed. All of this is because 
the oil and gas companies are doing everything possible to get 
back in production, because of demand and prices for their 
product. I have, as a civil engineer and land surveyor, who has 
lived near the water in this coastal area all my life, I see my 
coastline washing away into the Gulf of Mexico. I believe if a 
storm of 100 miles an hour winds hits my community from the 
south, there could be there 10 to 15 feet of water in the 
vicinity of Houma.
    During my lifetime, over 400,000 acres of land have been 
lost between my community and the Gulf of Mexico. This buffer 
that protected my community from hurricanes for over 200 years 
is eroding. One of the most productive estuary areas in the 
world is being lost as I speak to you.
    I tell everyone in my community to go look at Chalmette and 
St. Bernard Parish. Chalmette is about 20 miles further inland 
from the Gulf than my community of Houma, as shown on the 
attached sketch. I believe that it is a matter of time before 
my community experiences the fate of Chalmette and St. Bernard 
Parish.
    As horrible as the hurricanes were last year, one good 
thing that resulted is the recognition that the wetlands and 
estuary areas, in and of themselves, significantly provide 
hurricane protection that must be restored and rebuilt. This is 
surely the case, particularly in my area, because our wetlands 
have historically protected not only my parish, but much of 
LaFourche, St. Charles, Jefferson and Orleans, in addition to 
being the most productive estuaries on earth.
    I believe as a civilian member of the Mississippi River 
Commission, this restoration of our wetlands can be 
accomplished by managing the resources of the Mississippi River 
and its tributaries. The survival of our area depends upon you. 
Please authorize and fund the Morganza to the Gulf Protection 
Project and the Louisiana Coastal Area Project for the 
restoration of the national, great coastal area.
    Thank you for your time.
    Senator Vitter. Thank you, Mr. Smith.
    President Rousselle.

  STATEMENT OF BENNY ROUSSELLE, PRESIDENT, PLAQUEMINES PARISH 
                           GOVERNMENT

    Mr. Rousselle. Thank you, Mr. Chairman, members of the 
committee.
    I represent the people of Plaquemines Parish, a relatively 
small community located on the Gulf Coast of Louisiana, south 
of New Orleans.
    Plaquemines Parish is small in size and population, yet it 
provides multi-million dollar revenues for North America. The 
Parish's oil, gas and fishery industries provide an economic 
impact that not only Louisiana enjoys, but for the entire 
United States. The Naval Air Station's Joint Reserve Base, 
representing all five branches of the U.S. Armed Forces and the 
U.S. Coast Guard, is located in Plaquemines Parish.
    Two prominent scientific research centers are located in 
Plaquemines Parish as well. Tulane University's F. Edward 
Hebert Research Center focuses on environmental, biological and 
medical research activities. The Louisiana State University's 
Citrus Research Station obtains produce research data on citrus 
specimens and small fruit.
    Plaquemines Parish is also the home of the Conoco Phillips 
Alliance Refinery, one of the last grassroots refineries built 
in the United States. The refinery processes crude oil and 
receives domestic crude oil by pipeline and international 
crudes via the Louisiana Offshore Oil Port. Approximately 600 
employees and contractors operate and maintain the refinery. 
The refinery started operations in 1971, and remains one of the 
country's most efficient and modern refineries.
    The Chevron Oronite Oak Point Plant in Plaquemines Parish 
is one of the largest and most advanced producers of high-
quality blended fuel and lubricant additives in the world. The 
plant occupies 100 acres in the Parish and has more than 410 
employees. More than 30 unique additive components and 
intermediates are manufactured at the plant and more than 300 
packages are blended at the site for customer requirements.
    Southeast Louisiana is a major oil and gas producing 
region, with an energy industry that accounts for $93 billion 
in revenue to the Louisiana economy and the employment of more 
than 62,000 people. In 2001, Plaquemines Parish produced more 
than 21 million barrels of crude oil from the more than 23,000 
wells, more than any other parish in the State. In addition, 
Plaquemines Parish also produced more than 146 million cubic 
feet of natural gas.
    The mouth of the Mississippi River is in Plaquemines 
Parish. Through this gateway to the Mississippi River Valley 
passes 92 percent of the Nation's agricultural exports, as well 
as coal, petroleum products, iron and steel, rubber and 
chemicals. The mouth of the Mississippi River is served by five 
ports, including the ports of Plaquemines, St. Bernard, New 
Orleans, South Louisiana and Baton Rouge. These ports handle a 
significant portion of the Nation's cargo. In fact, annual U.S. 
tonnage reports consistently rank the Port of South Louisiana 
first in tonnage shipped, while the Ports of New Orleans and 
Baton Rouge rank fourth and sixth. The ports also serve as 
America's cargo gateway to Latin America, and with potentially 
opening of the Seapoint facility, they are expected to become 
critical to our trade.
    The Parish of Plaquemines jutting out into the Gulf of 
Mexico was the first to be hit by Hurricane Katrina. Just a few 
short weeks afterwards, it received the backlash of Hurricane 
Rita. In both instances, Plaquemines Parish was inundated by 
waters that flooded and washed away practically all businesses, 
homes and structures on the east bank and southernmost points 
of the Parish. Our only protection was levees, both Federal and 
non-Federal, that suffered tremendous soil loss, and in some 
instances, collapsed.
    Unlike other parishes that need levee protection in some 
areas of their parish, Plaquemines is bordered by levees on all 
sides. We rely heavily on our levees year-round for daily 
protection. We have been dependent on the Corps of Engineers to 
provide us with protection for our Federal levees. However, 
Plaquemines Parish has allocated substantial local dollars for 
Federal and non-Federal levees. This does not include the time 
and labor spent by employees to maintain both the Federal and 
non-Federal levees. In order to provide adequate levee 
protection in Plaquemines Parish, we must get all our levees 
funded under a Federal system.
    However, levee systems are not and cannot be the lone 
solution. There must be a move to restore America's wetlands. 
They are an important part of our economy, our culture and our 
environment. Louisiana boasts the Nation's largest shrimp 
fishery and second largest commercial fishing industry, only 
second to Alaska. Some of the largest commercial fishing ports 
in the country are in the Southeast Louisiana corridor. 
Fishermen working out of these ports land between 350 million 
and 495 million pounds of saltwater fish each year and about 22 
million pounds of freshwater fish, the largest freshwater 
harvest in the Nation.
    The wetlands surrounding Plaquemines Parish are the 
spawning ground and nurseries for much of the Nation's most 
desirable seafood: shrimp, oysters, crab, catfish and red drum. 
Without wetlands protection and restoration, Louisiana's 
seafood industry and the Nation's seafood populations are 
vulnerable.
    Parts of Plaquemines Parish are designed as essential 
habitat for brown shrimp, white shrimp and red drum by the Gulf 
of Mexico Fishery Management Council. America's wetlands also 
provide natural flood control, natural hurricane protection and 
natural filtration systems to protect water quality. In fact, 
America's wetlands located in Louisiana have been called the 
hardest working, the most productive and the greatest wetlands 
on earth.
    But these wetlands are disappearing at the rate of 40 
square miles a year. That is 80 percent of the Nation's total 
coastal wetland loss occurring in the Nation's most important 
and productive wetlands. Without protection, these wetlands are 
not only vulnerable, they are gone.
    The southern portion of Plaquemines Parish and its east 
bank population now stands at 10 percent pre-Katrina numbers. 
Our residents and businesses are waiting for adequate levee 
protection and coastal restoration. Plaquemines Parish is not a 
heavily populated area. Louisiana in general is not a heavily 
populated State. But consider this: these small numbers of 
people make up nearly 100 percent of the workers in the 
Nation's second largest seafood industry and comprise the work 
force of one of the Nation's most important oil and gas-
producing regions. They service three of the Nation's busiest 
ports and form a unique and priceless part of America's 
cultural heritage.
    Today I am asking that you invest in the maintenance of all 
levee systems in Plaquemines Parish. I am also asking you to 
invest and dedicate funding to our wetlands and nature's 
hurricane protection system.
    We respectfully request that you don't turn your back on 
the levees and the vanishing wetlands of our Parish and State. 
These levees and wetlands present a priceless opportunity to 
act locally to reap enormous global benefits. Without 
protection, we are all vulnerable.
    Senator Vitter. Thank you, Mr. Rousselle.
    Mayor Kerner.

STATEMENT OF TIMOTHY P. KERNER, MAYOR, TOWN OF JEAN LAFITTE AND 
   VICE PRESIDENT, WEST JEFFERSON LEVEE DISTRICT, JEFFERSON 
                           PARISH, LA

    Mayor Kerner. Good morning. My name is Timothy Kerner, 
Mayor of the Town of Jean Lafitte and Vice President of the 
West Jefferson Levee District. I am here to speak on behalf of 
the citizens of Jefferson Parish.
    Hurricane Katrina made landfall on August 29, 2005, causing 
tremendous flooding damage over large portions of southeastern 
Louisiana. The event focused great attention on its impact upon 
the flood protection systems throughout the area.
    However, Hurricane Katrina was not the only catastrophe to 
hit southeastern Louisiana. In late September of 2005, 
Hurricane Rita, while on a path to making landfall near the 
Louisiana/Texas border, brought catastrophic tidal inundation 
to the communities of Crown Point, Lafitte and Barataria as it 
passed south of Jefferson Parish, Louisiana.
    The flooding overtopped and in some instances destroyed 
existing levee systems that heretofore had provided a limited 
level of protection in these areas. Because of the extent of 
damage, the rehabilitation of these levee systems is beyond the 
financial capability of the West Jefferson Levee District. As 
such, we are requesting your review of and subsequent approval 
for funding the repair of those damaged levee systems and for 
the construction of new levees as may be needed to protect the 
citizens of lower Jefferson Parish.
    We understand that the repair and construction of levee 
systems, both Federal and non-Federal, located in other 
communities in and around the New Orleans metropolitan area 
that were damaged or destroyed by Hurricane Katrina have been 
included in congressional appropriations to the U.S. Army Corps 
of Engineers. In earlier supplemental appropriation 
legislation, the non-Federal levees located in the Parishes of 
St. Bernard and Plaquemines were addressed, and we understand 
that in the most recent supplemental appropriation bills that 
was just passed by the Senate Committee, the non-Federal levee 
in the Terrebonne Parish has also been addressed. 
Unfortunately, the non-Federal levees in Lafitte, Crown Point 
and Barataria were not addressed.
    Currently we have the following projects in the continuing 
authority program, Section 205 with the Corps of Engineers: 
Crown Point, Rosethorn, Lafitte, Fisher School Basin, Pailet, 
and Boose Bayou. All these projects are authorized by the 
Federal Government. In each project, the corps is limited to 
spending $7 million per project, with a 65 percent Federal and 
a 35 percent non-Federal match. We are requesting legislation 
to increase the Federal funding to $50 million per project, 
because the cost will far exceed the $7 million limit. We are 
also asking for a reduction in the non-Federal cost share to 10 
percent.
    We are also asking to change our non-Federal levels to 
Federal levees to waiver the cost to benefit ratio for the 
following projects: Lower Lafitte, Lower Barataria, Jones 
Point, Lower and Upper Highway 45 Evacuation Routes. Although 
the locations will protect homes, they will more importantly 
provide evacuation routes.
    In closing, the Town of Jean Lafitte's 1990 census shows a 
45.5 percent growth, in 2000, a 57.5 percent growth. This area 
has a long history of providing goods and services for the 
country. Barataria Bay is one of the largest shellfish 
producing areas in the State of Louisiana. We provide the rest 
of the country with fish, crab, oysters, shrimp and crawfish. 
We also have hundreds of active wells that help fuel 
automobiles and heat homes and many other things.
    But we are also paying the price, because those canals cut 
by the oil companies allow the floodwaters to devastate our 
community time and time again. We also are a buffer zone for 
the 250,000 people that live on the West Bank of Jefferson 
Parish. And Senator, my family was elected in my area in 1880. 
It is not just a job for me. I love the people I represent, and 
I want to do the best job I possibly can.
    Right now, I am venting out the insides of homes, I have 
crews doing that, I have other people that are coming in and 
finishing the insides of homes and putting roofs on people's 
houses that can't afford. We also in some cases are building 
homes for people that can't afford it. I am doing the best I 
can with what I need to provide for those people's living 
protection. I am asking you today to please, please help me and 
consider my community. Thank you.
    Senator Vitter. Thank you, Mr. Mayor, for all your work.
    Mr. Drennen.

 STATEMENT OF MARK C. DRENNEN, PRESIDENT AND CEO, GREATER NEW 
                         ORLEANS, INC.

    Mr. Drennen. Senator Vitter, Congressman Jefferson, thank 
you very much for this opportunity.
    As you both know, GNO, Inc. is a regional economic 
development agency with a mission to grow the economy. It 
started 2\1/2\ years ago. Certainly our mission remains the 
same, but our goals and tactics have changed, like everybody's.
    What I want to share with you today is how fragile the 
economy in our region is right now and how critical it is that 
the levee protection be successful. I am concerned about a 
couple comments I heard this morning already in response to 
some of your questions. The very clear language, Senator 
Vitter, that you added to the Federal law authorizing what 
seems to, I think anybody that heard you, authorizing the 
armoring of the levees, and there seems to be a lack of clarity 
in the corps as to whether or not that gives them the authority 
to do what needs to be done.
    I am concerned about comments about no priorities, when 
certainly with my background, we could never count on all the 
money being there, so we had to set priorities. The comments 
about no modeling, in response to Senator Vitter, one of your 
questions. I am hoping I misunderstood or lack understanding, 
but some of those responses concern me.
    We appreciate very much what you have done in getting money 
for our levees, getting money for housing. That was important, 
the GO Zone legislation. We are going to be asking you for some 
modifications to the GO Zone legislation, because it is a great 
economic tool for us. However, we are concerned in the 
devastated areas that the timeframes may not allow us to 
utilize some of that low interest money. We are going to be, 
again, suggesting some extensions of times to use that as our 
economy comes back.
    We know in our region over 80 percent of the large 
businesses are back. That is good news. We know that bank 
deposits are up significantly. That is good news. But what it 
means is people are holding on to their insurance money until 
they get some clarity as to what they can and can't do with it. 
We know that we have seen some important government reforms. I 
think those are going to happen even more so in this session. 
Some of the colleges are reopened. That is all great news.
    However, there are a lot of things out there that are not 
healthy, and a breach in a levee is going to cause us severe 
problems that we may not come back from. I am absolutely 
confident that over the next 10 years, we will be a better 
region if the levees hold.
    But let me talk about some of the fragility out there, if 
that is the correct word. The tourists and conventioneers have 
not come back. They will not come back unless we as a State are 
able to utilize a lot of the CDBG money to market ourselves 
nationally. Because the national marketing with $10 million, 
$15 million is not going to be enough, and we are going to have 
to get $100 million.
    The money that we have asked for in CDBG money that has not 
come through yet for grants for small businesses is extremely 
important, not only in the tourism industry, but in a lot of 
other small businesses. We modeled our request after what 
happened at New York City. They were very successful in 
bringing back their economy because they had CDBG money for 
infrastructure, they had it for economic development. The 
amount after we spend money on housing that we are going to 
have is not nearly enough to recover. So tourism, convention 
business are not back and will not be back unless we can put 
significant money into it.
    Our private hospitals in the region are losing money every 
time an uninsured patient walks in their door. Normally, as a 
business, you want people to come in. East Jeff, West Jeff, 
Oshner, are suffering, losing money every month because they 
are not getting reimbursed by the State for 100 percent of the 
costs of the people we used to take care of in the charity 
hospitals. And all the labor that has come in uninsured, they 
are not getting reimbursed for. They are having serious 
problems.
    There is an insurance crisis that I think we are all 
beginning to wake up to. In some parts of the region, you can't 
get insurance. Other parts, the insurance costs are going to 
make it very difficult to come back, for people to invest. 
Another very fragile area is going to be the utility costs. If 
Entergy New Orleans isn't able to latch onto some CDBG money, 
like was again done in New York City, they are going to have to 
increase rates that again, are so much that it is going to make 
the recovery of our economy very difficult.
    We don't even talk about the infrastructure damage. Think 
about the sewerage and water board here and the damage that has 
been done underground, the utility structure, the roads. The 
list goes on and on. We are going to have to get money for 
infrastructure investments, again, like New York City did. 
MRGO, we are going to shut down MRGO, how are we going to move 
all those businesses. We can't, for the hundreds of millions 
that have been invested there, there has to be a solution to 
that.
    Loans that are being proposed for businesses are good for 
some businesses, low interest loans. But most businesses have 
already, small and medium, have already extended their personal 
credit cards, second mortgages on their house, and just 
borrowing more money to get out of their problems is not going 
to be sufficient. We are going to have to get some grant money 
for businesses that have very clear business plans and have a 
good chance of survival to help them get through this.
    Now, what is the solution to all this? It is what Senator 
Vitter, Congressman Jefferson, your predecessors have been 
talking about for years. And that is, we as a region, as a 
State, want to take care of ourselves. And we could do that if 
we could get 50 percent of the royalty payments of offshore oil 
and gas production. That would give us sufficient money to 
borrow money to immediately invest in all these things that we 
have been talking about. Other than that, we are going to have 
to continue to go to Washington asking for more CDBG money to 
repair our basic infrastructures that are so necessary for the 
recovery of the economy in this region.
    Again, thank you.
    Senator Vitter. Thank you very much.
    Now we will get to questions and discussions.
    Mr. Smith, I am glad you focused on the Lafourche-
Terrebonne area. Because my great concern, like yours, is that 
that area, we are talking about Greater New Orleans. And a 
major protection system, which in some ways is inadequate, and 
yet we move to Lafourche and Terrebonne, we are talking about 
little or no protection system whatsoever. So if a storm 
comparable to Katrina or a lot less went 50 miles west, there 
would be clearly devastation there, as you outlined.
    That is why the Morganza to the Gulf project, as you 
mentioned, is so important. That is why I introduced a bill to 
fast track that, included it within the WRDA bill which we are 
trying to move. The entire project included about $40 million 
to funds in the Senate emergency appropriations bill for 
Terrebonne in particular.
    Would you talk about the importance of that project, and in 
particular, an analysis of that cost, which is significant, but 
what the cost might be of a Katrina that hits Lafourche and 
Terrebonne head on in terms of FEMA response and everything 
else?
    Mr. Smith. Well, Senator, of course for us, a storm that 
would be west, that would hit the coast west of us would be 
absolutely devastating. Again, there were 400,000 acres of land 
between where I live in Houma, LA and the Gulf of Mexico when I 
was born that is not there today. And historically, that was 
our hurricane protection. And that has gone away because of 
coastal erosion, subsidence, saltwater intrusion and what have 
you.
    So therefore, we are proposing, and have been proposing for 
over 15 years, this hurricane protection levee system that 
encompasses about 72 miles in length. But it would protect not 
only the inhabited areas primarily in Terrebonne Parish, but 
also it would protect a vast area of wetlands that is 
deteriorating as we speak. Again, that is about 120,000 people 
living in Terrebonne today, and about $8 billion worth of 
infrastructure, both public and private infrastructure, in the 
community. Again, as Plaquemines and the other coastal areas, 
we are a big producing area of seafood. And of course, oil and 
gas activities.
    So of course, a storm that would devastate our area, 
similar to what Katrina did primarily to St. Bernard, 
Plaquemines, and particularly Chalmette, Louisiana, would be 
absolutely devastating. Even in Rita, we had 10,000 homes 
flooded in Terrebonne and Lower Terrebonne Parish. We probably 
have about 40,000 homes in Terrebonne Parish. Again, a storm to 
the west would probably devastate and flood that entire area.
    Again, remember, we are 65 miles, Houma is 65 miles 
southwest of New Orleans, approximately 30 miles north of the 
Gulf of Mexico. And I tell everybody, about two or three inches 
above the water. And the water is rising. We are also getting 
closer to the Gulf as every day goes by.
    It is kind of mind boggling, though, that we live above sea 
level. Generally the people in Terrebonne and Lafourche Parish 
live above sea level, not below sea level, like the majority of 
the metropolitan areas of New Orleans. But we live very close 
to the Gulf of Mexico. I see every day on my way to my office, 
and I actually live a little north of Houma, I see the tidal 
flow every day in the natural bayous and streams in the area.
    So it is just a matter of time, very frankly, although we 
have all these wonderful programs proposed, all these wonderful 
projects, and we try to be in the process of authorization and 
funding, I think it is just a matter of time that we are going 
to have a disaster if we don't do some major protection.
    Senator Vitter. Thank you.
    President Rousselle and Mayor Kerner, I know one of several 
big issues for both of you are converting non-Federal levees in 
your areas to Federal ones. The corps has proposed some of 
that, particularly on the West Bank of Plaquemines. It did not 
propose doing it in other areas, including on the East Bank of 
Plaquemines, including in areas that directly impact you, 
Mayor.
    I disagree with that. I have proposed and actually included 
in the Senate legislation conversion of virtually all of that 
to Federal levees. Could both of you talk about the importance 
of that work to the protection of your citizens?
    Mr. Rousselle. Thank you, Senator Vitter. I want to thank 
you for including that in there.
    The problem that we have is that we have ring levees 
completely around us. If you do not include those local levees 
and those privately owned levees in the Federal system, you 
have a hole in the system. And in our case, for instance, on 
the West Bank, the water would come in and inundate the 
hurricane evacuation route, leaving our parish cut in half. And 
to us, the Administration hopefully will write that letter 
requesting that that funding be accessed, if it is indeed 
appropriated through the entire process. Right now, I 
understand that the $60 million is hard money and that the 
balance is not there unless the Administration requests it.
    But it is like having a hole in the system without putting 
all of those levees in. Currently we are on hold right now, we 
are working on those locally owned levees on the East Bank. The 
corps is in the process of issuing a contract to put them up to 
pre-Katrina standards. But that is as far as that goes, and I 
don't think it will take a whole lot more to bring them up to a 
Federal standard. But we are really on hold right now. We are 
participating with stockpiling mud, dirt, but the project, I 
have received a letter from the corps to tell us not to do any 
more work on them until they can issue the contract.
    So it is imperative that we include these systems, these 
levees. For instance, the refinery. The refinery is just now 
getting back up to capacity. That refinery had several feet of 
water in it, because it is not protected by a Federal levee. So 
we are hoping that these Federal levee issues will go away and 
be included.
    Senator Vitter. Thank you. Mayor.
    Mayor Kerner. There are so many reasons. It would allow us 
to receive Federal funding, it would take the cost to benefit 
ratio out of the picture, because in some of my areas, they 
will never meet the cost to benefit ratio. And the same thing 
President Rousselle said, in my area, I have Lower Goose Bayou 
that would have a ring levee system, then further down in 
Lafitte, no, it wouldn't have one. Goose Bayou North, no levee 
system. And in the town of Jean Lafitte, a levee system. The 
middle of the town of Jean Lafitte, no levee system. The 
[inaudible] area in the town, a levee system. Barataria, a 
levee system. Lower Barataria, no levee system. Crown Point, on 
the east end, a levee system. Right up at the West End, no 
levee system.
    So what you have is maybe five ring levees and another five 
areas with no levee system, no evacuation routes. You would 
have one area dry and another area would be flooded.
    So I would love to--Mr. Rousselle just sent me a note on 
Donaldsonville to the Gulf. Yes, that would actually help my 
area. It would, the levee from Donaldsonville to Plaquemines 
Parish and it would catch the Town of Jean Lafitte and also 
Crown Point, and we are trying to get it to go a little further 
south to catch the Lower Barataria.
    But back to the non-Federal levees, it would mean 
everything in the world to my area, because like Mr. Rousselle 
said, you would have a completed levee system, one levee system 
and not a couple of ring levees that would be left out when 
other places would be flooded, you wouldn't have evacuation 
routes.
    Senator Vitter. Thanks.
    Mark, you mentioned, a number of crucial business issues, 
but I want to focus, since this hearing is about levees and 
flood protection, related issues on that. To generalize what 
would you say the level of confidence of the business community 
is in our ongoing hurricane and flood protection work?
    Mr. Drennen. Senator, I would say it was high enough that 
most of the major businesses decided to come back. Again, the 
number that I have seen from some bankers is over 80 percent of 
the large businesses are here and others are coming back. So I 
think there is a good enough level of confidence that they made 
those decisions.
    The point I was trying to make is a lot of that is very 
fragile, and they won't come back a second time. So we 
absolutely have to get the levees right.
    Senator Vitter. Apart from 50 percent royalty sharing, 
which would be a huge breakthrough, what in your mind are 
important benchmarks which we need to meet over time to retain 
and grow that confidence level?
    Mr. Drennen. Just as it relates to levees?
    Senator Vitter. Yes.
    Mr. Drennen. I think if the business community believes 
that the planning is underway for Category 5 protection and 
that we have a source of money to implement Coastal 2050 and to 
begin to restore the wetlands that that is enough to give them 
confidence.
    Senator Vitter. I thank you.
    Congressman
    Mr. Jefferson. Thank you. I will just limit my questions to 
Mr. Drennen. I think Senator Vitter covered the other issues 
with the officials and with Mr. Smith.
    You mentioned the GO Zone legislation and the time line 
issues. I was very much involved with that, as you know. And I 
am very interested to know what specific things you would like 
to see us do to address the time line questions. We have had 
some recommendations from you. But are you able to speak to 
that today, or would you rather submit that at a later time?
    Mr. Drennen. I can speak to one, because we have talked 
about it fairly substantially. I would like to submit the 
others to you in writing. We still have a request out to our 
colleagues to put a comprehensive list together.
    But the big one we know of is that a lot of the investment 
that can take place with the $7.9 billion in low interest loans 
will be taking place in areas of the State that were not 
devastated by the hurricanes, because they are up and able and 
ready to make application and begin building. You saw the First 
Aid Bond Commission meeting, where all the projects were in 
Baton Rouge. We all love Baton Rouge and that is our capital, 
but we need that money down in this region.
    Right now, the State has set aside half of the money, $4 
billion, to be used in the most heavily damaged regions. And 
that is good news. Is that enough? We have no idea at this 
point, because there aren't applications being made in our 
region. And we don't think they are going to be made until we 
are able to get further along recovery.
    So the request is going to be to extend the GO Zone 
legislation to 2010 in the most heavily devastated areas, again 
because we are a few years behind the other parts of the State.
    Mr. Jefferson. Is there a need to tailor this, to make this 
relief more targeted? You seem to be suggesting that we didn't 
target it well enough.
    Mr. Drennen. Well, we don't know yet how much demand there 
is going to be. My answer to you would be, the State of 
Louisiana needs these low interest loans. It is good for the 
whole State. It is certainly good for the 31 parishes that are 
impacted by it.
    But if it turns out $4 billion is not enough in the 
severely devastated region, then we have made a mistake. But 
again, we don't have enough feeling yet to know whether or not 
$4 billion is going to be enough. And we don't know when the 
applications are going to start being made.
    Mr. Jefferson. How confident do you think the business 
community is, or anyone is, with respect to the guidelines that 
have just been issued by FEMA and the corps with respect to 
rebuilding?
    Mr. Drennen. There is still a lot of confusion as to 
exactly what it means. There is still a lot of confusion out 
there as to how you are going to bring back whole 
neighborhoods. There are a lot of people in the business 
community that are still looking at the Baker bill to see how 
it might be tailored to make it more locally oriented.
    The biggest concern we hear is where you have whole 
neighborhoods that are devastated. How is the State of 
Louisiana, the LRA, going to go about redeveloping whole 
communities, when what is involved is the basic infrastructure 
of those communities, from roads to sewer lines to utility 
poles? Who is going to have the money to come in and raise it, 
raise the ground? How are you going to keep from having one 
house raised four feet and another one two feet, and the four 
foot house flooding the two foot house?
    So again, there is still a lot of confusion and unanswered 
questions as we speak today.
    Mr. Jefferson. You mentioned in just one part of your 
testimony with respect to the insurance issues and local 
government financing, can you give me a little better feel for 
what we are facing with respect to insurance questions out 
there with the business people?
    Mr. Drennen. Yes. We have talked, for example, and Benny 
Rousselle will probably know this better than I, but there are 
some areas in his parish where they don't have utility lines 
and may not be getting them. How do you get an ice house, where 
the fishermen are, without utilities? So we have heard stories 
about in some areas you can't get insurance at all. In other 
areas, the costs that are being quoted are so high that nobody 
could afford to get coverage.
    Mr. Jefferson. With respect to the Federal responsibility, 
what do you think we could do or should do with respect to 
these issues?
    Mr. Drennen. That is a tough question. Because I don't--
whether this is a State solution or a Federal solution, I am 
not an expert on it yet. I know at every meeting I have been in 
the last month, it is becoming more and more of an issue, as 
people see the levees issue begin to solidify, the housing 
begin to solidify, now they are beginning to find out how 
difficult it is to get insurance.
    So at our level, we are going to be meeting with Jim Donlan 
soon, to talk about what ideas he has. But again, if insurance 
costs are too high to be competitive, then it is going to be 
very difficult for our economy to come back.
    Senator Vitter. OK, thank you, Congressman.
    We are joined by Senator Landrieu. I want to welcome her 
and thank her for being here. She has asked that her comments 
be given during the third panel, so I will excuse you all and 
thank you all very much for being here.
    As the third panel comes up, I will begin to introduce 
them. And again, this panel is focused on outside independent 
engineer and environmental expertise and how we 
institutionalize that with this very important, ongoing Corps 
of Engineers work.
    We have on the third panel Dr. Lewis E. Link, Director of 
the Interagency Performance Evaluation Task Force established 
by the Secretary of Defense; Mr. Thomas Jackson, Member of the 
American Society of Civil Engineers External Review panel, and 
a former president of the society; and Mr. Carlton Dufrechou, 
Executive Director of the Lake Pontchartrain Basin Foundation, 
a leading environmental group in Louisiana.
    Welcome to all of you. As with the previous panels, we will 
invite 5 minutes of testimony, and of course, your entire 
written testimony will be submitted and made a part of the 
written record. Then after your 5 minutes each, we will have 
questions and discussion.
    Dr. Link.

   STATEMENT OF LEWIS E. LINK, PH.D., DIRECTOR, INTERAGENCY 
               PERFORMANCE EVALUATION TASK FORCE

    Mr. Link. Thank you, sir.
    Senator Vitter, Senator Landrieu, it is a pleasure to be 
here. I am Ed Link, I am on the faculty of the University of 
Maryland in the Department of Civil and Environmental 
Engineering. And as you stated, the Project Director for IPET.
    IPET is an accumulation of expertise, about 150 people from 
government, State and Federal, academia and industry, who have 
basically dropped what they were doing prior to Katrina and 
devoted themselves to this very, very important task. That task 
is to discover the facts about the behavior of the flood 
protection system during Katrina and to use those facts to 
build back a more resistant, more capable system. I am very 
delighted to represent those people today in this testimony.
    One of the unique parts of the IPET activity has been the 
participation of the peer review process with the American 
Society of Civil Engineers and the National Research Council. I 
can't tell you how valuable it has been, and you spoke, 
Senator, earlier about independent review. The ability to have 
a team of experts from ASCE looking over our shoulder 
continuously, and giving us advice and guidelines on how to 
best solve these very complex problems has been a very positive 
component of the success that we have had in understanding what 
really happened during the storm.
    I would like to highlight a few things that we have 
learned. And first of all, all that we are learning is going in 
several places simultaneously. First, it is going to Task Force 
Guardian. And in fact, there are 20 people from Task Force 
Guardian embedded in the IPET Task Force. It gives us a direct 
connection to critical knowledge that we need, and also a 
direct connection back to the folks that are involved in 
designing and constructing the repairs and reconstitution of 
protection.
    Second, we are providing information to the public. We have 
a public web site that right now has over 3,900 documents on 
it, including the reports of all of our analysis and the 
fundamental data that has been used in those analyses. And 
third, we are providing information to the corps and other 
interested individuals with regard to future policy and 
practice in engineering. And that is a role I think that the 
American Society of Civil Engineers and the National Academies 
Committee will play in being able to interpret what we have 
been able to determine from our analysis and provide some 
really good insights on how we can be better engineers in the 
future, how we can consider some of these complex situations 
more effectively.
    Some of the things that have been I think most important in 
our inputs to Task Force Guardian is, first, establishing a new 
reference system for the Southeast Louisiana area. As you are 
well aware, the geology of this area makes it very vulnerable 
to differential settlement and differential subsidence. We were 
able to accelerate work of NOAA and the corps to create that 
new reference and to establish the exact elevations of all the 
critical control structures, so that now we do know exactly how 
far below authorized levels these structures are.
    We have also been able to determine the failure mechanisms 
for the breaches. And through understanding those mechanisms, 
to provide insight to the assessment of the non-damaged areas 
of the levees and floodwalls, to assisting and understanding 
what needs to be done for those sections to guarantee their 
vitality during the next hurricane season.
    In addition to that, we are correlating the losses that 
occurred from Katrina to the flooding exposure and developing a 
risk and reliability analysis that will allow you to look at 
the relative vulnerability of, within a given parish or between 
parishes, after the repairs are made, what the risk level will 
be at that time. That information will be very useful for 
examining future alternatives.
    I want to thank you for the opportunity to be here and I 
would be very pleased to answer any questions that you have.
    Senator Vitter. Thank you, Doctor. Thanks for all your work 
and to colleagues' work.
    Mr. Jackson.

  STATEMENT OF THOMAS L. JACKSON, P.E., F. ASCE, D. WRE, PAST 
PRESIDENT, AMERICAN SOCIETY OF CIVIL ENGINEERS AND SENIOR VICE 
                 PRESIDENT, DMJM HARRIS (RET.)

    Mr. Jackson. Thank you, Senator Vitter, Senator Landrieu.
    Good morning. My name is Tom Jackson and I am pleased to 
appear before you today on behalf of the American Society of 
Civil Engineers as you examine the current status of the 
reconstruction of the New Orleans levees. I am a past president 
of the ASCE and currently serve on ASCE's external review 
panel, or ERP. I might add parenthetically I am also a lifelong 
resident of New Orleans and Jefferson Parish. So I am very 
familiar with this area and the problems in storm protection 
that we have had over the years.
    The role of ERP, which is composed of 14 specialists who 
possess a range of technical expertise, is to provide an 
objective, independent technical review of the work being 
performed by the U.S. Army Corps of Engineers Interagency 
Performance Evaluation Task Force, or IPET, on the flood 
control levees in the New Orleans area following Hurricane 
Katrina.
    As engineers, our paramount concern is for the safety, 
health and welfare of the public. I would like to repeat that, 
because it is very important. As engineers, our paramount 
responsibility is for the safety, health and protection of the 
public. Today there appear to be a number of key lessons 
learned, which must be taken into account by Task Force 
Guardian in any analysis that looks to develop a system that 
will protect this area from a Category 4 or 5 hurricane.
    While the ERP's immediate attention is focused on three 
main areas of potential lessons learned, first we are concerned 
about an apparent aggressive design approach which may not have 
been warranted for a water holding structure of this 
importance. It appears that at nearly every step of the way, 
the envelope was pushed. Let me explain.
    The target factor of safety was apparently 1.3 for design, 
which may be on the low side for structures whose facilities 
and failures were capable of causing death and widespread 
destruction. Against this backdrop, quite optimistic soil 
strengths were selected despite one, the fact that the local 
geology suggested that conditions would be highly variable, 
even over relatively short distances. For example, for the 17th 
Street Canal failures, variation in soil strengths led to 
factors of safety about 20 to 30 percent higher just north or 
just south of the failure zone.
    No. 2, the fact that the soil conditions and strengths were 
taken from widely spaced borings that were concentrated along 
the center line of the levees. No. 3, the fact that soil 
strengths in the back yards were not adjusted to account for 
the reduction in overburdened pressures.
    In addition, the forces on the wall did not apparently 
include the possibility that full hydrostatic loads could 
develop through the formation of a simple gap on the flood side 
of the wall, moving away from the canal embankment, as water in 
the canal rose above normal levees. Second, there may have been 
problems associated with handoffs during the design process, or 
interfaces between key players in the design. For example, were 
potential limitations in soil strength clearly communicated 
between the geotechnical team and the floodwall design team? 
Were concerns about hydrostatic loading on the wall clearly 
communicated and considered?
    Third, how was the corps' quality assurance/quality control 
process followed during the design? For a structure of this 
importance, techniques such as independent peer review or use 
of border consultants had been used, would the performance have 
been different?
    These concerns merit an in-depth assessment to document the 
lessons and to provide for ways to move forward and incorporate 
these lessons learned. The ERP will continue to be looking into 
these matters. The ERP is currently in the midst of a detailed 
review of IPET Report Number Two. On March 23, 2006, we 
delivered a letter to General Strock, Chief of Engineers, which 
noted several key concerns that the ERP has identified at this 
stage of its performance evaluation.
    Based on our current findings, the ERP recommends the 
following actions to be undertaken with urgency for levees and 
floodwalls, and in New Orleans and perhaps elsewhere in the 
Nation. A, all I-walls should be reevaluated for current design 
loading assuming a water-filled gap along the flood side of the 
wall. B, all levees underlain by soft soil should be 
reevaluated for current design loadings accounting for reduced 
sheer strength of soil in areas at or beyond the toe of the 
levee.
    C, all levees and floodwalls should be reevaluated to 
identify those areas where the questionable degree of 
conservatism inherent in the design process and those sections 
of concern reanalyzed for current design loadings employing an 
appropriate degree of conservatism. D, a risk-based approach 
toward defining the design hurricane conditions is needed. We 
advise the corps to proceed as quickly as possible toward 
redefining standard project hurricane using principles and 
practices similar to those used in establishing the potential 
catastrophic natural disasters such as earthquakes and other 
flooding. E, external peer review is an important component of 
design practice for all critical life-safety structures. We 
recommend that the steps described above receive external peer 
review throughout the design process.
    In closing, the ERP will continue evaluating IPET's Report 
Number Two and will issue its own report in the coming weeks. 
We note that in a letter to ERP dated April 7th, General Strock 
expressed the corps' gratitude for the ERP's insightful 
comments and recommendations, and states that the corps is 
looking forward to receiving ERP's review comments following.
    Thank you.
    Senator Vitter. Thank you, Mr. Jackson.
    Mr. Dufrechou.

   STATEMENT OF CARLTON DUFRECHOU, EXECUTIVE DIRECTOR, LAKE 
                 PONTCHARTRAIN BASIN FOUNDATION

    Mr. Dufrechou. Senator Vitter, Senator Landrieu, it is good 
to see you both. And to some of the prior speakers, on behalf 
of Pontchartrain Basin Foundation and everyone in Southeast 
Louisiana, thank you for your efforts to secure royalties from 
the oil and gas operations in the Gulf to try to preserve our 
entire region.
    It is an honor for me as an engineer by education to be 
seated with Dr. Link and Mr. Jackson this morning. As I was 
preparing my statement, I was trying to be as brief as 
possible, and I remembered a quote, I believe it was by 
Professor Einstein some time ago, and I am paraphrasing it, 
that today's problems cannot be solved with yesterday's 
thinking.
    While I certainly and the Pontchartrain Basin Foundation 
supports all of the work currently underway by the Corps of 
Engineers to strengthen our levee system, levees alone won't 
work. Katrina was not a direct hit on the metropolitan area, it 
missed us. And yet the impacts were horrific. The corps Civil 
Works process that we have in the United States, unfortunately, 
in the past has been myopic. Hurricane protection works were 
considered by themselves.
    And the first line of defense for our region, Senator 
Vitter and Senator Landrieu, as you both have said repeatedly, 
has been our coast. And our coast unfortunately has all but 
been forgotten about until very, very recently. We applaud the 
work of the agencies to restore the levees. I would like the 
record to show that I have the utmost respect for all the 
workers with the Corps of Engineers, they are some of the 
finest, most dedicated people I have ever met.
    However, I believe that the Corps Civil Works process we 
have right now is limiting. It does not include the big 
picture. While certainly we need stronger and better levees, 
the best protection we can hope for in the future is the same 
degree of protection that we have right now, in the near term, 
levees that will protect us from a Category 2 or 3 storm. That 
is not sufficient. That will mean, as Mr. Drennen addressed 
earlier about the economic impacts to our area, everyone in 
this region, and by far they are the best of the best that are 
back, that are trying to bring the metropolitan region back, 
they are all going to be prepared to evacuate of once or twice 
a year, whenever a Category 3 storm is near our coast. That is 
going to be an added economic burden, not only to the 
businesses, but to everyone who is here.
    I guess where I am going with this, Senators, is that while 
certainly the LCA is a good first step, it is not enough. 
Hurricane protection for the future has to include the coast as 
an integral part. Further than that, we have to get beyond 
doing navigation works, transportation works, hurricane 
protection and coastal works independently. They all have to be 
integrated, in our opinion.
    The highest priority must be hurricane protection works. It 
has to supersede everything else. Here, in the Pontchartrain 
Basin, until half a century ago, we had a substantial coast. In 
1965, Hurricane Betsy, a Category 3 storm, hit the area. While 
40 years later, Katrina, was a larger storm and more powerful 
storm in the Gulf, once Katrina reached the latitude of New 
Orleans, it was basically a Category 3 hurricane like Betsy. 
During Hurricane Betsy, I was 9 years old. We had 5-to 6-foot 
levees on the lake front. My folks and I lived on Bellaire 
Drive. There was no floodwall behind our house then to protect 
us from the adjacent 17th Street Canal. There was only a little 
mound of a levee. But those levees held during Betsy. Some 
other areas of the city, St. Bernard Parish, unfortunately, the 
9th Ward were flooded, many believe because of the Mississippi 
River Gulf Outlet, which not coincidentally, was completed that 
same year.
    To be comprehensive, we have to look at the big picture. We 
have to consider channels, like the Mississippi River Gulf 
Outlet. While Many people believe the MRGO caused flooding in 
Hurricane Betsy, I am here to tell you today, what the MRGO did 
more than that was it completely altered the hydrology and 
ecology of our coast for the long term. It more than anything 
else has acted as a cancer, progressively eating away at our 
coastal wetlands for the last half century. And it is still 
causing damages today. It is a clear and present danger. And as 
long as channels like the MRGO are there, we can build levees 
higher and higher and stronger and stronger, but the coast will 
continue to vanish and the Gulf continue to encroach on us, and 
we will always be at risk.
    Senators we need your guidance and help. Right now, the 
Corps of Engineers is in a quandary. They have a 
congressionally authorized channel to maintain--the Mississippi 
River Gulf Outlet, and we are also asking them to restore our 
coast and help us with hurricane protection. They have two sets 
of orders. About the only thing they can do is try to rebuild 
the levees to the status quo to stay within their box. We have 
to expand their box, and we certainly need gentlemen like Dr. 
Lewis and Mr. Jackson and others that have been here this 
morning, to assist.
    Please, in the near term, consider de-authorization of the 
Mississippi River Gulf Outlet to help to prevent the 
catastrophes that we have had, that we have experienced 
recently. Beyond that, make decisions based on the big picture. 
Integrate coastal restoration and hurricane protection efforts. 
The Corps of Engineers is a unique entity. They can do 
magnificent work. But we have to change their box. We have to 
expand it.
    Thank you for the opportunity to speak with you this 
morning.
    Senator Vitter. Thank you very much.
    We will follow up with questions and discussion.
    Dr. Link and Mr. Jackson, your committee's work has been 
very important post-Katrina, in this very crucial stage. What 
are your thoughts about how we institutionalize that type of 
outside, independent peer review and input on an ongoing basis 
in terms of this work in Louisiana and perhaps more work more 
generally?
    Mr. Jackson. Senator, I would say that the Federal law has 
to determine those projects where peer review must take place. 
I would think that the corps should, beyond that, look at 
individual projects that they may want to do, even beyond 
whatever the Federal law requires.
    I have done work, design work for the Corps of Engineers in 
Vicksburg and the New Orleans District, and I understand the 
corps thinking pretty well. However, I understand it a lot 
better today, considering the last several months, than I ever 
did.
    The corps as an institution is a very powerful group. They 
employ extremely valuable scientists and engineers to both 
determine what needs to be done and to determine how to do it. 
However, the corps as an institution, and I would say that it 
falls into the category of many large institutions, it is bound 
up within its own rules. As you talked earlier about 
authorization the corps' interpretation, I think, of 
authorization that has gone on over the years has been a very, 
very extremely tight rein on what the corps should do.
    As a matter of fact, I made comments to the corps that 
perhaps the engineers, the professional design engineers within 
the corps sometimes need to stand up and say, that won't 
adequately protect the public, and I won't participate. That is 
a very drastic step for a person in an organization that has 
the U.S. Army in front of them. During wartime, they are shot.
    However, I believe that we need to get to a point where 
those engineers have the support of an external group, on 
important issues where life and extensive property result. We 
have in ERP been constant in our push of the IPET. They have 
done very wonderful work. And you saw today a lot of discussion 
about peer review. You saw today a lot of discussion about most 
of the issues that we in ERP, probably not as an original 
thought. But the power of an external organization to be able 
to say these kinds of things, and for people like yourselves to 
listen, is something that we must incorporate in future work by 
the corps and other Federal agencies.
    Senator Vitter. Dr. Link?
    Mr. Link. Yes, sir, thank you. I think there are several 
key aspects to this. The independent peer review does exist in 
the engineering profession, of course. I think we can certainly 
take advantage of expanding on what is already there in the way 
of doing consulting boards and independent panels. One of the 
things that I have learned, especially in this experience with 
the Task Force, is the power of partnering.
    I think we have created a unique kind of relationship 
between the Task Force and the panel of experts in ASCE that 
has allowed us to interact continuously. It is not that the 
typical or traditional, where the Task Force does something and 
then hands it off for an independent review that is 
disassociated with the Task Force. We are actually learning 
from each other as we go along, and yet maintaining that very 
critical external position that the panel has.
    But there is a lot of power in partnering. And I think we 
should try to figure out a way to factor that in, so that it is 
not two groups sitting on two sides of a wall. The diversity of 
ideas and the richness of the analysis that results from 
bringing those people together in a unique way, I think, is 
very, very powerful.
    Senator Vitter. Let me just say I would endorse that idea, 
too. Also for an additional reason, besides everything you 
mentioned, is the last thing we need to come out of this is for 
the normal corps process to take even longer than it does now. 
The typical corps projects is 11, 13 years before you put a 
shovel in the ground. So the last thing we need is a method of 
peer review that just adds years onto that rather than 
shortening that process. And your general notion of partnering 
avoids having the corps do 5 years of work and then have peer 
review out of the blue that finds major disagreements with it.
    Mr. Link. Yes, sir, I think you are right on. It is very 
critical to have the interaction from the first step, not when 
the plan is complete, but in the formulation of the plan. It is 
a much, much more productive environment.
    Both the ASCE panel and the National Research Council panel 
have told the Task Force that we can't get our job done in the 
time allotted. But in fact we are. And it is primarily because 
of the partnering and the acceleration, the ability to not do 
the traditional step by step process, but by doing the 
partnering process.
    Senator Vitter. And Carlton, a related question. I 
completely agree with your comments about using a more 
integrated approach, that we don't have these separate 
smokestacks labeled maritime, environmental, levee protection. 
It all needs to relate.
    How do we institutionalize that more integrate approach?
    Mr. Dufrechou. Senator, it is going to be a challenge. It 
won't happen overnight. I think it is going to take some 
courageous leadership from you, Senator Vitter, and Senator 
Landrieu, to put the direction out there that, guys, enough is 
enough. We can't have it the way we used to have it any more. 
Not only is the time line too long, but we have to have the big 
picture in everything we do down here.
    And certainly, Dr. Link and Mr. Jackson are excellent 
assistants to make this process work. There are many 
organizations throughout the area, the Coalition to Restore 
Coastal Louisiana, Pontchartrain Basin Foundation, Barataria-
Terrebonne National Estuarine Program, who have independent 
plans that they know are already prepared on the coast. 
Certainly we have it for Pontchartrain. We know the ten coastal 
elements that, once we get those back, we will have sustainable 
coasts again which will act as the buffers for storm surges.
    I would suggest to you, sir, that the leadership has to 
come from you. As much as we can help at the local level, and 
the public is certainly behind you with this, the Corps of 
Engineers is, well, it is an entity like no other in the world 
that can do a variety of work. It is also a dinosaur. And 
gentleman, I don't mean that in a derogatory fashion. But the 
process, unfortunately, it has become process driven all too 
often instead of outcome driven.
    I guess if there is one thing I can leave with you, it is, 
we have to be outcome driven. And the outcome for us is not 
Category 3 protection, but it is long-term sustainable 
hurricane protection for decades to come.
    Senator Vitter. I have taken a stab at this idea in 
proposed legislation of a corps council, merging the corps with 
outside, independent environmental and engineering experts. If 
my office hasn't already, we are going to get the three of you 
and others a copy of that bill. I would invite very active and 
aggressive critique and input in terms of that legislation.
    Mr. Dufrechou. Senator, if I might add, we did get an 
opportunity to look at that with David Dawes in your local 
office. It is a tremendous first step. It is exactly where we 
need to go. And that could be the catalyst for the change that 
we need.
    Senator Vitter. I would invite all of you and your 
colleagues to offer whatever critique, changes, input you think 
are appropriate. I would love to see those.
    Senator Landrieu.
    Senator Landrieu. Thank you. And let me thank you, Senator 
Vitter, for putting all these excellent panels together, and 
for your continued focus through your efforts on the EPW 
Committee to tackle not just one, but several very complicated 
issues to move us forward.
    I am pleased to have co-sponsored Senator Vitter's 
legislation, and our offices have worked very closely as we try 
to get as much input as we can to forge ahead. It is going to 
be a tough issue to put before Congress. But we are determined 
to do that, and to force to consider an alternative way, since 
we represent the State and the region that has been the 
unfortunate beneficiary of the status quo. We need to see some 
changes.
    Let me ask you, Mr. Jackson, if you would elaborate a 
minute, I think I agree with what you were saying about the 
corps' inability sometimes to hit the mark on their 
authorizations. But could you elaborate a little bit more about 
what you said to make sure that I am hearing, you said 
sometimes it is hard for the corps to meet their total 
authorizations, or sometimes it is hard for them to--I don't 
know what word you used.
    Mr. Jackson. I think where I was going with the comment is 
that, and my wife is the lawyer, so I guess that allows me to 
talk about lawyers. So excuse me, Senator Vitter.
    Senator Landrieu. Go ahead.
    [Laughter.]
    Mr. Jackson. I think sometimes that the corps is a large 
Agency with a lot of Federal oversight. And it appears to me 
that they tend to have a habit of getting buried into the exact 
meaning of a congressional request to authorize projects. I 
think Senator Vitter's questions earlier today relative to 
armoring the levees and whether or not the corps had 
authorization, is a perfect example.
    I had an experience with the corps many years ago when we 
were designing the pumping stations along the lake front in 
Jefferson Parish. And the New Orleans District Corps had taken 
the position that their authorization for hurricane protection 
went to either side of the pumping stations, and they had no 
responsibility for storm protection across the pumping 
stations. And of course, we were looking for them to accept 
their responsibility to help in the funding for those very 
expensive stations.
    At that time, we approached Congress to try to more clearly 
define that authorization, and the New Orleans District re-
interpreted their authorization. And then, without any 
additional congressional action, and assumed responsibility.
    I think that is counterproductive to the goals of what the 
corps is trying to do for this community. While they have done 
many, many great things, and continue to do so, I think it is 
counterproductive, if you will, for the corps to get tied up in 
wording that I don't believe that you as Senators of the U.S. 
Congress intend in the request. I am sure that all these 
controls are built in so that the corps won't start spending 
money in areas that the Congress has not approved. So there has 
to be some line of balance. I agree with Senator Vitter's 
comments earlier that these are different times. And to try to 
split hairs, if you will, on wording in a bill as to whether or 
not there is authorization, and put things on hold, is not good 
for the people of this community.
    Senator Landrieu. Thank you.
    Let me change course and just ask you, I know you have done 
a lot of work with the National Organization of Civil 
Engineers. That particular organization, several years before 
Katrina and Rita, had been very critical and issued a report, I 
am not sure if the title was ``A Nation At Risk'', that was 
maybe our education report. But something similar to that, in 
terms of the lack of overall investment from the Federal 
Government in civil works, generally.
    Mr. Jackson. Yes.
    Senator Landrieu. Could you comment as to if that is the 
position of the organization today, the National Association, 
that the lack of investments is causing our Nation to be 
extremely vulnerable in certain areas and could you elaborate 
on that particular finding?
    Mr. Jackson. Yes, Senator. ASCE, as I think both of you 
know, puts out a report card on the Nation's infrastructure 
every 3 years, and they update it on an annual basis. It is a 
very simple thing to understand, you either get an A or an F or 
somewhere in between.
    So we do this on a national basis. It is not something that 
ASCE dreams up on their own. The information basically comes 
from Federal organizations, such as the corps, the Federal 
Highway Administration and other Federal agencies, which 
address what the needs are versus what is being done.
    We also encourage all of our State sections and branches to 
do local report cards on the Nation's infrastructure. The 
grades that ASCE has been giving to the Nation's infrastructure 
are in the range of Cs and Ds. As a matter of fact, there have 
been a lot of comments by individuals looking at it that you 
would be very ashamed to bring such a report card home to Mom 
and Dad.
    So there needs to be significant investment in the Nation's 
infrastructure in the future. We have ignored the needs over 
the years. I know it is expensive, and I know it takes not only 
a commitment of the U.S. Congress, it takes a commitment of 
every individual in this country. However, like the 
transmission repairman says on TV, you pay me now or you pay me 
later.
    Senator Landrieu. The last report I looked at actually I 
thought had a D or a D- for civil works overall. Do you 
remember what the percentage relative to the GDP over time or 
any kind of data that you could leave, if not, you could submit 
it to the record, in terms of the trend of investments. Has it 
decreased 100 percent over 2 decades or 200 percent? Or has it 
just remained flat for the last 40 years? How do you all talk 
about it when you are trying to describe it to the country?
    Mr. Jackson. Yes, Senator, I would be very happy to have 
that information provided for your office and also for Senator 
Vitter, rather than me trying to recall. I remembered things a 
lot better 25 or 30 years ago than I do today.
    [The referenced information can be found on page 105.]
    Senator Landrieu. Thank you. If you would submit that for 
the record, because I think for the conversation at hand, it is 
a crucial set of data that we need for the country to realize 
that it is a shortchanging of funding over time that has been a 
very insidious pattern of underfunding that has resulted in 
this kind of disaster.
    Let me, if I could, direct a question to Dr. Link. You 
talked about risk and vulnerability. We are in the position now 
of defending, of course, a great city and a great region, and 
the two of us try to do our best at it each day since this has 
happened. But it has not gone without notice. Today, in the 
front page of either the Times or the Post was a discussion 
about the marking of the 100th anniversary of the San Francisco 
earthquake. There was a small group of survivors that of course 
were quite young children, some infants when that occurred 100 
years ago. It was interesting, there are few survivors still.
    Does your organization do an assessment of other 
communities that are so positioned? You know, our colleagues 
continue to say, well, why are you building below sea level? We 
are trying to explain that we came here to run the greatest 
port system in North America. But why did they build San 
Francisco on a fault line, even after 1906? They rebuilt it 
after it completely collapsed. Why are we building Phoenix in 
the middle of a desert? Why are we developing communities in 
Utah that have no access to fresh water and continue to grow, 
L.A. being one? Why do we do that? And if we are, why does it 
make New Orleans either less or better?
    In terms of our commitment to build on this particular 
piece of land, do you have an assessment of the vulnerabilities 
of other major communities, ranking them? Are we at the top of 
the list, in the middle of the list? Are we that much different 
from others relative to the threats that they may be in line 
for?
    Mr. Link. Senator Landrieu, I think your questions are very 
important, I wish I had the list. I think we should ask Tom to 
come up with a report card on that. But we have been basically 
taking the risk and reliability concepts that were developed 
for earthquake analysis, and specifically used by the Federal 
agencies for dam safety. We have been trying to apply them to 
the more complicated area of hurricane protection. Particularly 
in the complex situation here in New Orleans.
    It is interesting, about a week ago, I gave a keynote 
address in California to a number of consulting engineering 
companies. Some of them had the feeling that New Orleans was 
protected better than they are in the central valley and on the 
delta. Of course, I explained that that wasn't the case.
    But there is a lot of misperception about risk. What we are 
trying to do here is identify relative levels of vulnerability, 
depending on where you are and one of the unique things that 
will come out of our work is basically an understanding of 
potential flooding and potential losses as a function of zip 
code, not for all of Plaquemines Parish or not for a lumped 
analysis of Orleans Parish, but for every zip code in every 
census block.
    So the possibility of a failure of a particular reach or a 
particular section of structure can be correlated to the 
probability of flooding and the probability of different kinds 
of losses. That is pretty unique. I don't know of any other 
area where that has been done before. But I think New Orleans 
is the prototype for that type of an analysis or for that kind 
of a product to give decisionmakers a richer set of information 
to understand what is causing the vulnerability.
    If I am building in a particular location or I want to 
develop that location and I have a certain risk of flooding and 
losses, what is causing that? This product will allow you to 
understand the primary causes of vulnerability and to examine 
alternative ways of buying down that risk. I don't know of any 
product like that in any other community. I think from this 
perspective, that this is a new application of risk.
    Senator Landrieu. Senator Vitter has been generous in the 
time, but I will just follow up with this one comment. I think 
that exercise is going to be very helpful, and I most certainly 
don't mind us being the prototype or the model. Clearly, the 
Nation, and international attention, is focused right here.
    But I don't want it to be presented in a way that we are 
the only model. Because I keep saying that this is a national 
challenge. It is a challenge to New Orleans and south 
Louisiana, but we are not the only community challenged. There 
are rural areas, there are urban areas that have great 
challenges, whether it is earthquakes or fires or floods or 
tsunamis or hurricanes coming closer to very highly populated 
areas like New York from the Atlantic.
    This country had better get about the business of getting 
our systems in much better place to deal with it, both 
preventing it and dealing with it once these natural disasters 
do occur. There is no way to prevent them, but there is a much 
better way to deal with it.
    Mr. Dufrechou, I have a question for you, but I will submit 
it for the record, and I thank Senator Vitter for his 
generosity.
    Mr. Dufrechou. Thank you, Senator.
    Senator Vitter. A final question. Mr. Jackson, you listed 
several very specific findings or lessons learned of your peer 
review work, your association's peer review work. Dr. Link, you 
all have come up with similar findings. How would the two of 
you grade the corps in its incorporation of those very specific 
findings and lessons learned into the corps' present ongoing 
work in the area?
    Mr. Jackson. Our observation is that the corps has already 
effected several and has plans to effect the remainder. So our 
evaluation of the corps' response is an absolute A.
    Mr. Link. I feel the same way. We have had multiple 
meetings with the Task Force Guardian and the New Orleans 
District folks. We literally have people from the Task Force 
here every week working together, taking the lessons learned 
and applying them, even before we put them on the web page, as 
soon as we have discovered something. We are here working it 
with the District and it is being applied.
    So for the people from outside the corps on the Task Force, 
this has been really very gratifying to see this work being 
used right away.
    Senator Vitter. Thank you all very much. I want to thank 
all the witnesses. I want to also thank everyone who has 
attended. We have many leaders here today. I want to recognize 
Sandy Rosenthal, who is the leader of Levees.org, an 
organization formed after Hurricane Katrina to ensure better, 
stronger and smarter hurricane protection for the greater New 
Orleans area. I know Senator Landrieu and I both support all of 
those goals of the organization.
    I also want to thank the Louisiana Supreme Court for 
hosting us today. We have Justice Kimble with us and want to 
thank the entire Court for their gracious role in hosting us in 
this fine building.
    I also want to thank the entire Senate Committee on 
Environment and Public Works. We have several staffers who came 
down from Washington to be with us today to work on this 
hearing on both the majority and minority side. They have taken 
a very active role in this corps and related oversight. So I 
want to thank the entire committee and the committee staff.
    With that, the hearing is adjourned.
    [Whereupon, at 12:32 p.m., the committee was adjourned.]
    [Additional statements submitted for the record follow:]
 Statement of Hon. John Paul Woodley, Jr., Assistant Secretary of the 
           Army for Civil Works, U.S. Army Corps of Engineers

                              INTRODUCTION

    Mr. Chairman and distinguished members of the committee, I am John 
Paul Woodley, Jr., Assistant Secretary of the Army (Civil Works). I am 
honored to testify before your committee today on the preparation for 
next hurricane season in Louisiana. I am joined today by Mr. Dan 
Hitchings, Director of the Corps of Engineers' Task Force Hope.
    My testimony today will update the Committee on rebuilding and 
restoration of hurricane and flood protection system by the Army Corps 
of Engineers. I will provide an update on measures to strengthen the 
system that the Administration and Congress are working to authorize 
and fund; on measures required to certify and further enhance the 
system to the standard for a 100-year storm; and on analyses being 
conducted for a greater levels of protection for southern Louisiana. 
Mr. Hitchings will provide a summary of the damage to the hurricane 
protection system and describe authorized and funded efforts now 
underway to re-establish an intact hurricane protection system before 
the start of this summer's hurricane season.
    The damage to the hurricane protection system by Hurricane Katrina 
was calamitous. Sixty percent (169 of 350 miles) of the earthen levees 
and concrete floodwall systems and 87 percent (66 of 76) of the 
existing pump stations were damaged. The Corps is on schedule to repair 
the damaged levees and floodwalls to their pre-storm condition by June 
1, the beginning of the hurricane season.

                   MEASURES TO STRENGTHEN THE SYSTEM

    I believe it is important for the Committee and the public to fully 
understand the efforts we are making to gain the information needed to 
inform prudent decisions for hurricane protection for New Orleans and 
the Louisiana coastal areas. Following landfall of Hurricane Katrina on 
29 August 2005, Secretary of Defense, Donald H. Rumsfeld, directed the 
Secretary of the Army, Dr. Francis J. Harvey, to convene an independent 
panel of national experts under the direction of the National Academies 
to evaluate the performance of hurricane protection systems in New 
Orleans and the surrounding areas. I directed the National Academies to 
assemble a multidisciplinary (e.g., engineering, atmospheric sciences, 
etc.) panel drawn from the public and private sectors and academia. The 
purpose of the panel is to assist the office of the Assistant Secretary 
for Civil Works (ASA (CW)) in conducting a forensic investigation of 
the performance of U.S. Army Corps of Engineers (USACE) projects during 
Hurricane Katrina.
    The Chief of the U.S. Army Corps of Engineers formally established 
the Interagency Performance Evaluation Task Force (IPET) on October 10, 
2005, to provide credible and objective scientific and engineering 
facts to answer questions about the performance of the New Orleans 
hurricane and flood protection system during Hurricane Katrina. The 
IPET is examining and providing forensic analysis on the performance of 
the entire storm damage reduction system in New Orleans, helping us to 
understand the failures that occurred, to understand other components 
of the system that may have been degraded in their capacity to protect 
against future storms, and to understand where the system performed 
successfully. The IPET is developing information on risk and 
reliability of the system as it will be after the corps completes the 
repairs. The corps is immediately acting to incorporate findings into 
both its interim repair and its long term work.
    The American Society of Civil Engineers is providing external peer 
review of IPET activities--referred to as the External Review Report 
(ERP). Both the corps IPET and the ASCE ERP teams are comprised of some 
of the Nation's most highly regarded engineers and scientists from 
Government (Federal, State, and local agencies), academia and private 
industry. These experts are using some of the most advanced scientific 
and engineering methods and tools in their comprehensive study.
    The National Academies Committee on New Orleans Regional Hurricane 
Projects is performing an independent review of the IPET and ASCE 
reports and will issue separate findings and recommendations to me. The 
findings of the National Academies panel will be subject to peer review 
process before being released under the imprimatur of the National 
Academies of Science.
    The IPET product will include four reports. IPET Report 1, publicly 
released on 10 Jan 2006, provided the strategy for implementing their 
performance evaluation and provided interim status. IPET Report 2, 
released in March, provided a progress report on implementation with 
interim results. IPET Report 3, scheduled for June 1, 2006, will be a 
final draft report on the performance evaluation of the hurricane 
protection system. Following a review by both the ASCE ERP and the 
National Academies, a final report will be released in the fall of 
2006.
    The IPET Reports are reviewed by the ASCE External Review Panel and 
the National Academies Committee. All comments pertaining to IPET will 
be addressed in future IPET reports. National Academies review comments 
on IPET reports are provided directly to the Department of the Army. 
ASCE review comments on IPET reports are provided to LTG Carl Strock, 
Chief of Engineers.
    The National Academies review of the IPET work will produce several 
reports. A preliminary letter report was issued February 21, 2006, to 
ASA (CW) providing an assessment of IPET Report 1. An interim report 
will be issued near the midpoint of their study (tentatively 1 June 
2006) with the comprehensive report evaluating the final draft IPET and 
ERP reports scheduled to be released tentatively in September 2006. The 
National Academies review of the final IPET report will be prepared 
about 90 days after the final IPET report is released.
    At the same time, on a parallel path with the IPET and National 
Academies studies, Congress authorized and appropriated funds for a 2-
year, $20 million Louisiana Coastal Protection and Restoration Project 
(LACPR) analysis and design to identify options for increasing the 
level of hurricane storm protection for New Orleans and coastal 
Louisiana. Planning and organization for this study is now underway. It 
will incorporate all information developed by other studies. As 
directed, the corps is preparing an interim report due in June 2006, 
with a final report of recommendations and alternatives due December 
30, 2007. We trust that the State will fully comply with the statutory 
conditions that will enable this study to proceed to completion.
    The LACPR study has been referred to as the ``Category 5'' study, 
but I caution the committee and the public about the use of such 
terminology and measures when making decisions about the kinds and size 
of structures to build for storm protection. Storm category 
classifications, which are based on sustained wind velocities, are 
general categorizations best used to inform the general public about 
the expected level of destructiveness associated with a storm so that 
individuals and officials can make decisions about how to protect 
themselves and their property, such as whether or not to evacuate. 
Storm protection levees and similar structures are now designed to 
specific storm surge and wave criteria based on the modeled effects of 
a statistically-selected ``design storm.'' While sustained wind 
velocity is one measure that has an effect on surge and wave heights, 
many other factors are critically important, as well. These include 
storm characteristics such as forward speed, radius, barometric 
pressure, tidal factors, the bottom depth in front of levees, and more. 
A storm of Category 5 wind velocity characteristics could well be less 
destructive to a storm protection system than would a storm with 
Category 3 wind velocity if those other factors were unfavorable. The 
Louisiana Coastal Protection and Restoration Project will incorporate 
all these factors to study the means to provide a higher level of 
protection.
    Immediately after the hurricane, the Administration committed to 
helping New Orleans rebuild, and to the reconstruction of its hurricane 
protection system. In supplemental appropriations to date, Congress and 
the President have provided $2.08 Billion to repair and restore the 
levee system to its design height.
    In February, I wrote the Congress with a proposal for a fourth 
supplemental funding to construct measures that would strengthen and 
improve the hurricane protection for greater New Orleans. Such measures 
include additional structural protections that would address the main 
causes of he catastrophic flooding during Hurricane Katrina, as well as 
measures to begin to restore the coastal wetlands that help to protect 
New Orleans from hurricane-generated storm surge. While the repairs and 
rebuilding activities that are now underway will make the flood control 
and hurricane protection system better than it was immediately prior to 
Hurricane Katrina, the additional measures that I proposed in February 
will result in a system significantly better and stronger than it ever 
has been before. The proposal includes:

    <bullet> Construct state-of-the-art pump stations and floodgates at 
the outfall ends of three drainage canals (17th Street, Orleans Avenue, 
and London Avenue) to reduce exposure of the interior of the city to 
surge from Lake Pontchartrain. Closing the lakefront of the outfall 
canals will prevent a storm surge from entering the canals when the 
gates are closed while still allowing interior drainage waters to be 
pumped into Lake Pontchartrain.
    <bullet> Strengthen protection along the Inner Harbor Navigation 
Canal (IHNC) through two navigable closure structures at to-be-
determined locations on the Industrial Canal at Seabrook near Lake 
Pontchartrain and west of the intersection of the Gulf Intracoastal 
Waterway (GIWW) and the Mississippi River Gulf Outlet (MRGO). Placing 
navigable gated structures on the Industrial Canal at Seabrook and west 
of the intersection of the GIWW and MRGO will allow ship traffic to 
move freely when open, but would protect the IHNC from major storm 
events when closed. There are about 20 miles of floodwall that will be 
isolated by the permanent pump stations and the navigable gates at 
Seabrook and GIWW.
    <bullet> Storm-proof authorized pump stations in Jefferson and 
Orleans Parishes. Storm-proofing pump stations will allow them to 
function through the fiercest storms by hardening them, raising 
critical equipment and providing emergency power and fuel systems.
    <bullet> Armor critical elements of the hurricane protection 
system. The corps will selectively armor critical elements in the 
system such as transitions from levees to walls and from levees or 
walls to structures, penetrations, crossings, and the like, and also 
some levee segments that are most exposed to surge. Armoring levees 
means strengthening them--applying materials to make levees resistant 
to wave-wash and scour that can occur during overtopping;
    <bullet> Incorporate a non-Federal levee on the West Bank of the 
Mississippi River in Plaquemines Parish into the existing Federal levee 
system to protect an evacuation route. The incorporation of non-Federal 
levees will allow the corps to improve them to the same standard 
heights and design as other area Federal Hurricane Protection levees in 
Plaquemines Parish and offer increased protection for both residents 
and state Highway 23, a major hurricane evacuation route.
    <bullet> Reduce the impact of storm surge in areas east of the city 
by reversing wetland losses in areas affected by navigation channels, 
oil and gas channels or other channels and modifying the Caernarvon 
Freshwater Diversion structure or its operation. When the main surge 
arrives, the basins can then hold more floodwater, thus reducing the 
high water and potential flooding. Restoring coastal ecosystems, such 
as barrier islands and marshlands increases the natural lines of 
defense against hurricane-induced storm surge.

    These measures, estimated to cost $1.46 billion are yet to be 
authorized and funded. If funds are appropriated in FY2006, these 
measures can be completed in 2010.

  MEASURES REQUIRED TO CERTIFY AND FURTHER ENHANCE THE SYSTEM TO THE 
                     STANDARD FOR A 100-YEAR FLOOD

    In the weeks since my February recommendation, new information has 
been developed that has caused us to recommend additional modifications 
to the system. The new recommendations are primarily the result of two 
new pieces of information. First, the IPET study informs us that any I-
walls in the system need to be carefully examined and in many cases may 
need to be replaced. Second, new, post-Katrina weather data developed 
by the National Weather Service informs us that the statistically-
determined ``100-year'' storm is a more powerful storm than the storm 
for which the existing hurricane protection system was designed.
    On April 12, 2006, Federal Coordinator for Gulf Coast Rebuilding 
Donald Powell, along with U.S. Army Corps of Engineers Commander Lt. 
Gen. Carl Strock, FEMA Director of Mitigation and Administrator of the 
National Flood Insurance Program (NFIP) David Maurstad, and FEMA Deputy 
Director for Gulf Coast Recovery Gil Jamieson, announced the release of 
advisory flood data for New Orleans and the majority of the surrounding 
area. The flood advisories will inform residents how to reduce or 
mitigate flood risks as they begin reconstruction, and will provide 
guidance to communities for better and stronger rebuilding. The 
Louisiana Recovery Authority (LRA) has stated that for residents to be 
eligible for its State Homeowner Assistance plan, all reconstruction 
work must meet or exceed the latest available FEMA advisory base flood 
elevations and meet the legal requirements of the State Uniform 
Construction Code. FEMA has previously stated that these advisories 
must be used for any rebuilding projects using certain FEMA grant 
dollars, meaning that the FEMA advisories apply to both public 
infrastructure projects as well as mitigation requirements.
    The flood advisories are based on the assumption that the rebuilt 
hurricane protection system will be sufficient to withstand the newly 
established 100-year storm, which is a requirement of FEMA's National 
Flood Insurance Program. Since the Corps is not able to certify the 
existing and authorized levee design heights for the new more powerful 
100-year storm, the levees will have to be raised in many areas to meet 
the new standard. The Administration is discussing with Congress the 
timing of a formal request for additional authorization and funding to 
certify and further enhance the majority of the levee system.
    The estimated additional cost to raise and enhance the entire New 
Orleans area levee system, including Plaquemines Parish, enough to 
provide100-year protection is estimated at $4.1 billion, in addition to 
the $1.46 billion I recommended in February. The additional work for 
certification of the system includes raising levee heights, in some 
cases as much as 7 feet, and to upgrade or replace the remaining 
existing I-walls with T-walls. We plan to begin working with Congress 
immediately to provide $2.5 billion to address improvements in all of 
the New Orleans system except for lower Plaquemines. The $2.5 billion 
will provide 100-year protection to about 98 percent of the population 
in the New Orleans area. Providing similar protection to the area of 
lower Plaquemines, which was home to 2 percent of the area's 
population, is estimated to cost a total of $1.6 billion. Before 
committing to that funding request, the Administration is awaiting the 
results of the corps' further analysis that will provide additional 
insight into the technical challenges of protecting such a narrow strip 
of land; whether certifying the levees there exacerbates an already 
challenging environmental situation (i.e., sinking and wetlands 
erosion); and whether such improvements would be economically 
justified.
   analyses into a greater level of protection for southern louisiana
    Longer term, as I previously mentioned, the corps is identifying 
and analyzing the options for higher levels of protection. The 
preliminary report of the Louisiana Coastal Protection and Restoration 
Project is scheduled to be completed in June of this year and a final 
report will be completed in December 2007, as provided for in law.

                                CLOSING

    Mr. Chairman, the rebuilding and redesign of the greater New 
Orleans hurricane protection system is one of the most ambitious civil 
works projects ever undertaken and I applaud the efforts of the men and 
women of the Corps of Engineers, many of whom were personally impacted 
by the hurricanes that devastated the Gulf Coast. The commitment and 
selfless service that they are demonstrating by meeting our June first 
goal is a testament to the dedication of this organization. The amount 
of work underway is immense. It would ordinarily take years to do what 
we are doing in months. Work is being accelerated and compressed 
without jeopardizing the science, the engineering or the best 
construction practices.
    This concludes my statement. Again, I appreciate the opportunity to 
testify today. I would be pleased to answer any questions you may have.
                                 ______
                                 
   Responses by John Paul Woodley Jr., to Additional Questions from 
                            Senator Jeffords

    Question 1. During the hearing, Congressman Jefferson asked several 
questions regarding the level of agreement between the Interagency 
Performance Evaluation Team (IPET) and the work of outside groups 
regarding the failure modes of the levees and floodwalls during 
Katrina. You responded that it was perception, not reality that there 
were wide disagreements, and that you would be able to respond more 
thoroughly after the June 1 IPET report was completed. Can you describe 
the level of agreement between the IPET and other groups regarding the 
failure modes of the levees and if there are disagreements, what they 
are, and how the corps intends to use each theory in its repair, 
design, and reconstruction of the hurricane protection system?
    Response. From September 2005 to 1 June 2006, USACE conducted 
investigations of the failure modes, integrated those lessons learned 
into new designs, and placed approximately $800 million of new walls 
and levees to close the breaches before the next hurricane season. As 
part of that effort, about 20 members of Task Force Guardian (TFG), the 
team who performed the design and construction, participated in the 
IPET studies. As lessons were learned and independently reviewed by the 
American Society of Civil Engineers, External Review Team, TFG 
integrated those lessons into the plans and specifications used to 
reconstruct the walls and levees. These lessons were finalized in 
design guidance in April 2006 which is being used to raise the levee 
system to the authorized level of protection by September 2007.
    Starting in January 2006, IPET posted its findings on a public 
website, https://ipet.wes.army.mil, requested similar information from 
the other teams, and had members of the other teams visit the 
construction placement. The IPET received information from the National 
Science Foundation (NSF) sponsored Independent Levee Investigation Team 
(ILIT) in late May 2006 shortly before the completion of the 1 June 
construction deadline when the team posted its draft report at http://
www.ce.berkelev.edu/?new Orleans/.
    The ILIT report was not complete, and the appendices remain 
incomplete where IPET expects to find the detailed analyses. Based on 
the draft findings, there are divergent opinions as to the specific 
failure modes in the foundation soils. One issue that remains unclear 
is the level of independent technical review performed on the ILIT 
report that validates their findings. IPET plans to thoroughly review 
their final report, offer commentary, and seek discussions on any 
issues that need clarification.
    Also in May 2006, IPET received from the National Institute of 
Science and Technology (NIST), Technical Note 1476 posted at http://
www.nist.gov/public affairs/releases/hurricane report060906.htm. The 
IPET reviewed the NIST report and agreed with their findings, however; 
their work was based on observations and had limited technical 
analysis.

    Question 2. On Page 30 and 31 of the transcript, there is a series 
of questions and answers regarding the FEMA flood maps. Can you 
describe the current status of the FEMA advisories? Specifically, what 
do the advisories that have been issued require homeowners to do as 
structures are rebuilt? What is the relationship between the level of 
protection required to meet a 1- in 100-year storm as defined by the 
FEMA flood map process and the level of protection provided by the 
hurricane protection system as it stands today, June 9, 2006, and as it 
will stand after improvements and modifications scheduled to occur 
between now and 2010 are fully implemented?
    Response. Questions regarding FEMA advisories and FEMA policy and 
regulations are best addressed by FEMA officials. However, under 
current FEMA requirements, levees, floodwalls and appurtenant 
structures must be of sufficient height and strength to withstand the 
storm surge and waves associated with a 1- in 100-year storm without 
overtopping or failing. The current system is inadequate with respect 
to both height and strength. The height deficiencies are the result of 
three factors: (1) A better understanding of the frequency of storm 
surge and waves heights. This is a product of both the introduction of 
new data and improved modeling technology; (2) Subsidence, or the 
general settling of the ground in Southeast Louisiana; (3) More 
stringent criteria for wave overtopping. The original design permitted 
some overtopping by wave wash.
    The strength deficiencies are primarily the result of the extensive 
use of I-wall type floodwalls. During Katrina, floodwalls of this type 
failed in three locations. An evaluation by the Independent Performance 
Evaluation Task Force indicates that the failure was the result of a 
mechanism not taken into account in the design. As a result, the 
integrity of approximately 36 miles of floodwall is suspect.
    Once the improvements and modifications scheduled to occur between 
now and 2012 are fully implemented, the system, with the exception of 
levees in lower Plaquemines Parish, will meet all of the FEMA 
requirements.

    Question 3. What is the role of natural wetlands and coastal 
restoration in your vision for the long-term hurricane protection 
system in Southern Louisiana?
    Response. An integrated system of natural wetlands and coastal 
restoration, strong structural barriers and levees, and non-structural 
features provides multiple lines of defense to protect lives and 
property. Coastal ecological features form the outer line of defense 
against storm waves. Barrier island systems absorb waves from 
approaching storms and help limit the amount of water that enters 
estuaries in advance of tropical systems. Back-barrier marshes and 
coastal fringe wetlands act as tidal and wave buffers protecting inland 
features. Upper estuary forested systems provide further protection 
through wind and surge reduction. Forested ridges formed on old river 
and bayou banks also provide wave and wind reduction during storm 
events The lessons of Hurricane Katrina show the dangers of depending 
upon a single line of levee defenses located adjacent to densely 
populated areas. A better system approach would involve fighting storm 
surges on the outer fringe of populated areas with structural measures 
fronted by natural coastal protection features. There is growing 
consensus among scientists involved with Louisiana coastal protection 
and restoration that future hurricane protection projects for New 
Orleans and the Louisiana coast must include plans to sustain or 
enhance the wetland-dominated landscapes that surround the area. 
Althoughthese landscapes are widely recognized for their great value to 
the Nation for the natural resources and ecosystem services they 
provide, these wetlands also function to provide some level of 
protection from hurricane wave action and storm surge.

    Question 4. During the hearing, there was an extensive discussion 
regarding the degree to which the Army Corps of Engineers has 
authorization for selective armoring throughout the system. An 
unidentified piece of legislative language was quoted and an 
interpretation of that language was sought. Can you please provide a 
summary of your interpretation of the language discussed at the 
hearing, and your analysis of the degree to which the Army Corps can 
armor levees without additional authorization?
    Response. With funding and authority provided in the 4th Emergency 
Supplemental, no additional authority for armoring levees in the 
existing system is currently needed. The $170 million provided for 
selective armoring will be directed where the system is most 
vulnerable. These include areas with low-crest elevations, areas with 
weak or erodible levee soils, and transitions between levees with 
floodwalls.

    Question 5. During the hearing, you stated ``the corps is open to 
and is very interested in having outside, external, independent review 
of our formulation procedures and four design procedures. I think that 
our experience with that has been very good.'' Further, you stated that 
you would have no objection whatsoever to institutionalizing 
independent review. How would you propose institutionalizing 
independent peer review?
    Response. This would be a several step process. With its 
publication in May 2005 of EC 1105-2-408 on Peer Review of Decision 
Documents, the corps has actually instituted peer review. The EC 
established within the corps several types of review. First, 
independent technical review, or ITR, will be conducted outside of the 
home district responsible for the feasibility study and would be 
performed or managed by the appropriate technical center of expertise. 
ITR is a critical examination by a qualified person or team that was 
not involved in the day-to-day technical work that supports the 
decision document. The corps has established six centers to manage ITR 
based on project purpose and located at its Division offices as 
follows:

    Inland Navigation (LRD)
    Deep Draft Navigation (SAD)
    Flood Damage Reduction (SPD)
    Hurricane and Storm Damage Reduction (NAD)
    Ecosystem Restoration (MVD)
    Water Management and Reallocation (SWD)

    External review has been added to the corps existing review process 
in special cases where the risk and magnitude of the proposed project 
are such that a critical examination by a qualified person or team 
outside of the corps and not involved in the day-to-day production of a 
technical product is necessary. External review will similarly be added 
in cases where information is based on novel methods, presents complex 
challenges for interpretation, contains precedent-setting methods or 
models, or presents conclusions that are likely to affect policy 
decisions that have a significant impact. External review may be 
conducted at the discretion of the Chief of Engineers on any project he 
deems needs outside experts to review the technical aspects of a 
particular study.
    With respect to independent review, that is, review conducted by a 
panel of experts completely outside or disassociated from the Corps of 
Engineers, we support the general concepts as set forth in S. 728. 
Independent review in this case would be arranged with, for example, 
the National Academies of Science or a similar entity to provide expert 
review of scientific or technical information that could be associated 
with corps studies. However, until Congress provides the appropriate 
authority, we have no ability to fund such review on a 100 percent 
Federal basis.
                               __________
  Statement of Daniel H. Hitchings, P.E., Regional Business Director, 
       Mississippi Valley Division, U.S. Army Corps of Engineers

                              INTRODUCTION

    Mr. Chairman and distinguished members of the Committee, I am Mr. 
Daniel Hitchings, Regional Business Director for the Mississippi Valley 
Division, U. S. Army Corps of Engineers. I am honored to be testifying 
before your Committee today, on the preparation for next hurricane 
season in Louisiana. I am joined today by the Honorable John Paul 
Woodley, Jr., Assistant Secretary of the Army (Civil Works). My 
testimony today will provide a summary of the damage to the hurricane 
protection system and authorized and funded efforts ongoing to re-
establish an imperforate hurricane protection system before the start 
of this summer's hurricane season.
    The damage to the hurricane protection system by Hurricane Katrina 
was calamitous. Sixty percent (169 of 350 miles) of the earthen levees 
and concrete floodwall systems and 87 percent (66 of 76) of the 
existing pump stations were damaged. We are on schedule to repair the 
damaged levees and floodwalls to their pre-storm condition by June 1, 
the beginning of the hurricane season.
Orleans Parish
    The flood and hurricane protection system in Orleans Parish is 
divided into a western portion and eastern portion commonly referred to 
as Orleans East Bank and New Orleans East respectively.
    The Orleans East Bank portion consists of the Lake Pontchartrain 
Lakefront from the 17th St. Canal to the Inner Harbor Navigation 
Channel (IHNC) and then along the western bank of the IHNC to the 
Mississippi River. Within the Orleans East Bank boundaries of the 
Parish there are 26.2 miles of levees and floodwalls, 13 pump stations, 
and 15 roadway floodgates. Significant damage occurred to 3.1 miles of 
levees and floodwalls and to all 13 pump stations. Specifically, the 
damages to the levees and floodwalls included:

    <bullet> 455 foot breach in the east side I-wall along 17th St. 
Canal;
    <bullet> Breaches on both the east side (425 feet) and west side 
(720 feet) I-wall along London Ave. Canal;
    <bullet> Two breaches on the west side of the IHNC both in the 
vicinity of France Road and Benefit Street; and
    <bullet> Intermittent minor scour along the other portions of the 
levee and floodwall protection

    The New Orleans East portion is bounded by the east bank of the 
IHNC, Lake Pontchartrain shoreline between the IHNC and Southpoint, the 
eastern boundary of the Bayou Savage National Wildlife Preserve, and 
the north and south banks of the Gulf Intracoastal Waterway (GIWW). 
Within the New Orleans East boundaries of the Parish there are 49.4 
miles of exterior levees and floodwalls, 9 miles of interior levees, 9 
pump stations, and 7 Floodgates. Significant damage occurred to 7.6 
miles of exterior levees and floodwalls, 4 floodgates, and all 9 pump 
stations. Specifically, the damages to the levees and floodwalls 
included:

    <bullet> 12,750 feet of levee breach along the north bank of the 
GIWW between Michoud Canal and the CSX Railroad;
    <bullet> A floodwall breach at Pump Station 15 (800 feet) near the 
Maxent Levee;
    <bullet> A floodwall breach at the Air Products Hydrogen Plant near 
the Michoud Canal (300 feet);
    <bullet> Floodgate floodwall and adjacent levee damage at the CSX 
railroad crossing;
    <bullet> 2,000 feet of floodwall damage along the north bank of the 
GIWW between the IHNC and Paris Road;
    <bullet> Two breaches in the east side of the IHNC both located in 
the lower 9th ward neighborhood;
    <bullet> Damage to 4 floodgates, floodwall, and minor levee damages 
from Bienvenue Control Structure to GIWW lock; and
    <bullet> Intermittent minor scour along the other portions of the 
levee and floodwall protection
St. Bernard Parish
    The St. Bernard Parish hurricane protection system includes the 
levee/floodwall extending from the Bayou Bienvenue Control Structure, 
continuing along the Mississippi River Gulf Outlet (MRGO) southeastly, 
then turns generally to the west, where it ties into the Mississippi 
River Levee at Caernarvon. There is a total of 25 miles of levees in 
the Parish. Eight miles of hurricane protection levees were damaged. 
The most severely damaged levees are along the reach adjacent to the 
MRGO extending from the Bayou Bienvenue Control Structure to Verret. 
There was also scour on the Verret to Caernarvon levee and damage to 
the Bayou Dupre Control Structure, the Bayou Bienvenue Control 
Structure, and the Creedmore Structure.
Plaquemines Parish
    The Plaquemines Parish Basin includes long, narrow strips of 
protected land on both sides of the Mississippi River between New 
Orleans and the Gulf of Mexico. The Mississippi River Levees (MRL) 
protect the Parish from floods coming down the river; protection from 
hurricane-induced tidal surges is achieved by the New Orleans to Venice 
(NOV) hurricane protection system. The NOV is a system of levees on the 
gulf side of the protected lands and additional berms and floodwalls on 
top of the MRL along the river. The distance between the gulf-side 
levees (back levees), and the MRL is less than a mile in most places. 
Altogether the Plaquemines Parish MRL and NOV systems include 162 miles 
of levee and 7 miles of floodwall. There are fifteen non-federal pump 
stations for interior drainage. All of the levees in Plaquemines Parish 
sustained damage from Hurricanes Katrina and Rita. There was 
considerable crown and slope scour along the total length. The MRL 
slope pavement sustained damage from the hundreds of ships and barges 
that crashed upon it. There were also several distinct locations of 
severe damage, coinciding with pipeline crossings through the levee and 
with some floodwall sections. Five of the 6 miles of NOV floodwall 
along the Mississippi River was damaged beyond repair. There were major 
breaches at sheet pile wing walls at two pump stations in the back 
levee. A major breach occurred at the Shell pipeline crossing near 
Nairn and the West Pointe a la Hache pipeline crossing was severely 
damaged. Wind and water damage from Katrina and Rita severely impacted 
nearly every structure within the east bank area of protection and on 
the west bank below Myrtle Grove (50 miles above Venice).

                     AUTHORIZED AND FUNDED EFFORTS

    Repair: The Corps of Engineers is well on its way to accomplishing 
the initial goal of repairing the damaged portions of the hurricane 
protection system by the start of the next hurricane season. The Corps 
has awarded 59 reconstruction contracts and is committed to completing 
the $798 million reconstruction of the hurricane protection system to 
pre-Katrina levels by June 1. Information gained through an Interagency 
Performance Evaluation Task Force (IPET) and various independent review 
panels is informing decisions on the repair of the existing authorized 
structures, including the replacement of damaged I-walls with L- or T-
walls or with levee enlargements. The flood walls that failed are being 
replaced with new designs that use deeper sheet piles and are anchored 
with H-piles driven up to 80 feet into the ground. Only soil that meets 
the specifications is being used to rebuild the levees. Extensive on-
site inspections, sampling and laboratory testing is performed to 
ensure only quality materials are being used. High quality clay soils 
from as far away as Mississippi are being brought in to ensure the 
levees are better and stronger.
Lake Pontchartrain and Vicinity Project
    In Orleans East Bank, 17 separate construction projects have been 
completed or are underway to repair the damaged areas and to restore 
flood protection to pre-hurricane Katrina conditions. These projects 
represent an estimated $182.3 million in construction contracts. Work 
on the breaches is proceeding as scheduled. An analysis by the IPET has 
shown that the 17th Street canal levees and floodwalls will not perform 
reliably without major reconstruction and strengthening. Better 
protection at all three outfall canals will be provided by closing off 
the mouths of interior drainage canals at Lake Pontchartrain and 
replacing damaged I-walls with T-walls. The outfall canal closure plan 
includes installation of temporary gates and pumps by June, until a 
more permanent solution is authorized, funded and can be constructed. 
The temporary gates can be opened and closed to protect the canals from 
storm-induced surges from Lake Pontchartrain. During most storm events, 
the gates will remain open and the existing pumps will be operated as 
intended to evacuate rainwater. The corps is working with local 
officials to optimize pumping capability when the gates are closed. The 
schedule for the temporary structures is very compressed. Contractors 
are using innovative construction techniques to deliver. Work along the 
Industrial Canal in Orleans Parish is progressing on schedule.
    In New Orleans East, 13 separate construction projects have been 
completed or are underway. These projects represent an estimated $66.8 
million in construction contracts. Repairs for most of the structures 
in the area are on schedule. There is a delay in the floodwall repairs 
at Pump Station No. 15, but materials have been delivered and work is 
progressing. Modifications to the Citrus Back Levee are slightly 
delayed, but the contractor has an excellent history of meeting its 
schedule. Modifications to the floodgate at the CSX (L&N) Tracks are 
slightly delayed due to negotiations with the railroad. These 
negotiations have now been completed and a revised schedule is being 
developed.
    In St. Bernard Basin, which includes St. Bernard Parish and the 
Lower 9th Ward of Orleans Parish, 9 separate construction projects have 
been completed or are underway. These projects represent an estimated 
$69.3 million in construction contracts. Levee repairs are all on 
schedule. Work on both control structures is slightly behind schedule, 
but the schedule is being managed and the projects will be completed on 
time.
New Orleans to Venice
    For the New Orleans to Venice project located in Plaquemines 
Parish, 20 separate construction projects have been completed or are 
underway. These projects represent an estimated $114.5 million in 
construction contracts. Half of these projects have been completed, 
including all of the MRL repairs. Recent completion of the Port Sulphur 
to Fort Jackson MRL repairs has provided full access for levee four 
enlargement projects that were previously delayed. These are areas 
where the New Orleans to Venice Hurricane Protection Project consists 
of additional berms and floodwalls on top of the MRL levees.
Restoration of undamaged and subsided areas; Completion of un-
        constructed portions of authorized projects
    The corps continues to conduct both surface and subsurface 
inspections of the remaining 181 miles of the New Orleans-area levee 
system that was not visibly damaged by last year's hurricanes, and is 
thoroughly inspecting all of the I-walls that were not damaged. By 
September 2007, the Corps plans to restore undamaged but subsided areas 
of the hurricane protection system to its authorized elevation. They 
will also complete un-constructed yet authorized portions of the New 
Orleans to Venice, West Bank and Vicinity, Lake Pontchartrain and 
Vicinity, Grand Isle, and Larose to Golden Meadow hurricane protection 
projects and the Southeast Louisiana interior flood damage reduction 
project.
    In addition, we are re-assessing the reliability of all of the 
floodwalls in the system based on the findings of the IPET. These 
findings identified a failure mechanism that was not taken into account 
during design. If the proposed improvements that were described by
    Statement of Daniel H. Hitchings, PE, Regional Business Director, 
Mississippi Valley Division, U.S. Army Corps of Engineers
    Mr. Woodley in his testimony are implemented, the length of 
floodwalls in the system will be reduced by about 20 miles. However, 
there are 36 miles of floodwalls that will remain in the system. 
Reevaluation may reveal that replacement or reinforcement of all or 
part of this length may be necessary.
    This concludes my statement. Again, I appreciate the opportunity to 
testify today. I would be pleased to answer any questions you may have.
                                 ______
                                 
     Responses by Daniel H. Hitchings to Additional questions from 
                            Senator Jefferds

    Question 1a. Can you describe the condition of the levees in New 
Orleans in terms of tree growth prior to Hurricane Katrina?
    Response. Prior to Katrina, the great majority of Federal levees in 
the New Orleans area were free of trees within the levee footprint. 
However, there were some reaches of the hurricane protection system 
where trees were located in, or immediately adjacent to, the levees. 
This was particularly evident along the levees and floodwalls located 
on the outfall canals in New Orleans where the Federal hurricane 
protection project was implemented on top of local levees in densely 
populated corridors with limited rights-of-way.
    Corps policy prohibits tree growth that adversely affects the 
integrity of levees and floodwalls. However, corps guidance and 
national environmental policy also recognizes the esthetic and 
environmental value of trees and requires that acquisition of rights-
of-way and the clearance of trees be kept to the minimum necessary for 
implementation of the project. Our post-Katrina review has identified 
inconsistent application of these policies, a problem that we are now 
addressing.

    Question 1b. What impact would a large root ball inside of a levee/
floodwall have on the stability of the system?
    Response. Trees located on, or adjacent to, a levee or floodwall 
pose risks to the integrity of the system by providing a pathway for 
water to work its way into the levees. An overturned tree within the 
vicinity of project features could lead to instability of the flood 
protection by removing large amounts of soil from the levee as well as 
opening the way for a sliding failure or piping of water. In addition, 
large overturned trees could fall on and damage floodwalls.

    Question 1c. Were there any reports of tree removals in the time 
period immediately preceding Hurricane Katrina?
    Response. We are not aware of any such reports. However, it should 
be noted that the corps relies upon the local levee districts for 
operation and maintenance oversight of the project.

    Question 1d. What would the normal corps process be should such a 
report be received?
    Response. Our procedure would be to consult with the local project 
sponsor who has primary responsibility for operation and maintenance of 
the project to determine what actions, if any, were needed to address 
tree removals.

    Question 2. Can you describe the Army Corps protocols for tree 
removal, including which trees are cut down, which trees are removed by 
the roots and how levee stability is insured when a large root ball is 
removed?
    Response. In the interest of repair and rehabilitation of the Lake 
Pontchartrain, Louisiana, and Vicinity, Hurricane Protection project, 
we have developed a two-phase approach to the removal of trees that 
endanger our floodwalls and levees. During the first phase, only trees 
within the levee section or immediately adjacent to floodwalls will be 
cut. These trees will be cut 4\1/2\ feet above the ground with the tree 
stumps and roots to be removed after the current hurricane season has 
ended. The resulting holes will be backfilled with clay material and 
compacted to ensure the integrity of the levee.
    The second phase of the tree removal program will broaden the tree 
removal zone. We are currently reviewing our criteria for root-free and 
woody vegetation-free zones adjacent to levees and floodwalls. Changes 
in the criteria may result in the need to acquire additional rights-of-
way.

    Question 3. Do you anticipate large numbers of levee reconstruction 
projects after tree removal in New Orleans is completed?
    Response. As described in response to question No. 2, the portions 
of levee sections that are impacted by the removal of trees will be 
immediately repaired to restore their structural integrity. We have 
developed initial estimates of trees requiring removal in phase I but 
are still developing estimates for the extent of tree removal and 
needed repairs for phase 2.

    Question 4. Can you clarify your understanding of why splash guards 
were not included in the original design of the New Orleans levee 
system at some or all locations?
    Response. The flood protection project was designed to protect 
against a certain storm event. Consideration was not given to 
protecting the project features against larger storms.

    Question 5. Can you describe what actions would need to be taken if 
a levee is armored today, and, in the future, it is determined that a 
levee raise would be necessary?
    Response. If the product selected to armor can be salvaged, it 
would. We have not completed our construction, economic, and reuse 
analyses on these products. ERDC recently completed Phase I of a two 
phase report. Phase I provided an initial evaluation of armoring and 
protection alternatives that are appropriate. Phase II will be 
initiated in July 2006 and will expand the range of alternatives and 
will engage manufactures and eminent engineers and scientists.

    Question 6. What is the role of natural wetlands and coastal 
restoration in your vision for the long-term hurricane protection 
system in southern Louisiana?
    Response. Coastal wetlands are an integral part of a viable coast 
that serves multiple purposes. One of the primary benefits of a viable, 
sustainable coast is that it provides the first line of defense against 
hurricane storm surges. Coastal restoration features contribute to the 
overall hurricane protection system by providing storm surge reduction, 
levee protection buffers, wind shields, and long term operations and 
maintenance cost reductions.

  Statement of Hon. William Clifford Smith, member, Mississippi River 
         Commission, Civil Works, U.S. Army Corps of Engineers

    Good morning Senators and staff. Thank you for holding this 
hearing.
    When I read the official notice for this meeting, I understand that 
its purpose is to oversee the ongoing rebuilding and restoration 
efforts of hurricane and flood protection by the Corps of Engineers in 
preparation for the 2006 hurricane season in Louisiana and to examine 
taking a comprehensive approach to hurricane protection.
    Since you are overseeing the ''ongoing rebuilding and restoration 
efforts of hurricane and flood protection by the Corps of Engineers in 
preparation for next years hurricane season in Louisiana'', I am here 
to respectfully inform you that there is no effort being expended to 
protect the approximately 150,000 citizens and the Nation's economic 
engine in Terrebonne Parish, which suffered greater flooding from 
Hurricane Rita than it has ever suffered in my lifetime of 71 years. 
Over ten thousand homes were flooded by Rita, which made landfall 
approximately one hundred and fifty miles to the west of Terrebonne.
    I am very pleased that you want to investigate a ``comprehensive 
approach to hurricane protection'', but I am frustrated and confused. I 
am here to tell you that a comprehensive approach is not only 
desirable, but is necessary for the survival of our coast and its 
economy, communities and culture. A pro-active approach to avoiding the 
type of destruction and devastation experienced through Hurricanes 
Katrina and Rita is long overdue.
    We, in Terrebonne Parish, have been working on just such an 
approach for our region for over 15 years (that's right...15 YEARS). 
The obsolete and frustrating authorization, appropriating and N.E.P.A. 
permitting processes that have evolved in this country, and the timing 
issues that are associated with them, present almost insurmountable 
barriers to resolving the complicated problems associated with 
implementing any comprehensive hurricane protection system.
    Fifteen years ago, in conjunction with the State of Louisiana and 
the Corps of Engineers, we began to develop a hurricane protection 
system for Terrebonne Parish. The State, our local Government, and the 
Corps of Engineers, completed a feasibility study in 2002 which cost 
over $10 million, of which 50 percent was paid by local interests. It 
was approved by the Chief of Engineers. This project, known as the 
Morganza to the Gulf Hurricane Protection Plan, has a positive cost 
benefit ratio, but has been waiting for Congressional authorization 
since 2002. As you all know, no Water Resource Development Act 
(W.R.D.A.) has passed the Congress since 2000, and this project has 
been in every proposed version since that time.
    The local citizens have been taxing themselves for the last four 
years to raise the local share with the state in the event that a 
federal project is ever authorized and funded. As a matter of fact, 
with local and state funds and no Federal help we have just begun 
building a $17 million segment of the project in accordance with the 
feasibility report and with the hope of ultimately receiving credit on 
a Federal project. This project will provide Category 3 protection for 
approximately 200,000 citizens in Terrebonne and Lafourche Parishes and 
approximately $8 billion of public and private infrastructure, if and 
when it is ever built...and if we don't completely wash away before we 
get assistance from the Federal Government.
    During the past 6 months, when someone asks me how I am doing, I 
tell them I am confused. I know that I am blessed because the greatest 
natural disaster to hit America, Hurricane Katrina, was to the east of 
where I live. Even though the wind blew out of the north at 100 MPH, we 
received minimal damage and inconvenience, being without electricity 
for only 5 days. Within 30 days, Hurricane Rita hit southwest 
Louisiana, and the wind blew 40 MPH out of the south; we had more water 
in my parish than I have ever seen. Thankfully, my home and my business 
and investments had minimal damage so, again, I was blessed.
    Because we live so close to the disaster areas, especially the oil 
and gas operations in the Gulf of Mexico that were devastated by 
Katrina and Rita, my community's economy is the most prosperous that I 
have ever observed. A year ago, I would have told you that Terrebonne 
Parish was benefiting from an economic boom second to none. Now, the 
economy is a spike on what we had. We have less than a 4 percent 
unemployment rate, a 10 percent increase in population over the last 10 
years, and at least a 15 percent increase in population over the last 6 
months. We have a sales tax increase of over 15 percent per year, with 
over a 30 percent increase being reflected over the last six months. 
All of this is because the oil and gas companies are doing everything 
possible to get back in production because of the demand and prices for 
their products. We are blessed to be benefiting from circumstances not 
under our control.
    However, as a Civil Engineer and Land Surveyor who has lived near 
the water in this coastal area all my life, I am depressed because I 
see my coastline washing away into the Gulf of Mexico. I believe if a 
storm of 100 MPH wind hit my community from the south, there could be 
10 to 15 feet of water in the vicinity of Houma. During my lifetime, 
over 400,000 acres of land have been lost between my community and the 
Gulf of Mexico. The buffer that protected my community from hurricanes 
for over 200 years is eroding. One of the most productive estuary areas 
in the world is being lost as I speak to you. It has been documented 
that 25 square miles of coastal Louisiana is being destroyed by 
erosion, subsidence, or sea level rise each and every year. The 
estimate is that we lost 100 to 125 square miles of the Louisiana coast 
during Hurricanes Rita and Katrina. This depresses me, and it should 
depress you.
    I tell everyone in my community to go look at Chalmette and St. 
Bernard Parish. Chalmette is about 20 miles further inland from the 
Gulf than my community of Houma, as shown on the attached sketch. 
Chalmette had two levees protecting them, and they both were 
overtopped. In my community, we have none. I believe it is just a 
matter of time before my community experiences the fate of Chalmette 
and St. Bernard Parish.
    I also am depressed when I hear all the effort and discussion in 
the New Orleans area and vicinity concerning protection from a Category 
3 or Category 5 hurricane. Where I live, we have a Category 0 
protection. Over the years my parish used local funds to construct 
drainage and tidal protection levees and pump stations to handle our 
deteriorating drainage problems caused by coastal erosion and 60 inches 
of annual rainfall. The levees protected areas that were flooded many 
times by previous hurricanes and tropical events, but they were 
destroyed by Rita. Again, using local funds, we are frantically 
attempting to rebuild some of our levees and drainage systems before 
the June 1st hurricane season. It is depressing because what we are 
building is not hurricane protection.
    As drastically as we need this project and as horrible as the 
hurricanes were last year, one good thing that resulted is the 
recognition that the wetlands and estuary area are, in and of 
themselves, significant hurricane protection systems that must be 
restored and rebuilt. This is surely the case, particularly in my area, 
because our wetlands have historically protected not only my parish but 
much of Lafourche, St. Charles, Jefferson, and Orleans, in addition to 
being the most productive estuary on earth. I believe, as a civilian 
member of the Mississippi River Commission, this restoration of our 
wetlands can be accomplished by managing the resources of the 
Mississippi River and its tributaries so that the fresh water, silt, 
and nutrients of the river can be utilized under controlled conditions 
to re-establish the wetlands.
    The survival of our area depends upon you. Please authorize and 
fund the Morganza to the Gulf Hurricane Protection Project and the 
Louisiana Coastal Area Project for the restoration of the nation's 
great coastal area.
    Thank you for your time.

    [GRAPHIC] [TIFF OMITTED] T2276.038
    
 Statement of Benny Rousselle, president, Plaquemines Parish Government
    Thank you, Chairman and Members of the Committee.
    I am Benny Rousselle and I represent the people of Plaquemines 
Parish, a relatively small community located on the Gulf Coast of 
Louisiana, south of New Orleans.
    Plaquemines Parish is small in size and population, yet it provides 
multi-million dollar revenues for North America. The parish's oil, gas 
and fishery industries provide an economic impact for not only 
Louisiana but for the entire United States. The Naval Air Station--
Joint Reserve Base, representing all five branches of the U.S. Armed 
Forces and the U.S. Coast Guard is located in Plaquemines Parish.
    Two prominent scientific research centers are located in 
Plaquemines Parish. Tulane University's F. Edward Hebert Research 
Center focuses on environmental, biological and medical research 
activities. The Louisiana State University's Citrus Research Station 
obtains produce research data on citrus, vegetables and small fruit.
    Plaquemines Parish is also the home of the Conoco Phillips Alliance 
Refinery, one of the last grassroots refineries built in the United 
States. The refinery processes crude oil and receives domestic crude 
oil by pipeline and international crudes via the Louisiana Offshore Oil 
Port. Approximately 600 employees and contractors operate and maintain 
the refinery. The refinery started operations in 1971 and remains one 
of the country's most efficient and modern refineries.
    The Chevron Oronite Oak Point Plant in Plaquemines Parish is one of 
the largest and most advanced producers of high-quality blended fuel 
and lubricant additives in the world. The plant occupies 100 acres in 
the parish and has more than 410 employees. More than 30 unique 
additive components and intermediates are manufactured at the plant and 
more than 300 packages are blended at the site for customer 
requirements.
    Southeast Louisiana is a major oil and gas-producing region, with 
an energy industry that accounts for $93 billion in revenue to the 
Louisiana economy and the employment of more than 62,000 people. In 
2001, Plaquemines Parish produced more than 21 million barrels of crude 
oil from more than 23,000 wells,--more than any other parish in the 
State. In addition, Plaquemines Parish also produced more than 146 
million cubic feet of natural gas.
    The mouth of the Mississippi River is in Plaquemines Parish. 
Through this gateway to the Mississippi River Valley passes 92 percent 
of the Nation's agricultural exports, as well as coal, petroleum 
products, iron and steel, rubber and chemicals.
    The mouth of the Mississippi River is served by five ports--
including the Ports of Plaquemines, St. Bernard, New Orleans, South 
Louisiana and Baton Rouge. These ports handle a significant portion of 
the Nation's cargo. In fact, annual U.S. tonnage reports consistently 
rank the Port of South Louisiana FIRST in tonnage shipped, while the 
ports of New Orleans and Baton Rouge rank fourth and sixth. The ports 
also serve as America's cargo gateway to Latin America and, with the 
potential opening of the Seapoint facility, they are expected to become 
critical to our trade with China.
    The parish of Plaquemines jutting out into the Gulf of Mexico was 
the first to be hit by Hurricane Katrina. Just a few short weeks 
afterward it received the backlash of Hurricane Rita. In both 
instances, Plaquemines Parish was inundated by waters that flooded and 
washed away practically all businesses, homes and structures on the 
east bank and southernmost points. Our only protection was levees, both 
Federal and non-Federal, that suffered tremendous soil loss and in some 
instances, collapsed.
    Unlike other parishes that need levee protection in some areas of 
their parish, Plaquemines is bordered by levees on all sides. We rely 
heavily on our levees year round for daily protection. We have been 
dependent on the Corps of Engineers to provide us with protection for 
our Federal levees. However, Plaquemines Parish has allotted 
substantial local dollars for Federal and non-Federal levees. This does 
not include the time and labor spent by employees to maintain both the 
federal and non-Federal levees. In order to provide adequate levee 
protection of Plaquemines Parish we must have all of our levees funded 
under a Federal system.
    However, levee systems are not and cannot be the lone solution. 
There must be a move to restore America's wetlands. They are an 
important part of our economy, our culture and our environment.
    Louisiana boasts the Nation's largest shrimp fishery and second-
largest commercial fishing industry (second only to Alaska). Some of 
the largest commercial fishing ports in the country are in the 
Southeast Louisiana corridor. Fishermen working out of these ports land 
between 350 million and 495 million pounds of saltwater fish each year 
and about 22 million pounds of freshwater fish the largest freshwater 
harvest in the Nation.
    The wetlands surrounding Plaquemines Parish are the spawning 
grounds and nurseries for much of the Nation's most desirable seafood: 
shrimp, oysters, crab, catfish and red drum. Without wetlands 
protection and restoration, the Louisiana seafood industry and the 
Nation's seafood populations are vulnerable.
    Parts of Plaquemines Parish are designated as essential habitat for 
brown shrimp, white shrimp, and red drum by the Gulf of Mexico fishery 
Management Council. America's wetlands also provide natural flood 
control, natural hurricane protection and natural filtration systems to 
protect water quality. In fact, America's wetlands located in Louisiana 
have been called ``the hardest-working,'' ``the most productive'' and 
``the greatest wetlands on earth.'' But these wetlands are disappearing 
at the rate of 40 square miles a year. That's 80 percent of the 
Nation's total coastal wetland loss occurring in the Nation's most 
important and productive wetlands. Without protection, these wetlands 
are not only vulnerable. . . they're gone.
    The southern portion of Plaquemines Parish and its east bank 
population now stands at 10 percent pre-Katrina numbers. Our residents 
and businesses are waiting for adequate levee protection and coastal 
restoration. Plaquemines Parish is not a heavily populated area. 
Louisiana, in general, is not a heavily populated State. But consider 
this: these small numbers of people make up nearly 100 percent of the 
workers in the Nation's second-largest seafood industry. And comprise 
the workforce of one of the Nation's most important oil and gas-
producing regions. They service three of the nation's busiest ports and 
form a unique and priceless part of America's cultural heritage.
    Today I am asking that you invest in the maintenance of all levee 
systems in Plaquemines Parish. I am also asking you to invest and 
dedicate funding to our wetlands and nature's hurricane protection 
system.
    We respectfully request that you don't turn your back on the levees 
and the vanishing wetlands of our parish and State. These levees and 
wetlands present a priceless opportunity to act locally to reap 
enormous global benefits. Without protection, we're all vulnerable.
                                 ______
                                 
      Response by Benny Rousselle to an Additional Question from 
                            Senator Jeffords

    Question. I understand that the corps had plans to meet with you 
and others in Plaquemines Parish to determine what some options might 
be for a hurricane protection system that could involve concepts such 
as maximum protection for population and economic centers coupled with 
a protected hurricane evaluation route. Can you provide an update on 
what discussions have occurred, and what your opinion is of the concept 
I described here for hurricane protection in Plaquemines Parish?
    Response. I have met with the corps on two seperate occasions. I am 
currently waiting for a third meeting to learn what their final 
recommendation will be. I agree that we need a comprehensive plan that 
combines restoration of the barrier islands and maximum levee 
protection to best serve our area.
                               __________
 Statement of Timothy P. Kerner, Mayor, Town of Jean Lafitte and vice 
     president, West Jefferson Levee District, Jefferson Parish, LA

    Good morning, my name is Timothy Kerner, Mayor of the Town of Jean 
Lafitte and Vice-President of the West Jefferson Levee District. I am 
here to speak on behalf of the citizens of Jefferson Parish.
    Hurricane Katrina made landfall on August 29, 2005 causing 
tremendous flooding damage over large portions of southeastern 
Louisiana. The event focused great attention on its impact upon the 
flood protection systems throughout the area.
    However, Hurricane Katrina was not the only catastrophe to hit 
southeastern Louisiana. In late September of 2005, Hurricane Rita while 
on a path to making landfall near the Louisiana/Texas border brought 
catastrophic tidal inundation to the communities of Crown Point, 
Lafitte, and Barataria as it passed south of Jefferson Parish, LA.
    The flooding overtopped and in some instances destroyed existing 
levee systems that heretofore had provided a limited level of flood 
protection in `these areas. Because of the extent of damage, the 
rehabilitation of these levee systems is beyond the financial 
capability of the West Jefferson Levee District. As such, we are 
requesting your review of and subsequent approval for funding the 
repair of those damaged levee systems and for the construction of new 
levees as may be needed to protect the citizens of lower Jefferson 
Parish.
    We understand that the repair and construction of levee systems, 
both Federal and non-Federal, located in other communities in and 
around the New Orleans metropolitan area that were damaged or destroyed 
by Hurricane Katrina have been included in Congressional appropriations 
to the U.S. Army Corps of Engineers. In earlier supplemental 
appropriation legislation the non-Federal levees located in the 
parishes of St. Bernard and Plaquemines were addressed, and we 
understand that in the most recent supplemental appropriations bill 
that just passed the Senate Committee, non-Federal levees in Terrebonne 
Parish have also been addressed. Unfortunately, damage to non-Federal 
levees in Jefferson Parish from Hurricane Rita have not been addressed 
leaving to local governmental entities, with limited resources, the 
sole responsibility for these levees.
    Prior to the recent area-wide devastation caused by the passages of 
Hurricane Katrina and Hurricane Rita, some efforts on the Federal level 
had been initiated. After being contacted for assistance by Jefferson 
Parish officials, the West Jefferson Levee District, and the Mayor of 
the Town of Jean Lafitte, Louisiana, the U.S. Army Corps of Engineers, 
as part of their Continuing Authorities Program, was already in the 
process of addressing tidal flood protection at several of the Crown 
Point, Lafitte, and Barataria sites.
    In each case the corps is limited to spending a maximum of $7 
million per project with a 65 percent Federal and 35 percent non-
Federal cost share requirement. As each of the below listed projects 
will far exceed that limit, we are requesting legislation to increase 
the Federal funding limit and to reduce the non-Federal cost share 
percentage.

    Existing studies:
    (1) Crown Point Basin Flood Protection
    (2) Rosethorn Basin Flood Protection
    (3) Lafitte, Fisher School Basin Flood Protection
    (4) Pailet Basin Flood Protection
    (5) Goose Bayou Basin Flood Protection

    New and requested construction:
    Recent events demonstrated that completion of the above mentioned 
projects would have prevented serious flooding in the areas that would 
have been served by the projects. However, evacuation was stopped due 
to high water across the roadway between the project locations. As 
such, we are requesting that projects be authorized sufficient to 
connect the proposed construction sites. To assure construction of the 
roadway evacuation routes, the cost to benefit ratio of 1:1 must be 
waived for the following projects.
    (6) Lower Lafitte Basin Flood Protection
    (7) Lower Barataria Basin
    (8) Jones Point Basin
    (9) Lower Highway 45 Evacuation Route
    (10) Upper Highway 45 Evacuation Route
    To assure sufficient action, legislation authorizing a larger 
Federal participation must be enacted by the Congress. To assist in 
that process we have included suggested language as an attachment to my 
testimony.
    Unfortunately, even the sites included in the Federal studies and 
authorized construction projects do not qualify under Federal 
legislation enacted for recovery from Hurricane Katrina.
    For this reason we are looking to the U.S. Congress for assistance 
in the repair of damaged levees and for assistance in funding the 
construction of new levees needed to provide safe corridors of 
evacuation when needed to protect our citizens in future flooding 
events such as recently experienced from Hurricanes Katrina and Rita.
    As Mayor of the Town of Jean Lafitte I am critically interested in 
providing flood protection for all of the citizens living and working 
in the communities of Lafitte, Barataria, and Crown Point; but, I am 
also Vice-President of the West Jefferson Levee District so I am also 
concerned that those citizens living and working within the project 
boundaries of the West Bank Hurricane Protection Project receive the 
maximum flood protection benefit of this project.
    When first authorized by congress in 1986 we were told by the U.S. 
Army Corps of Engineers that this project would provide flood 
protection against the Standard Project Hurricane, generally assumed to 
be a level of flood protection against a storm that might occur once in 
300 to 500 years. Recent news releases have advised that the West Bank 
Project after constructed to its authorized elevation will not even 
provide flood protection to the 100 year level. To say that we were 
shocked by that information would be an understatement.
    At this time, the 250,000 citizens of the west bank of Jefferson 
Parish, Algiers in Orleans Parish, and Belle Chasse, in Plaquemines 
Parish who are all relying on this project do not even receive the 
benefit of a completed system. Approximately 20 miles of a total 
project length of 64 miles has not yet been constructed. While we have 
been advised that the corps now has funding sufficient to accelerate 
completion of the project, we are told, that won't happen for at least 
2 years. Even when finished, based on the new information, the project 
will still not provide the level of flood protection originally 
promised and authorized.
    The third supplemental appropriation legislation recently passed by 
Congress provided funding sufficient to accelerate the completion of 
the project no later than September 2007. That legislation mandated 100 
percent of the cost of that construction to be borne by the U.S. Army 
Corps of Engineers. Unfortunately, we are told by the corps that the 
legislation mandated that they assume all land acquisition duties, 
previously the responsibility of the non-Federal sponsor. As such, we 
are concerned, based upon our interaction with the Corps since 
Hurricane Katrina, that the corps' procedures will significantly delay 
the start of project construction.
    The solution to that problem is for the West Jefferson Levee 
District to continue to provide the land acquisition services. However, 
we are told by the corps that legislation is required to direct the 
corps to allow the non-Federal sponsor to continue its land acquisition 
activities and to authorize it to reimburse the non-Federal sponsor 
(West Jefferson Levee District) for the cost of this responsibility.
    A press release by the corps recently advised that the West Bank 
project, although authorized by Congress to be constructed to the level 
of the Standard Project Hurricane (300- to 500-year frequency) did not 
now meet the new FEMA criterion for the 100-year frequency storm.
    Additional language, and funding, will be required directing the 
corps to construct the project sufficient to provide at least the FEMA 
100-year flood protection, or better.
    Since its construction, the corps has continually been responsible 
for the operation and maintenance of the levees adjacent to the Algiers 
Canal, of the Gulf Intracoastal Water Way. The agreement for hurricane 
protection for the West Bank required non-Federal interests to assume 
the operation and maintenance responsibility for these levees after 
they were raised 2-feet. This requirement is onerous and should be 
eliminated. Language was put into previous WRDA legislation to handle 
this problem, but after the bill was passed by Congress, the corps took 
the position that the language was flawed and therefore unenforceable.
    In closing, let me finish by saying that the people of south 
Louisiana in general, and in particular Jefferson Parish, have a long 
history of providing many of the goods and services needed by the rest 
of our country. We have worked hard to provide much of the seafood, 
including fish, oysters, shrimp, and crawfish that is enjoyed by many 
throughout this great country. Our people toil, and our infrastructure 
supports the oil industry that helps fuel the automobiles, heat the 
homes, and power the industry that the rest of the country has come to 
rely on for their comfort and livelihood. The rivers, bayous, and 
channels that cut through our communities and allow the commerce of the 
country to flow smoothly to the many ports and locations throughout the 
nation, also bring the flood waters that have so devastated our homes 
and have given us great concern for the future.
   legislation needed for the west bank hurricane protection project
    1. Amend Section 328 of the Water Resource and Development Act of 
1999 By striking ``operation and maintenance'' and inserting 
``operation, maintenance, repair, replacement and rehabilitation''; and 
By striking'' Algiers Channel'' and inserting ``Algiers Lock and Canal 
Project Levees, including any enlargements, additions or structural 
improvements constructed upon the said Algiers Lock and Canal Project 
Levees as part of the West Bank and Vicinity, New Orleans, LA, 
Hurricane Protection Project.''
    2. Legislation is required to direct the corps to allow the non-
Federal sponsor to continue its land acquisition activities and to 
reimburse the non-Federal sponsor (West Jefferson Levee District) for 
the cost of this responsibility.
    3. Additional language, and funding, will be required directing the 
Corps to construct the project sufficient to meet at least the FEMA 
100-year flood declaration, or better.

[GRAPHIC] [TIFF OMITTED] T2276.039


      LEGISLATION NEEDED FOR THE LAFITTE AREA OF JEFFERSON PARISH

    1. MAXIMUM FEDERAL EXPENDITURE--The maximum amount of Federal Funds 
that may be expended for the project for flood control,----insert name 
of project----, Jefferson Parish Louisiana, is $15 million.
    2. COST SHARE--Non-Federal interests shall be required to provide 
all lands, easements, rights of way, affect relocation of impacted 
utilities/facilities, borrows, and spoil disposal easements and pay 10 
percent of the project total cost.
    3. CREDITS--Credit shall be given to non-Federal interests towards 
its share of the project's total cost for its provision of all in-kind 
services, lands, easements, rights of way, affect relocation of 
impacted utilities/facilities, borrows, and spoil disposal easements. 
The requirement for non-Federal interests to provide a minimum of 5 
percent cash towards the project's total cost is waived. Reimbursement 
of all non-Federal expenditures above the 10 percent maximum 
contribution is authorized.
    4. PROJECT COOPERATION AGREEMENT--The Secretary shall enter into a 
project cooperation agreement for the project as described to take into 
account the change in participation in the project as authorized under 
this legislation.
    5. PROJECT JUSTIFICATION--The minimum cost to benefit requirement 
of 1:1 is waived for the purposes of this project.

[GRAPHIC] [TIFF OMITTED] T2276.040

       Statement of Mark C. Drennen, President and CEO, Greater 
                           New Orleans, Inc.

    In October 2005, the Southeast Louisiana Business Coalition, a 
group of business leaders from GNO, Inc., Downtown Development 
District, Jefferson Chamber of Commerce, New Orleans Chamber of 
Commerce, River Region Chamber of Commerce, Slidell Chamber of 
Commerce, St. Bernard Chamber of Commerce, West St. Tammany Chamber of 
Commerce, U.S. Chamber of Commerce and Louis Armstrong International 
Airport, all representing thousands of small, medium and large 
employers from the hardest hit areas of the New Orleans region united 
for three primary purposes:

    <bullet> to educate congress and Federal agencies as to the vital 
pre-Katrina national economic impact of the Southeast Louisiana region
    <bullet> to alert congress and Federal agencies about the severity 
of the devastation to the regional economy
    <bullet> to propose a post-Katrina congressional relief package.

    Critical to our message were some startling facts and figures.
    To date:

    <bullet> 80,000 businesses have been disrupted by the hurricane and 
are in severe risk of failure.
    <bullet> 438,000 new claims for unemployment have been filed since 
Hurricane Katrina.
    <bullet> The State of Louisiana anticipates $1 Billion in lost 
revenue for Fiscal Year 2005/06.
    <bullet> 200,000 homes have been substantially damaged.
    <bullet> basic infrastructure necessary for economic recovery, 
including schools, hospitals, colleges and roads have been severely 
damaged or destroyed.
    <bullet> Tax bases for governmental operations have been lost.

    The Southeast Louisiana Business Coalition representing businesses 
from a variety of sectors, such as banking, law, information technology 
and telecommunications, and engineering requested critically needed 
help through appropriations requests, an economic stimulus package and 
a call for a federally appointed figure to direct recovery efforts.
    Appropriations requests include:

    <bullet> (Our top regional priority)---essential infrastructure 
help on an aggressive schedule to rebuild the levees to real Category 3 
strength to provide disaster mitigation, structural stability, and 
psychological reassurance for businesses and residents to return to the 
area.
    In addition, we respectfully request long term funding to implement 
plans developed by the Corp of Engineers and other experts to protect 
the area from a Category 5 hurricane.
    <bullet> (Our second regional priority)---the allocation of 25 
percent to 50 percent of revenues derived from Louisiana offshore 
mineral production to implement our already developed coastal 
restoration plan. A significant contributor to the devastation caused 
by Katrina was the previous loss of much of our coastal wetlands, which 
are also vital to the national economy.
    <bullet> a grant program to provide vital immediate cash for 
businesses, similar to the recovery grants provided to Manhattan 
businesses, by Congress, following the September 11th disaster.
    <bullet> low interest loan programs for commercial and residential 
development similar to the post 9-11 plan for Manhattan.
    <bullet> funding to repair damages to key infrastructure for our 
ports, the airport and highways.
    <bullet> a comprehensive economic stimulus package authorizing 
various tax relief measures and incentives, including a combination of:
        -Relocation Tax Credits and Employment Credits targeted at 
        stimulating business re-entry into the market at pre-Katrina 
        employment levels
        -Accelerated Depreciation and Tax Exempt Bonds to provide an 
        incentive for increased capital projects
        -Personal Tax Relief and Tax Credits for those in the affected 
        region in order to entice back individuals, business owners and 
        corporate managers.

    The Southeast Louisiana Business Coalition recommended that the 
President and Congress create a single regional board to be directed by 
a person of national prominence to coordinate the recovery and 
rebuilding efforts in Southeast Louisiana. The group believes that 
relief coordination must occur at the federal, state and local levels 
in order to maximize resources, execute effective planning, and 
expedite implementation for post-Katrina recovery.
    We fully understand that Louisiana must take every action possible 
to help itself. With this in mind, our local Governments are proceeding 
with the development of action plans for recovery of their respective 
areas. Parish presidents and mayors are including business leaders in 
their recovery plans. Outside expertise from national groups such as 
the International Economic Development Council (IEDC), the U.S. Chamber 
of Commerce and American Institute of Architects (AIA) are actively 
involved. Governor Blanco convened special session of the Louisiana 
legislature to address budget issues and State incentive programs as 
well as convened the Louisiana Recovery Authority to coordinate the 
State efforts.
    We have convened a regional housing task force group to devise 
short and long-term solutions to this severe problem. Without housing 
for our citizens, we will be unable to provide a workforce to re-open 
our businesses. As recommendations are developed, we will share them 
with Congress.
    Almost eight (8) months have passed since the hurricane and some 
progress has been achieved. Congress has provided significant funding 
for levees and housing; Don Powell has been appointed; the GO Zone 
legislation is an important tool for future investment.
    Our major remaining problems are the following: housing for our 
workers with action slowed by funding shortages and FEMA flood control 
maps; lack of a trained workforce; escalating insurance costs or no 
insurance; local governments financial hardships leading to an 
inability to provide basic services; and lack of funding for economic 
development and infrastructure like provided to NYC.
    In conclusion, time is of the essence for our successful recovery. 
We request your thoughtful consideration of our proposed solutions. 
With the temporary assistance of the citizens of the United States, we 
will be successful.
                               __________
 Statement of Lewis E. Link, Ph.D., Director, Interagency Performance 
                         Evaluation Task Force

    Mr. Chairman and distinguished members of the committee, I am Dr. 
Lewis E. Link, Senior Research Engineer in the Department of Civil and 
Environmental Engineering, University of Maryland and Project Director, 
Interagency Performance Evaluation Task Force. It is with great respect 
and appreciation that I submit this testimony concerning the activities 
of the Interagency Performance Evaluation Task Force, IPET. The IPET 
was commissioned by the Chief of the U.S. Army Corps of Engineers 
shortly after Hurricane Katrina devastated southeast Louisiana and 
southern Mississippi. The task force was charged to determine the facts 
concerning the performance of the southeast Louisiana hurricane 
protection system during Katrina, to report those facts to the public 
and to quickly facilitate the integration of these facts into the 
repair and reconstitution of the hurricane protection system.
    To accomplish this mission, the IPET has assembled a broad array of 
national experts from federal and state agencies, academia and 
industry. More than 150 recognized experts from over 50 organizations 
comprise the IPET teams. Leadership is provided from within and 
external to the Corps of Engineers for each major task area. The 
American Society of Civil Engineers External Review Panel is providing 
direct peer review of IPET activities as we proceed. Also, the National 
Research Council Committee on New Orleans Regional Hurricane Protection 
Projects is providing strategic oversight and independent review of 
IPET work as well as information from other sources studying Katrina.
    IPET information and analysis is provided to the public through a 
public web site (https://IPET.wes.army.mil) that currently provides 
over 3,900 documents and reports on the New Orleans Hurricane 
Protection System and the IPET work. This web site is also used to 
solicit feedback and input from the public on IPET documents and for 
information needed such as eye-witness accounts of when specific 
breaching events occurred. IPET Report 1, Performance Evaluation Plan 
and Interim Status, posted on the web site on January 10, 2006, 
provides a detailed scope of work and plan for the IPET activities. 
IPET Report 2, Performance Evaluation Status and Interim Results, 
posted on the web site on March 10, 2006, provides the most recent 
documentation of the IPET analyses and the emerging results. The IPET 
final draft report, Report 3, Performance Evaluation of the New Orleans 
and Vicinity Hurricane Protection System, is scheduled to be available 
as a final draft on June 1, 2006. Following a review of this final 
draft report by both the ASCE ERP and the National Academies, a final 
IPET report will be released in the fall of 2006.
    The IPET effort has been directly tied to the efforts of Task Force 
Guardian, the Corps team managing the rapid repairs of the protection 
system, and other Corps elements. Over 20 individuals from Task Force 
Guardian and the New Orleans District participate in the various IPET 
teams, providing direct access to critical knowledge and information 
needed for the IPET analysis. This coordination also provides a direct 
pipeline to transfer emerging IPET results and lessons learned 
immediately into the design and construction of repairs to the 
Hurricane Protection System. The last section of this written testimony 
includes a summary of the types of products IPET has provided to Task 
Force Guardian. It is critical that these lessons learned are 
incorporated immediately into the design and construction process as 
they are established to ensure we have the optimum repair designs to 
address IPET identified problems. The IPET lessons learned are also 
being provided to the Corps to provide a basis for future design and 
construction to recover the system to authorized protection levels and 
to complete the authorized Hurricane Protection System. The IPET 
results and methods will also provide a basis for Corps Headquarters 
efforts to review and renew engineering policy and practice as well as 
providing a new level of capabilities for studying future alternative 
protection measures for New Orleans and the vicinity. IPET results will 
ultimately help provide better and stronger designs for future 
protection projects in Louisiana and possibly other protection systems 
nation wide.
    The following paragraphs describe the IPET efforts ongoing to 
answer the major questions that comprise the mission of the task force.

    1. Geodetic Datum: The complex geology of southeast Louisiana 
provides the additional challenge of variable and relatively rapid 
subsidence. To accomplish the IPET analysis, it was essential to have 
an up-to-date geodetic and water level reference system to accurately 
measure the vertical elevations of all significant structures relative 
to local mean sea level. IPET accelerated the efforts of the Corps and 
National Geodetic Survey to update the local and regional reference 
datum using Global Positioning System, or GPS, technology. IPET also 
established the accurate elevations of the levees, floodwalls, pumping 
stations and other relevant structures to support the performance 
analysis. This provided an accurate reference system for all entities 
working on the analysis and reconstruction of the hurricane protection 
system. It also provided an accurate definition of the heights of the 
protection system structures at the time of Katrina. These revised and 
accurate elevations will aid future work to achieve the original 
authorized levels of protection or to any new levels prescribed by 
future policy or congressional authorizations. They will also be used 
by the construction industry and others in southern Louisiana for 
projects that rely on correct elevations relative to the local water 
surface.
    2. Hurricane Protection System Characterization: The Hurricane 
Protection System is comprised of over 350 miles of levees and 
floodwalls. To understand the system's performance, it is necessary to 
understand the design criteria, the design assumptions and the ``as 
built'' characteristics of the individual structures. To accomplish 
this, the IPET has done a systematic examination of the documents 
concerning design and construction of the system to include the 
Standard Project Hurricane definition, the translation of the Standard 
Project Hurricane into surge and wave levels to develop design 
elevations, the fundamental design of the structures and the intent of 
the designers and the character of the structures as built. These 
results are the fundamental inputs to the performance analysis. With 
the exception of some systematic differences in elevations due to broad 
misinterpretations of local mean sea level, to date, this comprehensive 
review and analysis has not found any significant disparities between 
the fundamental designs and the as-built character of the system.
    3. Storm Analysis: Katrina was a very large storm, generating 
perhaps the largest storm surge measured for the North American 
Continent and the largest waves on our continental coast measured by a 
NOAA buoy, approximately 55 feet. This created a hydrodynamic 
environment that was in some cases significantly greater than the 
Hurricane Protection System was designed to handle. This was 
particularly the case for the areas along the Mississippi River Gulf 
Outlet and the levees in Plaquemines Parish. The water elevations 
within the Inner Harbor Navigation Canal also exceeded the design 
levels. Coupled with the fact that many of these areas had actual levee 
elevations below authorized/design levels, resulted in significant 
overtopping of levees in these locations. Of particular significance 
was the fact that the waves striking the MRGO and Plaquemines levees 
had wave periods of up to three times the design criteria, essentially 
representing ocean waves, leading to much more wave run up and much 
more destructive force than anticipated by the original design. The 
IPET simulations of Katrina surge and wave levels were run on some of 
our Nation's most powerful supercomputers are some of the most advanced 
modeling efforts in engineering. These simulations resulted in a high 
resolution definition of the surge water levels and wave environments 
experienced by each section of levee or floodwall as a function of 
time. IPET coupled these data with the definition of the times of the 
breaching events, which allow determination of the specific water 
levels and wave forces that the individual structures experienced 
during the breaching process. One of the primary lessons learned here 
was the need for very accurate wind information and very high 
resolution computer grids for accurately modeling the storm and the 
resulting surge and wave conditions in the vicinity of the actual 
structures. High water marks were used as the primary calibration for 
these modeling efforts.
    4. Performance Analysis: The IPET performance analysis uses a 
combination of approaches to achieve an understanding of the most 
likely breaching mechanisms for the individual breach sites. The 
approaches include detailed field investigations, finite element or 
other computer simulations, conventional seepage or stability analysis, 
and physical modeling, both in centrifuges and a 1:50-scale hydraulic 
model of the 17th Street Canal. The performance analysis of the 17th 
Street Canal breach, as reported in IPET Report 2, provides an example 
of the level of detail and analysis methods used. Additional finite 
element analysis has been accomplished for the 17th Street site that 
will be released in the near future. The detailed definition of the 
breaching mechanism is necessary to determine the appropriate repair 
and reconstruction needed to make these sections more resilient in the 
future and to determine how to assess the integrity of similar 
structures that were not severely damaged by Katrina. Similar analyses 
are being completed for the London Avenue and Inner Harbor Navigation 
Canal breach sites. A separate analysis is ongoing to understand the 
performance of the levee sections along MRGO and Plaquemines Parish, 
focusing on the surge and wave levels experienced, the degree of scour 
and erosion experienced, the character of the materials in the levee 
and their placement and the true elevation of each section. These 
results will be documented and reported within the next month. The 
breaching mechanisms, and the understanding of why other similar 
sections did not fail, are vitally important. This information is being 
directly input in the assessment of the remaining sections of the 
Hurricane Protection System and to define the probability of different 
levels of performance of different component structures for the IPET 
risk and reliability analysis.
    5. Consequences: The amount of flooding resulting from the 
overtopping and breaching of the system during Katrina is being modeled 
for each drainage area. This capability, along with the 
characterization of the performance of the pumping stations, provides 
an ability to examine other scenarios. An example of such a scenario is 
the extent of flooding if there had been no catastrophic breaching in 
the system. The losses experienced during and as a result of Katrina 
are being characterized on a zip code and census block basis. Economic 
(domestic and commercial), environmental, life and safety and 
historical/social losses are being characterized. This information will 
allow correlation of consequences to physical performance. The life and 
safety and economic losses are also being incorporated into the IPET 
risk and reliability assessment. The completed consequence products 
will be released in the IPET final report on June 1.
    6. Risk and Reliability: A risk and reliability assessment is being 
accomplished to provide a system--wide examination of the relative 
vulnerability of the various drainage basins (polders or parishes) to 
flooding and losses, given the condition and character of the 
components of the hurricane protection system on June 1. This work 
incorporates both stage--frequency and stage--damage relationships that 
offer the opportunity to examine risk individually at the zip code or 
census block level or consolidated up to sub basins, basins or polders, 
parish or system-wide levels. It also allows examination of the impact 
of changing the character of the protection for a given reach, 
providing a means to examine how alternative approaches to protection 
can reduce risk. The risk information for Katrina and for the repaired 
system as of June 1, 2006, will be provided for the East Bank Polders 
in the IPET final report.

    The vast bulk of the IPET analyses are expected to be completed on 
time and reported by June 1, 2006. The final draft of Report 3 will 
remain subject to revision until the final comments of the ASCE 
External Review Panel around July and the NRC Committee on New Orleans 
Regional Hurricane Protection Projects are received in September and 
incorporated into the report.
    I appreciate the opportunity to provide this information and pledge 
the continued dedication of the IPET efforts to the objective analysis 
of the performance of the hurricane protection system. We are all 
working toward the common goal of applying lessons learned to the 
repair, reconstruction and improvement of hurricane protection in New 
Orleans and southeast Louisiana.

 SUMMARY OF IPET PRODUCTS/SUPPORT PROVIDED TO TASK FORCE GUARDIAN AND 
                  TASK FORCE HOPE AS OF 17 APRIL 2006

    a. Data Repository--25 October 2005. The IPET Data Repository was 
established as an entry point for collecting information pertaining to 
the New Orleans and Southeast Louisiana Hurricane Protection Projects 
that needs to be validated as factual. This repository supports both 
the IPET and TFH/TFG efforts by providing a database where information 
can be reviewed for accuracy and quality prior to posting the 
information on the IPET public website.
    b. Establishment of the IPET Public Website--2 November 2005. The 
IPET public website was established as a way to be fully transparent in 
effectively sharing factual information pertaining to the New Orleans 
and Southeast Louisiana Hurricane Protection Projects. The website 
provides a way to proactively communicate information that might 
otherwise require the public and TFG to process Freedom of Information 
Acts.
    c. Establishment of On-Line Team Workspace using Groove--22 
September 2005. To enable IPET, ERP, and members of TFH/TFG with on-
line workspaces to communicate and share information virtually, Groove 
software and technical support was provided by IPET. Through these 
virtual workspaces information can be effectively and efficiently 
shared. Groove is a primary tool used to bring the IPET, ERP, and TFH/
TFG teams together in sharing knowledge and information required to 
accomplish their missions.
    d. Integration of the IPET Public Website and the TFH/TFG 
Electronic Bid Solicitation Websites--15 November 2005. As a way to 
more effectively enable public benefit from the historic and 
performance-related information on the IPET public website and the 
reconstruction plans and specifications on the TFH/TFG electronic bid 
solicitation website, electronic linkage was provided to facilitate 
integration of the two sites.
    e. ``Summary of Field Observations Relevant to Flood Protection in 
New Orleans, LA''--5 December 2005. This IPET review provided Task 
Force Guardian with a simple statement of concurrence or non-
concurrence from the IPET floodwall and levee sub team and additional 
relevant discussion for each of the major findings in the ASCE/NSF 
report's chapter eight, ``Summary of Observations and Findings.'' The 
additional discussion relates to the analysis being conducted by the 
IPET or others that would assist in applying the ASCE/NSF findings to 
the reconstruction of hurricane protection in New Orleans.
    f. ``Preliminary Wave and Water Level Results for Hurricane 
Katrina''--23 November 2005. This IPET report to TFH/TFG included 
observations from the IPET surge and wave sub team from a field trip 
and overflight of New Orleans and Southeast Louisiana.
    g. ``Summary of IPET Numerical Model of Hurricane Katrina Surge and 
Wave Plans, Approach and Methods''--19 December 2005. This PowerPoint 
presentation by the IPET surge and wave sub team provided TFH/TFG with 
an update on wave and water level results for Hurricane Katrina. Wave 
and water level results from fast-track simulations of upper Category 3 
type storms on various storm tracks and a Standard Project Hurricane 
event were also provided.
    h. Review of Proposal to Float In and Sink a Barge to Close Canals 
by June 2006--28 December 2005. The proposal included the use of 
existing large ship tunnel thrusters mounted on a barge with huge 
pumping capacities. Review determined that the closure plan does not 
have enough pumping capacity to match existing pumps during a 
hurricane. The impact of barges on levee and floodwall integrity was 
also examined in depth.
    i. Technical Support to TFG on the Analysis and Design of the 
Reconstruction Plans and Specifications for the Breaches--Continuous 
Support as Needed. Technical support continues to be provided to TFG on 
an as needed basis. As a minimum, monthly face-to-face meetings take 
place in New Orleans. This support includes geotechnical and structural 
consultations. These discussions also include reviews of plans and 
specifications for reconstruction features such as T-walls, L-walls, I-
walls, levees, and foundation investigations.
    j. Evaluation of Existing and As-Built Conditions at Canals--On-
going. This evaluation includes concrete and steel material properties 
for reinforcement and sheet piles on the I-walls, as-built length of 
sheet piles, surveys, and foundation material properties and boring 
logs.
    k. Life-cycle Documentation of the Hurricane Protection System--On-
going. This documentation includes a review of the design, 
construction, and operation and maintenance of the hurricane system.
    l. Verification of Current and Reconstructed Floodwall Elevations--
November 2005. Established a tidal gage in November 2005 at the 17th 
Street Canal to monitor current sea level relationships to the newest 
NAVD88 datum epoch (2004.65). Verified floodwall elevations on 
Lakefront outfall canals and IHNC relative to this latest tidal and 
vertical epoch.
    m. LIDAR Ground Truthing--On-going. Currently performing ground-
truthing surveys throughout the region to calibrate various LIDAR-based 
elevation models used by Task Force Guardian.
    n. Densification of Control Benchmarks--31 December 2005. IPET has 
established approximately 75 vertical benchmarks throughout the region. 
These control points are being used for Task Force Guardian 
construction activities.
    o. Establishment of GIS Team--2 February 2006. The ``GIS Team'' was 
established to maximize the effectiveness and efficiency of the GIS 
resources within IPET, Task Force Guardian, Task Force Hope, and the 
New Orleans District. The GIS Team consists of members from each of the 
four teams and provides a way to integrate efforts and share 
information pertaining to the HPS. The GIS Team will also provide for a 
way to assure a smooth transition of IPET generated GIS information to 
the New Orleans District upon disbanding of IPET once its performance 
evaluation is completed. Significant IPET data sets shared with TFG in 
January and February 2006 include the digital elevation models, 
vertical datum survey data, geotechnical data, and photographs.
    p. Insight into probable cause of breaching at 17th Street Canal--
Continuous ending March 2006. Information was shared with TFG on the 
probable cause of breaching at the 17th Street Canal. Recommendations 
were provided on considering the formation of a gap at the base of 
cantilever I-walls and shear strength variations between the centerline 
and inboard toe of levees used in combination with I-walls.
    q. Storm Surge and Wave analysis results for Katrina and historical 
storms--December 2005. Information pertaining to modeled Katrina storm 
surge and wave heights and periods for various locations along the HPS 
was provided to TFG. In addition, modeled surge and wave results from 
other historical storms were also provided.
    r. Review comments on canal closure structures--December 2005 and 
January 2006. IPET review comments for the outfall canal closure 
structures were provided to aid in development of high quality P&S for 
the closure structures.
    s. Provided comments in IPET Report 2 regarding comparison of 
Hurricane Katrina wave and period conditions with design values--March 
2006. Design wave conditions, particularly wave period, should be re-
evaluated for the east-facing levees in east Orleans, St. Bernard and 
Plaquemines Parishes.
    t. Closure Structures Modeling--January-February 2006. IPET members 
at MVN performed modeling analysis of the closure structures on 17th 
Street, Orleans and London Ave Canals.
    u. MRGO White Paper--March 2006. Input on analysis of MRGO effect 
on storm propagation into metropolitan New Orleans and vicinity.
    v. Criteria for Assessment of I-Walls--March 2006 and ongoing-IPET 
members met with TFG to examine the results of performance analysis to 
date on 17th Street and London Avenue Canals. Criteria were developed 
to assess the integrity of the remaining sections of I-walls that were 
not severely damaged during Katrina. These criteria are currently being 
used determine the condition of non-damaged areas and to develop 
approaches to increase the resilience of these sections as necessary to 
increase protection for the next hurricane season.
                                 ______
                                 
        Responses by Lewis E. Link to Additional Questions from 
                            Senator Jeffords

    Question 1. I have attached testimony provided to the Senate 
Homeland Security and Government Affairs Committee in 2005 regarding 
the potential causes of levee failures.
    [The referenced testimony can be found on page 96.]
    Can you describe how your findings in the IPET report differ from 
these findings, what data you used to draw your conclusions, and the 
main reasons why you reached the conclusions presented in the IPET 
report? Please provide any documents for the record that you believe 
are pertinent to the answer to this question.
    Response.

                                FINDINGS

    The referenced testimony (November 2005 to Senate Homeland Security 
and Government Affairs Committee concerning Katrina) reflects, with the 
exception of a few observations noted below, reasonable conclusions 
given the level of information available at the time. This statement is 
in reference to the written submissions only. It is important to note 
that this testimony was based on observations without the benefit of 
analysis. As such, many of the stipulations are general in nature, but 
lack the specific facts and depth of understanding necessary for 
effecting repairs or reconstitution of protection. That was the driving 
force for the initiation of the more in-depth analyses that the IPET 
and others pursued following the initial data gathering phase that this 
testimony represents. Those statements made during the testimony that 
are based on more complete information are inaccurate as follows:
    LSU-Comment about prior pushing, pulling, and pushing sheet piles 
at 17th Street Canal greatly weakening the soils: There is no evidence 
that this activity had any influence on soil strength.
    LSU-Comment about potential of a lateral flow of water under the 
piling from the canal contributed to the failure at 17th Street: There 
was no evidence of lateral water flow under the sheet pile. The clay 
soils under the sheet pile do not support water flow.
    LSU-Comment about levee wall segments adjacent to breach were not 
interlocked and a number seemingly sheared off their piling foundation: 
The floodwall interlocks were designed as water stops, not structural 
elements. They, in fact, performed beyond expectations with regard to 
separation. We found little or no evidence of the floodwalls shearing 
off the sheet piles. Numerous segments of wall and sheet pile were 
recovered at the breach sites and none demonstrated this behavior.
    LSU-Statement about ``highly organic soil was used to create the 
levee embankment'': The levee embankment was constructed of clay 
materials of reasonable quality. The clay embankment of the levee was 
constructed on a peat layer that underlies the region.
    LSU-Statement that sheet pile at 17th Street Canal should have been 
driven 60 feet. below sea level: There is no basis for this statement. 
The clay soils at the site prevented under seepage which would have 
been the major reason for deeper sheet piles. Deeper sheet piles may 
have helped at the London Avenue breach sites which were built in sand.
    LSU-Comment concerning London Avenue Canal west breach stating that 
sheet piling on east side of breach were driven 26 feet and only 11.4 
feet on west side: More accurate sheet pile measurements have been made 
and documented in the IPET report. The speculation of sheet piles being 
shorter than the specified by the design was shown to be false when a 
number of the sheet piles were pulled to confirm their measurements. 
All depths were in accordance with design specifications.
    IPET analyses were accomplished by a task force of experts from 25 
Universities, 23 private sector firms, and Government agencies. All 
IPET plans, processes and results were reviewed as they were developed 
by the American society of Civil Engineers External Review Panel, 
providing confidence in immediately putting findings and lessons 
learned to work in the repair and reconstitution of hurricane 
protection in New Orleans. As such, the IPET results have been reviewed 
and applied as they were developed and are essentially already in the 
ground in the repairs accomplished and imbedded in the processes being 
used to recover and complete the system and examine higher levels of 
protection.
    The following are more specific facts based on the in-depth IPET 
analyses and validated by the ASCE External Review Panel. These facts 
are documented in IPET Draft Final Report available as of 1 June at 
https://ipet.wes.army.mil.
Hurricane Protection System
    Rapid and variable subsidence caused significant loss of intended 
levels of protection, in some locations greater than 2 feet.
    A mis-interpretation of the relationship between local mean sea 
level and the geodetic datum resulted in some structures being 
constructed below (at times between 1 to 2 feet) the design elevations.
    With the exception of the structures constructed below design 
elevations due to mis-interpretation of the local datum, the structures 
were built largely as designed. Levees built with hydraulic fill were 
intended to use that material with a clay cap layer to provide erosion 
protection. The levees were not designed to withstand significant 
overtopping. All sheet piles sampled were driven to specified depths. 
All structural materials sampled were within specifications.
    Design methodologies used were typical for the time and local 
practice, as was the data used for the design. The designs were not 
conservative enough to deal with the unknown or unanticipated 
conditions and mechanisms.
    No changes to the original designs were made to accommodate re-
definition of the hazard (1979) or discovery of datum changes (1984).
    The piecemeal design and construction of the protection system over 
a period of decades, yet unfinished, resulted in inconsistent levels of 
protection and prevented the composite of the hurricane protection 
structures and measures from performing as a system.
Storm
    Hurricane Katrina generated the largest storm surge measured in 
North America, which along with a severe wave environment, overwhelmed 
structures to the east and southeast of New Orleans.
    Katrina created the largest waves (55 feet) measured by a NOAA Buoy 
in the Gulf.
    The storm surge level varied considerably by location. The largest 
surge was experienced along the levees of St. Bernard and Plaquemines 
Parishes and the lowest along the south shore of Lake Pontchartrain.
    In many instances the combination of surge and waves far exceeded 
the design criteria for the structures.
    Wave heights, with a few exceptions, were comparable in amplitude 
to design assumptions. Wave periods, however, along the east side were 
about three times longer than that assumed for the designs. These long 
period waves dramatically increased wave run up and the duration of 
overtopping.
    Overtopping waves created high velocity water flow down the back 
sides of the levees creating large potential for erosion. Erosion 
potential on the back (protected) sides of the levees greatly exceeded 
that on the front (water facing) sides.
    Surge and wave conditions in the IHNC exceeded design levels.
    Surge and wave conditions within the drainage canals did not reach 
design levels.
Performance
    Of the 50 major breaches, 46 were the result of overtopping and 
subsequent erosion of the levee itself, or the materials behind the 
floodwall causing instability and breaching.
    Structure elevations, lower than design intent due to subsidence, 
incompletion of the protection system and in some cases mis-
interpretation of the local datum, added to the extent and impact of 
overtopping and breaching.
    Breaches in the levees primarily occurred due to erosion induced by 
the high velocities of waves overtopping the levees in areas with 
relatively thin clay caps over erodible (typically hydraulic fill) 
materials. Flow velocities were three times greater on the back sides 
of the levees than on the front (water facing) side. Erosion potential 
is directly proportional to velocity to the third power making the 
probability of erosion 27 times greater on the back (protected) side of 
the levee than on the front.
    There was little or no evidence of systemic erosion or breaching of 
levees from the water (front) side.
    Many levee sections that were built of erosion resistant materials 
were overtopped and did not breach.
    Four of the breaches occurred because of foundation failures, all 
involving I-walls and the deflection of the wall which compromised the 
stability of the levee floodwall structure leading to failure. These 
structures failed before water reached their design limits. The failure 
mechanism was not considered in the original design.
    A number of I-walls along the IHNC failed as a result of 
overtopping and erosion of soil materials behind them which reduced 
their stability. The overtopping in these areas was increased by the 
loss of protected elevation by subsidence.
    Transition areas from one type structure to another or between 
areas with different heights created weak spots and were prone to 
failure.
    The MRGO channel had little impact on the water levels experienced 
within the IHNC from Katrina.
Flooding
    Flooding from Katrina covered almost 80 percent of New Orleans and 
vicinity.
    For Orleans and St. Bernard Parishes, approximately two-thirds of 
the flood volume entered the protected area through breaches. The 
remaining one-third was due to combination of rainfall and overtopping.
    Overall, breaching was the source of approximately half the total 
volume of flooding.
    Pump stations, due to their inoperability during the storm, 
contributed little to the reduction in flooding. Their inoperability 
after the storm considerably lengthened the time required for 
dewatering.
    Residential areas experienced the majority of the flooding.
Consequences
    The most serious consequence of Katrina was the high number of 
fatalities, most associated with residential areas.
    While a large number of people were able to evacuate, the groups 
least likely to be able to do so on their own, the poor, elderly and 
disabled, were hardest hit.
    Approximately half of the direct property losses, excluding public 
infrastructure, can be associated with flooding from levee and 
floodwall breaches.
    Katrina caused over $20 billion in direct property damages, 
residential areas experienced 78 percent of the total. There was an 
additional $6 to $7 billion in losses to public infrastructure.
    Combined with the displacement of population, workforce and 
businesses, the impacts to infrastructure and affiliated public 
services will contribute to a slowed recovery.
    The flooding caused a breakdown in New Orleans' social structure, a 
loss of cultural heritage, and dramatically altered the physical, 
economic, political, social and psychological character of the area.
Risk
    The risk analysis is currently being reviewed and will be provided 
soon through the IPET website. This information will define the 
relative vulnerability of areas to future flooding and the sources of 
that vulnerability. It will also provide a system-wide analytical 
platform for assessing alternative approaches to providing higher 
levels of protection to the New Orleans area. The risk methodology and 
related information bases are being transitioned to be a component of 
the Louisiana Coastal Protection and Restoration Study.

                           Data and Rationale

    The data used to reach these findings are extensive and 
comprehensive. They have been organized and managed through an 
extensive information management effort that has acquired, evaluated, 
validated and maintained the information to ensure IPET analyses were 
using quality inputs. This repository was also the resource used to 
provide information for the IPET public web site which currently 
comprises well over 4,300 documents. Much of the data used in the 
analyses came from a wide variety of sources but none as significant as 
the extensive records of the corps New Orleans District and other 
Government offices. These data were used to drive models and analyses 
that generated new information that were input to the analyses for 
determining findings and lessons learned. The most advanced analytical 
methods and tools were used in the analyses, including the DOD's most 
sophisticated super computers, the largest centrifuge in the world and 
the most capable hydrodynamic computer codes. It was common to take 
multiple and independent approaches to determine critical information 
such as the failure modes of the breach sites. Extensive field 
observations were commonly compared to detailed computer model results, 
physical modeling and experiments to ensure that the mechanisms 
identified were confirmed by multiple approaches. In addition, similar 
analyses were accomplished by separate groups to provide two 
perspectives on the results. This was the case for both the centrifuge 
and numerical stability analyses of floodwall performance. The 
redundancy in analysis was essential in that the results, following 
peer review by ASCE, were being directly applied to the repairs of the 
damaged sections of the hurricane protection system and to the 
evaluation of the undamaged sections to ensure their integrity for the 
coming hurricane season. I submit to the committee (CD attached), for 
incorporation into the record, the IPET Draft Final Report as 
documentation of the full details of the data and methods used to 
achieve and validate the IPET findings.
                               __________
 Statement of Thomas L. Jackson, P.E., F.ASCE, D. WRE, past president, 
  American Society of Civil Engineers and senior vice president, DMJM 
                             Harris (Ret.)

    Good morning. My name is Thomas Jackson, and I am pleased to appear 
before you today to testify on behalf of the American Society of Civil 
Engineers\1\ (ASCE) as you examine the current status of the 
reconstruction of New Orleans' levees.
---------------------------------------------------------------------------
    \1\ASCE, founded in 1852, is the country's oldest national civil 
engineering organization. It represents more than 139,000 civil 
engineers in private practice, government, industry, and academia who 
are dedicated to the advancement of the science and profession of civil 
engineering. ASCE is a 501(c) (3) non-profit educational and 
professional society.
---------------------------------------------------------------------------
    Mr. Chairman and members of the subcommittee:
    I am a past president of ASCE and currently serve on ASCE's 
External Review Panel, or ERP. The role of the ERP--which is composed 
of 14 specialists who possess a range of technical expertise--is to 
provide an objective, independent technical review of the Internal 
Performance Evaluation Team's activities which is carrying out an 
assessment of the performance of the flood-control levees in New 
Orleans following Hurricane Katrina.\2\
---------------------------------------------------------------------------
    \2\Hurricane Katrina was a catastrophic storm that made landfall in 
the Gulf Coast near the Louisiana and Mississippi border with wind 
speeds near 150 mph. Flooding, not high winds, was the principal cause 
of damage in New Orleans following the failure of numerous levees in 
and around the city. For an analysis of the hurricane and its impact on 
the levee system in New Orleans, see THE AMERICAN SOCIETY OF CIVIL 
ENGINEERS AND THE NATIONAL SCIENCE FOUNDATION, PRELIMINARY REPORT ON 
THE PERFORMANCE OF THE NEW ORLEANS LEVEE SYSTEMS IN HURRICANE KATRINA 
ON AUGUST 29, 2005 (Nov. 2, 2005) at http://www.asce.org/files/pdf/
katrina/teamdatareport1121.pdf.
---------------------------------------------------------------------------
    As engineers, our paramount concern is for the safety, health, and 
welfare of the public. We have learned a great deal from the tragedy of 
New Orleans, lessons that we hope will allow us to prevent future loss 
of life and property in Louisiana and elsewhere. We support federal, 
state, and local agency efforts to ensure that all infrastructure 
systems are (1) robust, i.e., strong enough and reliable enough to do 
the job; (2) contain redundant systems to prevent total system failure; and (3) are resilient enough to allow them to be quickly repaired when the 
inevitable failures within large, interdependent systems do occur.
    Let me begin by saying that the lines of communication between the 
IPET and the ERP are functioning extremely well, and a good working 
relationship has been established. Since November, the ERP has provided 
the IPET with hundreds of comments, questions, and suggestions on a 
continuing basis. The IPET has considered all of the ERP's comments and 
most have already been incorporated into the IPET's work plan. We thank 
the IPET for its commitment to making good use of an independent review 
panel on a real-time basis to identify needed course corrections to 
ensure that the outcome is a robust, credible, and defensible 
performance evaluation.
    The ERP is currently in the midst of its detailed review of IPET 
Report 2. This review follows on two-and-one-half days of meetings with 
IPET at the Engineer Research and Development Center in Vicksburg a 
little over a month ago. On March 23, 2006 we delivered a letter to 
General Strock, Chief of Engineers which noted several key concerns 
that the ERP has identified at this stage of the performance 
evaluation.
    In general, the ERP finds that Report 2 represents an important, 
technically sound body of work. We are favorably impressed with many 
aspects of the studies that have been made, including the piecing 
together of information to present a clear picture of the physical 
events during Hurricane Katrina. We generally concur with the technical 
data, methods of analysis, and technical findings presented in Report 
2. The ERP notes that particularly good progress has been made in 
several key areas including:

    1. Defining the storm characteristics.
    2. Hydraulic modeling of storms.
    3. Linkage of eyewitness accounts, data, and computer modeling 
results.
    4. Definition of a datum and vertical elevation adjustments 
relative to local mean sea level.
    5. Investigation of failure mechanisms at the 17th Street Canal.

    Two key factors identified by IPET apparently played major roles in 
the 17th Street Canal failure:

    1 The formation of a gap between the sheetpile wall and the canal-
side embankment as the water in the canal rose, which enabled 
development of full hydrostatic pressure against the wall. The 
formation of this water-filled gap was apparently not considered in 
design.
    2 The presence of low-strength clay in the backyards on the 
protected side of the floodwall. Strengths used in design were 
apparently obtained from samples taken near the centerline of the 
levee, which had the benefit of significantly more overburden pressure 
than the clay layer in the backyards.
    The ERP is looking forward to seeing the results of additional 
analyses, which are planned for the 17th Street Canal, including finite 
element modeling and additional centrifuge testing. The ERP is 
particularly encouraged by one of the key outcomes to date of the 
analysis of the failure at the 17th Street Canal--that is the 
development of a rational, analytical process that will enable a more 
reliable evaluation of the stability of other reaches of floodwall, 
particularly those that may show no outward signs of distress following 
Katrina and Rita. Clearly, the importance of hydrostatic loading and 
the need to adjust the strength of the clay to account for the effect 
of overburden pressure will be crucial to gaining confidence in the 
ability of other reaches of floodwall to withstand the loads that we 
saw during Katrina.
    Since the recent meeting in Vicksburg, the ERP has taken the 
opportunity to review IPET Report 2 in greater detail. At this time, 
there appear to be a number of key lessons learned, which must be taken 
into account by Task Force Guardian, and in any analysis that looks to 
develop a system that will be able to withstand Category 4 or 5 
hurricanes in the future. The ERP's immediate attention is focused on 
three main areas of potential lessons learned.
    First, we are concerned about an apparent aggressive design 
approach, which may not have been warranted for a water-holding 
structure of this importance. It appears that at nearly every step of 
the way, the envelope was pushed. Let me explain. The target factor of 
safety was apparently 1.3 for design, which may be on the low side for 
structures whose failures were capable of causing death and widespread 
destruction. Against this backdrop, quite optimistic soil strengths 
were selected despite:

    1. The fact that the local geology suggested that conditions would 
be highly variable, even over relatively short distances. For example, 
the analysis of the 17th Street Canal failure suggests that natural 
variations in soils strengths lead to factors of safety about 20-30 
percent higher just north and south of the failure zone.
    2. The fact that soil conditions and strengths were taken from 
widely spaced borings that were concentrated along the centerline of 
the levees.
    3. The fact that soil strengths in the backyards were not adjusted 
to account for the reduction in overburden pressures.

    In addition, the forces on the wall did not apparently include the 
possibility that full hydrostatic loads could develop through the 
formation of a simple gap caused by the wall moving away from canal-
side embankment as the water in the canal rose above normal levels.
    Second, there may have been problems associated with handoffs 
during the design process, or at interfaces between key players in the 
design. For example, were potential limitations in soil strength 
clearly communicated between the geotechnical team and the floodwall 
design team? Were concerns about hydrostatic loading on the wall 
clearly communicated and considered? How would the system have 
performed if the sheetpiles had been driven to greater depths?
    Third, how was the corps' quality assurance/quality control process 
followed during design? If, for a structure of this importance, 
techniques such as independent peer review or use of a Board of 
Consultants had been used, would the performance been different?
    These concerns merit in-depth assessment to document lessons 
learned and to provide for ways to move forward that incorporate those 
lessons learned. The ERP will be looking into these matters.
    In our review of IPET Report 1, the ERP commented on four critical 
areas that may go beyond IPET's scope. The ERP is pleased that the 
Corps is making progress on two these issues. First, the organizational 
complexities and lack of centralized, comprehensive management at the 
local, state, and federal levels are apparently being addressed. 
Second, issues associated with treating the hurricane protection 
facilities as a complex and interdependent system are also apparently 
being addressed. For example, closing off the three drainage canals and 
moving the pump stations to Lake Pontchartrain is a step in the right 
direction. The 17th Street Canal failure analysis certainly strengthens 
case for doing so.
    The ERP is concerned that there has been apparently little progress 
on two other issues. First is protection from overtopping. The breaches 
were catastrophic, and some overtopping is far better than overtopping 
with breaching. The hurricane protection system needs to be resilient 
in a way that overtopping could occur without causing catastrophic 
failure.
    Second, the ERP remains concerned about the way the system was 
conceived and developed. For example, how were life safety and risk 
factored into the design methodology, such as selection of the factor 
of safety? It appears that for the 17th Street Canal failure section, 
decisions made at several stages of the design process were played too 
close to the margins. By this I mean that assumptions and decisions 
were apparently not as conservative as they should have been, 
particularly given the grave consequences of the levee failure. In the 
end, the design did not adequately account for the uncertainties and 
variabilities inherent in such a complex system.
    In summary, there are important lessons to be learned for flood 
protection systems in New Orleans and perhaps other cities and states. 
There are at least six key lessons to date:

    1. Design methodology and selection of factors of safety for 
critical structures--what is the appropriate value for levees in the 
future?
    2. Selection of soil strengths and accounting for variability.
    3. The importance of water and considerations of hydrostatic 
loading.
    4. Selection of sheetpile depths.
    5. The need for clear communications at handoffs and interfaces.
    6. QA/QC procedures and peer review.

    Based on the findings discussed above, the ERP recommends the 
following actions be undertaken, with urgency, for levees and 
floodwalls in New Orleans and perhaps elsewhere in the Nation:

    A. All I-walls should be re-evaluated for current design loadings 
assuming a water-filled gap along the flood side of the wall.
    B. All levees underlain by soft soils should be reevaluated for 
current design loadings accounting for reduced shear strength of soil 
in areas at or beyond the toe of the levee.
    C. All levees and floodwalls should be reevaluated to identify 
those areas with a questionable degree of conservatism inherent in the 
design process, and those sections of concern reanalyzed for current 
design loadings employing an appropriate degree of conservatism.
    D. A risk-based approach toward defining the design hurricane 
conditions is needed. We advise the Corps to proceed as quickly as 
possible toward redefining the standard project hurricane using 
principles and practices similar to those used in establishing design 
criteria for other infrequent but potentially catastrophic natural 
disasters such as earthquakes and floods.
    E. External peer review is an important component of design 
practice for all critical life-safety structures. We recommend that the 
steps described above receive external peer review throughout the 
design process.

    In closing the ERP will continue evaluating IPET's Report 2, and 
will issue its own report in the coming weeks.. Thank you, Mr. 
Chairman. That concludes my testimony. I would be pleased to answer any 
questions that you may have.
                               __________
Statement of Carlton Dufrechou, Executive Director, Lake Pontchartrain 
                            Basin Foundation

    Mr. Chairman, Senator Vitter, members of the Senate Environment and 
Public Works Committee, I am Carlton Dufrechou, the Executive Director 
of the Lake Pontchartrain Basin Foundation (LPBF). On behalf of the 
Pontchartrain Basin Foundation and the citizens of south east 
Louisiana, thank you for the opportunity to speak with you about 
sustainable hurricane protection for our region.
    The LPBF is a private, non-profit organization created by the 
Louisiana State Legislature in 1989, to coordinate the restoration and 
preservation of the water quality and habitats of the 10,000 square 
mile Pontchartrain Basin. Our primary role is to act as a spokesperson 
for Basin citizens and as a catalyst to develop and initiate 
restoration programs and activities.
    Personally, I am a native of New Orleans. My education is in 
engineering. Earlier in my career, I worked with the Corps of Engineers 
(COE) as a planner and project manager. Since 1992, I have been with 
the Lake Pontchartrain Basin Foundation.
    Some events and dates like September 11, 2001, are etched in our 
lives. One of those for me is Hurricane Betsy and 1965. In 1965, I was 
9 years old. We lived on Bellaire Drive, just a few blocks from what 40 
years later would become the infamous breach of the 17th Street Canal 
floodwall. In 1965, the floodwall did not exist. Only a small levee, 
one barely above my height then, paralleling the canal, protected our 
home. Our lakefront levees were not much higher. Betsy left me with 
many memories. I recall how, as the storm approached my father and 
uncle, an architect and engineer respectively, discussed the 
possibility of the levees being overtopped and flooding. I remember how 
we left our home and went to ride out the storm with my godfather who 
lived in an older and higher section of the city. I recall the darkness 
and howling winds and rains as we huddled in the center hallway that 
night. I remember the next morning when my dad returned from checking 
on our house and said that we could go home--that the levees had held 
in our neighborhood. I remember learning that others were not as 
fortunate-that much of St. Bernard and the 9th Ward had flooded--that 
the destruction and losses were tremendous.
    Over the next decades, to prevent a reoccurrence of Betsy's 
devastation, levees are raised and floodwalls are built. Some were 
raised as high as 17 feet on the lakefront. This became the hurricane 
protection system for metro New Orleans.
    For the next 40 years, almost to the day, it seemed to work.
    Then another event like September 11 or the death of President 
Kennedy was etched in our lives-Hurricane Katrina. It directly impacted 
one million plus and indirectly impacted the economy of America.
    Although while in the Gulf, Katrina was a geographically larger and 
more powerful storm than Betsy, much about the two storms was alike. 
Both crossed just east of New Orleans and both were Category 3 
hurricanes as they passed the latitude of the city. But Katrina's 
devastation was orders of magnitude greater than Betsy. There was one 
other very significant difference-our coast. Forty years ago it was 
still strong.
    Louisiana's coast has always been the New Orleans region's first 
line of defense against hurricanes. In recent years, we've recognized 
that more. Unfortunately, almost 40 years ago when our present 
hurricane protection system was designed, many did not.
    For our region to be sustainable, hurricane protection for the 
future must change. A major hurtle will be changing the way our 
agencies operate. Navigation and transportation projects have 
traditionally been developed and implemented independently from 
hurricane projection and coastal restoration. The result of this 
independent project development has been tragic for our region. The 
most conspicuous example in the Pontchartrain Basin is the Mississippi 
River Gulf Outlet (MRGO). This deep draft navigation channel has 
drastically altered our coast. It cut a channel 40 miles long 
perpendicular to the coast breaching our natural lines of defense 
against hurricanes. The MRGO was completed in 1965, the same year as 
Hurricane Betsy. Many attribute flooding from Betsy to the MRGO. The 
MRGO did more. It changed the coastal hydrology and ecology. These 
changes acted like a cancer, progressively eating away at coastal 
wetlands. After 40 years of coastal disintegration, it is no 
coincidence that the impacts of Katrina were horrific to our region. 
The MRGO must go.
    Yet, our lead hurricane protection agency, the COE, is unable is 
act. The MRGO is a federally authorized project that Congress has 
directed the COE to maintain for deep draft ship operations. They have 
their orders and their hands are tied. Congress can change those orders 
by deauthorizing the MRGO. The MRGO is a clear and present danger to 
our region. Please deauthorize it immediately.
    We must consider the big picture for all future hurricane 
protection. We need stronger levees and floodwalls but they are not 
enough. Coastal restoration, our first line of defense, must be 
integrated into hurricane protection. Recognizing this, the Multiple 
Lines of Defense Strategy was developed. In the simplest terms, this 
strategy shows how natural features of our coast like barrier islands, 
marshes, and ridges compliment engineered features like levees to 
protect the greater New Orleans region from hurricanes. Applying this 
strategy, 10 coastal restoration project areas were identified. These 
are the 10 Pontchartrain Coastal Lines of Defense (attached). They 
include restoring the Chandeluer barrier islands, maintaining marsh 
land bridges, restoring natural ridges like Bayou La Loutre, 
reintroductions of Mississippi River water, and others. Our goal is to 
mimic nature by restoring the plumbing of the coast. The outcome is a 
self-sustaining coast. The total coast is $1 billion. The investment is 
significant but it will secure the future of our region and secure 
continued economic benefits to America for perpetuity.
    We know what to do and we have the expertise. Stronger levees plus 
a stronger coast will provide the hurricane protection we desperately 
needed.
                                 ______
                                 
     Response by Carlton Dufrechou to an Additional Question from 
                            Senator Jeffords

    Question. In your written testimony, you discussed briefly the 
Multiple Lines of Defense Strategy and the 10 coastal restoration 
projects that are part of that strategy. Can you elaborate on each of 
these projects and how their implementation would provide additional 
hurricane protection?
    Response.

    [GRAPHIC] [TIFF OMITTED] T2276.041
    
    [GRAPHIC] [TIFF OMITTED] T2276.042
    
    [GRAPHIC] [TIFF OMITTED] T2276.043
    
    [GRAPHIC] [TIFF OMITTED] T2276.044
    
           Statement of Sandy Rosenthal, Founder, Levees.org
    I am Sandy Rosenthal the Founder of Levees.Org. We are a non-
partisan grassroots group formed in 2005 after Hurricanes Katrina and 
Rita. We have over 3,200 members and our website has hosted over 22,000 
unique visitors. We say the destruction that the citizens of New 
Orleans and southern Louisiana suffered was due to disastrous design 
and planning mistakes by the U.S. Army Corps of Engineers. We hold the 
corps accountable for what is inarguably the worse engineering disaster 
in American history.
    The IPET interim reports, ERP letter in response to IPET Interim 
Report No. 2 and the NSF interim reports have all pointed to improper 
engineering by the USACOE which led to the breach at the 17th Street 
Canal at surge levels well below design heights. We expect similar 
findings to emerge as regards the two breaches at the London Ave Canal 
floodwall and the many breaches of the IHNC floodwalls.
    However, the problems with the USACOA and the Federal process of 
funding and building flood protection run much deeper than the 
technicality of engineering errors.
    The USACOE:

    <bullet> Designed to the wrong storm. The Standard Project 
Hurricane (SPH) was supposed to be the most severe storm reasonably 
characteristic of the region. In 1965 the USACOA chose a 100 mph storm. 
By 1972 the National Weather Service had informed the corps that new 
data showed this standard was insufficient. The corps did nothing.
    <bullet> Used the wrong safety margin. The 1.3 safety margin is not 
appropriate for structures protecting the lives and property of a major 
city. The corps should have easily known this.
    <bullet> Used the wrong cost-benefit analysis. No value was given 
to life. Little value has given to protecting developed property. This 
is not how to protect thousands of lives and tens of billions of 
exposed property.
    <bullet> Failed to account for overtopping. This issue was obvious 
and is considered a basic issue in flood protection. Now, post-Katrina, 
the corps has made and urgent request for funds to protect the levees 
and floodwalls from scouring due to overtopping. But, where was the 
urgency these past 40 years?
    <bullet> Never finished the IHNC West floodwall. This floodwall was 
essential to the protection of the City of New Orleans west of the 
IHNC. It is incredible that 6 miles of critical floodwall was not 
completed in 40 years. It is probable that the failure to complete the 
IHNC floodwall protection doomed the City even if no breaches had 
occurred. The corps will say they were not fully funded to complete 
this project. Such an excuse is utter nonsense. The USACOA understood 
the importance of this project and should have been screening for full 
funding.
    As citizens of Louisiana, we have no faith in the USACOE. The corps 
confuses ``authorization'' and ``funding'' with mission. They have no 
sense of urgency. And, it has become obvious that they engineer to the 
money available rather than to the reasonable engineering standards 
that are required to protect lives and property.
    There are four keys to reforming the USACOE and to providing 
adequate flood protection for the citizens of Southeast Louisiana.

    1. The corps must have a clearly defined mission. That mission 
should be flood protection for the lives and property of Louisiana's 
citizens.
    2. The Corps must have a clear sense of urgency.
    3. All corps work must be subject to Peer Review. This review must 
be concurrent to prevent unnecessary delays. It must also be objective 
and challenging, not a comfortable relationship.
    4. A dedicated source of annual funding must be established. We 
suggest Louisiana's flood protection should be funded from the 
royalties on the State's onshore and offshore oil and gas production. 
This way, citizens' safety is not subject to annual congressional 
budgetary review.

    Thank you for accepting our testimony on behalf of the citizens of 
Louisiana.

[GRAPHIC] [TIFF OMITTED] T2276.001

[GRAPHIC] [TIFF OMITTED] T2276.002

[GRAPHIC] [TIFF OMITTED] T2276.003

[GRAPHIC] [TIFF OMITTED] T2276.004

[GRAPHIC] [TIFF OMITTED] T2276.006

[GRAPHIC] [TIFF OMITTED] T2276.007

[GRAPHIC] [TIFF OMITTED] T2276.008

[GRAPHIC] [TIFF OMITTED] T2276.009

[GRAPHIC] [TIFF OMITTED] T2276.010

[GRAPHIC] [TIFF OMITTED] T2276.011

[GRAPHIC] [TIFF OMITTED] T2276.012

[GRAPHIC] [TIFF OMITTED] T2276.013

[GRAPHIC] [TIFF OMITTED] T2276.014

[GRAPHIC] [TIFF OMITTED] T2276.015

[GRAPHIC] [TIFF OMITTED] T2276.016

[GRAPHIC] [TIFF OMITTED] T2276.017

[GRAPHIC] [TIFF OMITTED] T2276.018

[GRAPHIC] [TIFF OMITTED] T2276.019

[GRAPHIC] [TIFF OMITTED] T2276.020

[GRAPHIC] [TIFF OMITTED] T2276.021

[GRAPHIC] [TIFF OMITTED] T2276.022

[GRAPHIC] [TIFF OMITTED] T2276.023

[GRAPHIC] [TIFF OMITTED] T2276.024

[GRAPHIC] [TIFF OMITTED] T2276.025

[GRAPHIC] [TIFF OMITTED] T2276.026

[GRAPHIC] [TIFF OMITTED] T2276.027

[GRAPHIC] [TIFF OMITTED] T2276.028

[GRAPHIC] [TIFF OMITTED] T2276.029

[GRAPHIC] [TIFF OMITTED] T2276.030

[GRAPHIC] [TIFF OMITTED] T2276.031

[GRAPHIC] [TIFF OMITTED] T2276.032

[GRAPHIC] [TIFF OMITTED] T2276.033

[GRAPHIC] [TIFF OMITTED] T2276.034

[GRAPHIC] [TIFF OMITTED] T2276.035

[GRAPHIC] [TIFF OMITTED] T2276.036

[GRAPHIC] [TIFF OMITTED] T2276.037

  

                      <plus-minus><plus-minus><all>

</pre></body></html>
